APPENDIX A
Case:18-13553 Date Filed: 08/12/2019
Page: 1 of 8
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13553
Non-Argument Calendar
Docket No. l:17-cv-01181-TWT
WILLIAM JAMES, Sui Juris, TERRI V.
TUCKER, Sui Juris, a.k.a. Terri V. DonaldStrickland, a.k.a. TLo-Redness,
Plaintiffs - Counter
Defendants-Appellants,
versus
BARBARA HUNT, JUDGE THOMAS W.
THRASH, JR.,
Defendants-Appellees,
HARPO, LIONSGATE ENTERTAINMENT,
OPRAH WINFREY NETWORK, (OWN)
OPRAH WINFREY, d.b.a. Oprah Winfrey
Network, TYLER PERRY COMPANY, TYLER
PERRY STUDIOS (TPS), TYLER PERRY, a.k.a.
Emmett Perry Jr., a.k.a. Emmett J. Perry, a.k.a.
Buddy, a.k.a. John Ivory, a.k.a. Emmett M.
Perry, et al.,
DefendantsCounter/ClaimantsAppellees.
Appeal from the United States District Court for
the Northern District of Georgia
(August 12, 2019)
Before WILLIAM PRYOR, GRANT and BLACK,
Circuit Judges. PER CURIAM: William James
la

and Terri V. Tucker appeal pro se the district
court’s orders: (1) granting summary judgement
to Defendants on their counterclaims under the
All Writs Act, 28 U.S.C. § 1651(a), against
Plaintiffs in their underlying lawsuit, issuing an
All Writs Act injunction against Plaintiffs, and
denying Plaintiffs’ motion for judgment; and (2)
denying Plaintiffs’ petition for a writ of
denying their motion for
mandamus,
reconsideration, and granting their motion for
appeal. After review, we affirm.
Case: 18-13553 Date Filed: 08/12/2019
Page: 3 of 8
I. BACKGROUND
Briefly, this appeal concerns ongoing
litigation originally initiated when Plaintiffs filed
a pro se complaint against Lionsgate
Entertainment (Lionsgate), Tyler Perry, Tyler
Perry Company, Tyler Perry Studios (collectively,
the Perry Defendants), Oprah Winfrey, Oprah
Winfrey Network, and Harpo, Inc. (collectively,
the Winfrey Defendants), raising claims under
the Racketeer Influenced and Corrupt
Organizations Act (RICO), pursuant to 18 U.S.C..
§§ 1961 and 1964, the U.S. Copyright Act, 17
U.S.C. § 501, and numerous other state and
federal laws, seeking damages and other relief.
Their essential claim was that these
Defendants criminally plagiarized and/or
infringed Tucker’s copyrighted book and James’s
copyrighted screenplay through creating and
distributing two Tyler Perry movies. The district
court eventually ruled on several dispositive
motions, resulting in the effective dismissal of all
2a

of Plaintiffs’ pending claims. Plaintiffs then filed
an appeal in this Court (Case No. 17-14866), and
we affirmed the district court’s rulings on several
preliminary and dispositive motions. James v.
Hunt, 761 F. App’x 975 (11th Cir. 2019). In the
meantime, Plaintiffs filed a petition for writ of
mandamus, a motion objection to and seeking
reconsideration of the orders that were the
subject of the then-ongoing appeal, and a “Joint
Application to Appeal from All Orders and Final
Case: 18-13553 Date Filed: 08/12/2019
Page: 4 of 8
Order Rule 54(b) .’’Following Defendants’
responses, the district court issued an order: (1)
denying Plaintiffs’ petition for a writ of
mandamus; (2) denying their motion for
reconsideration; and (3) granting in part their
joint application to appeal to the extent they
could appeal as of right, and otherwise denying
the joint application (Mandamus Order).
the
Following
the
first
appeal,
Lionsgate/Perry/Winfrey Defendants filed in the
district court a Fed. R. Civ. P. 56 motion for
summary judgment on several of their
counterclaims for injunctive relief. Specifically,
they requested that Plaintiffs be barred from
filing any more lawsuits, in either state or federal
court, against them based on the same facts and
activities, which had formed the basis of
numerous prior unsuccessful lawsuits against
them.
The district court eventually granted this
motion and imposed a filing injunction against
3a

Plaintiffs (Injunction Order). The instant appeal
followed.
II. DISCUSSION
Before addressing the substance of the
issues on appeal, it is necessary for us to clarify
which of the district court’s orders are properly
before us. Plaintiffs designate in their notice of
appeal, and in their appellate brief, that they are
seeking to appeal from all of the district court
orders within Documents 1 through 169. They
raise 30 “issues” on appeal essentially arguing
error as to: (1) the district court’s preliminary
orders, Docs. 15, 71, 76, 95, 96; (2) the court’s
earlier orders
Case: 18-13553 Date Filed: 08/12/2019
Page: 5 of 8
which were the subject of Case No. 1714866—cumulatively granting and denying
Defendants’ pending motions, denying Plaintiffs’
pending motions, and dismissing Plaintiffs’
claims against Defendants, Docs. 124-39; and (3)
their attempts at consolidating the instant
appeal with the Case No. 17-14866. However,
only the district court’s Mandamus Order and
Injunction Order are properly before us in the
instant appeal. We already have reviewed and
ruled upon the district court’s prior orders in
Case No. 17-14866 and have denied Plaintiffs’
motions to consolidate.
Our holdings and rulings from the prior
appeal are binding on this appeal under the lawof-the-case doctrine and we decline to readdress
4a

any issues related to those previously reviewed
and ruled upon orders.
United States v.
Anderson, 772 F.3d 662, 668 (11th Cir. 2014)
(“The [law-of-the-case] doctrine provides that
“[a]n appellate decision binds all subsequent
proceedings in the same case.” (quoting 18B
Wright, Miller & Cooper, Federal Practice &
Procedure § 4478 (2d ed. 2002))).
We similarly decline to address any issues
that could have been raised in the prior appeal
but were not. See United States v. EscobarUrrego,110 F.3d 1556, 1560 (11th Cir. 1997)
(concluding that the law-of-the-case doctrine
applied both to issues actually raised in a prior
appeal and to issues that could have, but were
not, raised in a prior appeal). To the extent
Plaintiffs seek review of any order issued by the
district court after they filed the instant notice of
appeal, we do not have jurisdiction to review
Case: 18-13553 Date Filed: 08/12/2019
Page: 6 of 8
any such orders, as they failed to file a new
or amended notice of appeal designating those
orders. See Fed. R. App. P. 3(c)(1)(B) (“The notice
of appeal must... designate the judgment, order,
or part thereof being appealed . . . .”); Oster neck
v. E.T. Barwick Indus., Inc., 825 F.2d 1521, 1528
(11th Cir. 1987) (“The general rule in this circuit
is that an appellate court has jurisdiction to
review only those judgments, orders or portions
thereof which are specified in an appellant’s
notice of appeal.”). Accordingly, our review in this
appeal is limited to the district court’s
5a

Plaintiffs,
Mandamus Injunction Orders,
however, fail to properly raise any arguments
with regard to these orders. Instead, Plaintiffs’
brief on appeal focuses almost exclusively on
issues related to district court orders that, as
discussed above, are not properly before us in the
instant appeal.
In particular, as noted above, the brief
focuses primarily on the district court’s
preliminary and dispositive orders we addressed
in Case No. 17-14866, and on Plaintiffs’ attempts
to consolidate the instant appeal with that case.
While we read pro se briefs liberally, issues not
briefed on appeal by a pro se litigant are deemed
abandoned and will not be considered. Timson v.
Sampson, 518 F.3d 870, 874 (11th Cir. 2008). A
party abandons a claim or issue on appeal that is
not plainly and prominently addressed in its
brief. Brown v. United States, 720 F.3d 1316,
1332 (11th Cir. 2003). The party must go beyond
making passing
Case: 18-13553 Date Filed: 08/12/2019
Page: 7 of 8
references to the claim under different
topical headings, and must clearly and
unambiguously define the claim and devote a
distinct section of his argument to it. Id.; United
States v. King, 751 F.3d 1268, 1277 (11th Cir.
2014) (explaining that terse statements or
arguments in passing are insufficient to save an
issue from abandonment),
Similarly, an
argument is abandoned if the appellant raises it
in a perfunctory manner without any substantive
6a

arguments or authority. Old W. Annuity & Life
Ins. Co. v. Apollo Grp., 605 F.3d 856, 860 n.l
(11th Cir. 2010). As to the Mandamus Order,
even applying a liberal construction, Plaintiffs
make only passing references to their mandamus
petition, motion for reconsideration, joint
application for appeal, and the court’s ruling, and
they fail to dedicate any discrete section of their
brief on appeal to any of these motions or the
court’s order.
Such passing references are insufficient to
properly raise any issue concerning this order.
See King, 751 F.3d at 1277. As to the Injunction
Order, the only argument Plaintiffs even
arguably raise in a proper fashion is their
apparent claim that the district court abused its
discretion in granting Defendants’ summaryjudgment motion because the motion was not
But while the brief includes
timely filed,
discussion of this argument, Plaintiffs cite to no
law other than Fed. R. Civ. P. 54 and 56, and they
fail to devote a distinct section of their brief to
this matter, instead providing a relatively brief
Case: 18-13553 Date Filed: 08/12/2019
Page: 8 of 8
discussion under various other topical
headings. See King, 751 F.3d at 1277; Apollo
Grp., 605 F.3d at 860 n.l; Brown, 720 F.3d at
1332. To the extent that Plaintiffs raised new
arguments in their reply briefs, we will not
address them. See Timson, 518 F.3d at 874 (“[W]e
does not address arguments raised for the first
time in a pro se litigant’s reply brief.”).
7a

III. CONCLUSION
Because Plaintiffs have abandoned any
issues on appeal as to those orders that are
properly before us by failing to plainly and
prominently address such issues in their brief,
no substantive questions remain before us, and
we affirm. AFFIRMED

APPENDIX B
Case l:17-cv-01181-TWT Document
Filed 08/10/18 Page 1 of 9

168

IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF GEORGIA ATLANTA DIVISION
WILLIAM JAMES SUI JURIS, et al„
Plaintiffs,
v.
CIVIL ACTION FILE
NO. 1:17-CV-1181-

TWT
BARBARA HUNT, et al.,
Defendants.
ORDER
This is a pro se civil RICO action. It is
before the Court on the Defendants’ Motion for
Summary Judgment [Doc. 157] and the
Plaintiffs’ Motion for Judgment [Doc. 162], For
the reasons set forth below, the Defendants’
Motion for Summary Judgment [Doc. 157] is
GRANTED and the Plaintiffs’ Motion for
8a

Judgment [Doc. 162] is DENIED. I. Background
the Plaintiffs William James and Terri V. Tucker
have asserted patently frivolous copyright
infringement claims against the Defendants in a
series of proceedings in various courts over the
course of five years. Each of these actions arises
from the same factual allegations. Tucker claims
that the Tyler Perry film “Good Deeds” infringed
upon the copyright in her book “Bad Apples Can
Be Good Fruit.” Similarly, James alleges that the
Tyler Perry film “Temptation:
Case l:17-cv-01181-TWT
Document 168
Filed 08/10/18 Page 2 of 9
Confessions of Marriage Counselor”
infringed upon the copyright in his screenplay
script titled “Lovers Kill.” This is the third action
arising out of these allegations that Tucker has
filed, and the second action that James has filed.
Tucker has previously lost actions arising from
these claims in both the Southern District of New
York and this Court. James also previously lost a
case asserting these allegations in the Northern
District of Indiana. Now, the Plaintiffs have filed
yet another action arising from this set of facts in
this Court. This time, however, they reconfigured
their copyright claims as civil RICO claims. They
also added Harpo, Inc., Oprah Winfrey, Oprah "
Winfrey Network, and Barbara Hunt as
defendants. The Court dismissed the claims
against Barbara Hunt due to lack of personal
jurisdiction.1

1 See [Doc. 136],

9a

The Court also granted the Defendants’
Motion for Judgment on the Pleadings as to the
remaining Defendants, finding that the
Plaintiffs’ claims were frivolous and barred by res
judicata.2 The Plaintiffs have since appealed that
ruling. The Defendants now move for summary
judgment as to their counterclaim. In their
counterclaim, the Defendants seek an injunction
barring the Plaintiffs from instituting any
further legal actions in any courts based on the
facts and activities alleged in the previous
lawsuits filed by the Plaintiffs.3 The Plaintiffs
Case l:17-cv-01181-TWT
Document 168
Filed 08/10/18 Page 3 of 9
have also filed a Motion for Judgment,
asserting the same arguments this Court and
other courts have already rejected. II. Legal
Standard Summary judgment is appropriate only
when the pleadings, depositions, and affidavits
submitted by the parties show no genuine issue
of material fact exists and that the movant is
entitled to judgment as a matter of law.4
The court should view the evidence and
any inferences that may be drawn in the light
most favorable to the nonmovant.5 The party
seeking summary judgment must first identify
grounds to show the absence of a genuine issue of

2 See [Doc. 138].
3 See [Doc. 33] at 14-16.
4 FED. R. CIV. P. 56(a).
6 Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59
(1970).

10a

material fact.6 The burden then shifts to the non­
movant, who must go beyond the pleadings and
present affirmative evidence to show that a
genuine issue of material fact exists.7 “A mere
‘scintilla’ of evidence supporting the opposing
party’s position will not suffice; there must be a
sufficient showing that the jury could reasonably
find for that party.”8 III. Discussion A. Plaintiffs’
Motion for Judgment First, the Plaintiffs move
for entry of judgment in their favor. The
Case l:17-cv-01181-TWT
Document 168
Filed 08/10/18 Page 4 of 9
Plaintiffs’ Motion, which is largely
repetitive, unintelligible, and lacking a basis in
reality, seems to be another attempt to relitigate
this Court’s previous orders dismissing their
claims.9 This Court has already dismissed the
Plaintiffs’ claims against Barbara Hunt for lack
of personal jurisdiction,10 and granted the
remaining Defendants’ Motion for Judgment on
the Pleadings.11 This Court previously concluded
that the Plaintiffs’ claims, which are not only
frivolous but ludicrous, fail to state a plausible
claim for relief. The Court also rejected the
Plaintiffs’ Motion for Reconsideration.12
6 Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986).
7 Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257 '
(1986)
8 Walker v. Darby 911 F.2d 1573, 1577 (11th Cir. 1990)
9 See Pis.’ Mot. for J., at 8-10 (arguing that the
Defendants are liable for damages under RICO).
10 See [Doc. 136].
11 See [Doc. 138],
12 See [Doc. 154].

11a

The Court will not further entertain the
Plaintiffs’ attempts to relitigate issues which it
has conclusively ruled upon. This is just another
attempt to argue the merits of claims that this
Court has already dismissed. Furthermore, the
Plaintiffs have already filed a Notice of Appeal.
Thus, this Court no longer has jurisdiction over
the Plaintiffs’ claims.13 The Plaintiffs’ Motion for
Judgment is consequently denied. B. Defendants’
Motion for Summary Judgment Next, the
Defendants move for summary judgment as to
them
Case l:17-cv-01181-TWT
Document 168
Filed 08/10/18 Page 5 of 9
counterclaim against the Plaintiffs. In
their counterclaim, the Defendants seek an
injunction under the All Writs Act enjoining the
Plaintiffs from filing future lawsuits based on the
same alleged factual predicate for this action and
the previous related actions.14 According to the
Defendants, the Plaintiffs are abusive litigants
who
have
asserted baseless
copyright
infringement claims against them in various
courts over the past five years, despite numerous
judgments dismissing those claims.
The Defendants contend that an
injunction barring the Plaintiffs from filing new
actions based upon these allegations is necessary
13 Taylor v. Sterrett, 640 F.2d 663, 667 (11th Cir. 1981)
(“It is the general rule that a district court is divested of
jurisdiction upon the filing of the notice of appeal with
respect to any matters involved in the appeal.”).
14 See [Doc. 33] at 14-16.

12a

due to the Plaintiffs’ refusal to stop asserting
these same claims.15 “Federal courts have both
the inherent power and the constitutional
obligation to protect their jurisdiction from
conduct which impairs their ability to carry out
Article III functions.”16 “The All Writs Act is a
codification of this inherent power and provides
that ‘[t]he Supreme Court and all courts
established by Act of Congress may issue all writs
necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and
principles of law.’”17 “[T]he Act allows [courts] to
safeguard not only ongoing proceedings, but
potential future proceedings, as well as alreadyissued orders and
Case l:17-cv-01181-TWT
Document 168
Filed 08/10/18 Page 6 of 9
judgments.”18 District courts have the power
under the All Writs Act “to enjoin litigants who
are abusing the court system by harassing their
opponents.”19 This is because “[a] litigious
plaintiff pressing a frivolous claim, though rarely
succeeding on the merits, can be extremely costly

15 Defs.’ Mot. for Summ. J., at 8-12.
16 Procup v. Strickland, 792 F.2d 1069, 1073 (11th Cir.
1986).
17 Maid of the Mist Corp. v. Alcatraz Media, LLC, 388 F.
App’x 940, 942 (11th Cir. 2010) (quoting Klay v. United
Healthgroup, Inc. 376 F.3d 1092, 1099 (11th Cir. 2004))
18 Klay, 376 F.3d at 1099.
19 Harrelson v. United States, 613 F.2d 114, 116 (5th Cir.
1980).

13a

to the defendant and can waste an inordinate
amount of court time.”20
“The court has a responsibility to prevent
single litigants from unnecessarily encroaching
on the judicial machinery needed by others.”21
And, although a litigant cannot be completely
foreclosed from all access to the court, “[a] party
seeking to obtain an All Writs Act injunction
‘must simply point to some ongoing proceeding,
or some past order or judgment, the integrity of
which is being threatened by someone else's
action or behavior.’”22 Courts have regularly
issued injunctions such as these in response to
frivolous litigants.23
Case l:17-cv-01181-TWT
Filed 08/10/18 Page 7 of 9

Document 168

20 Id

21 Procup, 792 F.2d at 1074
22 Maid of the Mist Corp, 388 F. App’x at 942 (quoting
Klay, 376 F.3d at 1100).
23 See, e.g. , Maid of the Mist Corp. , 388 F. App’x at 942
(concluding that an injunction was proper when the
plaintiff “repeatedly filed unsubstantiated, duplicative
pleadings, many after the district court issued an order
denying them”); Laosebikan v. Coca-Cola Co. , 415 F.
App’x 211, 215 (11th Cir. 2011) (holding that a filing
injunction was appropriate since the vexatious plaintiffs
claims were barred by res judicata); Harrelson , 613 F.2d
at 116 (upholding filing injunction when “the plaintiff
has forced various defendants in and out of court for
almost five years and has had a full opportunity to
present and litigate his claims”); In re Williams , No. MC
117-001, 2017 WL 3167378, at *l-*3 (S.D. Ga. July 25,
2017) (enjoining a “serial frivolous filer” who had
engaged in a “campaign of harassment and vexatious
litigation in federal courts”).

14a

The Court concludes that the requested
injunction is necessary to protect the integrity of
the court system and to prevent the continued
harassment of the Defendants by the Plaintiffs.
This is the third time that Tucker has asserted
these claims against the Perry Defendants and
Lions Gate Entertainment. She lost her cases in
the Southern District of New York and in this
Court. This is the second time that James has
asserted his copyright claims against the Perry
Defendants and Lions Gate Entertainment.
He lost his case in the Northern District of
Indiana. The Plaintiffs have demonstrated a
consistent disregard for the judgments of the
various courts dismissing these actions. Absent
an injunction, there is no indication the Plaintiffs
will think twice about continuing to assert these
baseless claims against the Defendants. The
principles of res judicata have not served as a
deterrent to frivolous filings by the Plaintiffs.
And, the Plaintiffs’ conduct within this particular
case has itself been disruptive and abusive to the
Court’s judicial function. The Plaintiffs have filed
over 90 purported motions, counter-motions,
replies, objections, amendments and exhibits
since the commencement of this action,
consuming thousands of pages of record. And, as
this Court previously noted, each of these filings
“had little or no basis in fact or law or relevance,
or which are otherwise
Case l:17-cv-01181-TWT
Filed 08/10/18 Page 8 of 9

15a

Document 168

unintelligible.”24
The Plaintiffs have consistently made
outrageous and fanciful claims in their filings.
This conduct is not only costly and burdensome
to the Defendants, but also imposes “a burden to
clerical and judicial operations and is an
impediment to the administration of justice.”25
Because of this, the Court concludes that a filing
injunction under the All Writs Act is appropriate
here.
The Court has the inherent jurisdiction to
protect itself against the abuses that litigants
such as Tucker and James visit upon it.26
Without an injunction, the Plaintiffs will very
likely continue to use the judicial system as a tool
to harass the Defendants and waste judicial
resources. The Plaintiffs have displayed nothing
short of complete disregard for the numerous
court rulings in favor of the Defendants.
Therefore, the Court orders that the
Plaintiffs are enjoined from filing any further
pleading, motion, or other paper in relation to the
instant action (other than the pending appeal
and any appeal of this Order), and any new
lawsuit in any court against any of the
Defendants named in this action involving claims
arising from the same factual predicate or
nucleus of operative facts as this case without
24 See [Doc. 95] at 1
25 Maid of the Mist Corp., 388 F. App’x at 942.
26 Procup v. Strickland, 792 F.2d 1069, 1073 (11th Cir.
1986) (“There should be little doubt that the district court
has the jurisdiction to protect itself against the abuses
that litigants like Procup visit upon it.”).

16a

obtaining the express written permission of the
undersigned.
Case l:17-cv-01181-TWT
Filed 08/10/18 Page 9 of 9

Document 168

IV. Conclusion
the reasons stated above, the Defendants’
Motion for Summary Judgment [Doc. 157] is
GRANTED and the Plaintiffs’ Motion for
Judgment [Doc. 162] is DENIED. SO
ORDERED, this 10 day of August, 2018. IV.
Conclusion For the reasons stated above, the
Defendants’ Motion for Summary Judgment
[Doc. 157] is GRANTED and the Plaintiffs’
Motion for Judgment [Doc. 162] is DENIED. SO
ORDERED, this 10 day of August, 2018.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge
APPENDIX B
Case l:17-cv-01181-TWT
Document 169
Filed 08/10/18 Page 1 of 2
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WILLIAM JAMES and TERRI V. TUCKER,
Plaintiffs,
CIVIL ACTION FILE
vs.
NO. l-17-cv-1181-TWT
17a

BARBARA HUNT, HARPO, LIONSGATE
ENTERTAINMENT, OPRAH WINFREY
NETWORK, OPRAH WINFREY, TYLER
PERRY COMPANY, TYLER PERRY STUDIOS,
Defendants.
JUDGMENT
This action having come before the court,
Honorable THOMAS W. THRASH, JR., Chief
United States District Judge, for consideration of
Defendant Barbara Hunt’s Motion to Dismiss
and Defendant Harpo, Lionsgate Entertainment,
Oprah Winfrey Network, Oprah Winfrey, Tyler
Perry Company and Tyler Perry Studios’
Motions for Summary Judgment, and the court
having GRANTED said motions by Orders dated
October 19, 2017 and August 10, 2018, it is
Ordered and Adjudged that Plaintiffs take
nothing; that Defendants recover their costs of
this action and the action be, and the same
hereby, is dismissed. Dated at Atlanta, Georgia,
this 9th day of August, 2018.
JAMES N. HATTEN
CLERK OF COURT and
DISTRICT COURT EXECUTIVE
Case l:17-cv-01181-TWT
Filed 08/10/18 Page 2 of 2
By: s/J. Lee
Deputy Clerk
Prepared, Filed, and Entered
in the Clerk's Office
August 10, 2018
James N. Hatten
18a

Document 169

Clerk of Court
By: s/J. Lee
Deputy Clerk
APPENDIX C
Case: 17-14866 Date Filed: 03/29/2018
Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF
APPEALS BUILDING
56 Forsyth Street, N.W. Atlanta, Georgia 30303
David J. Smith Clerk of Court
March 29, 2018
For rules and forms visit www.call.uscourts.gov
William James
3058 Fresno Lane Homewood, IL 60430
Terri V. Tucker
1136 JOSLIN PATH DOUGLASVILLE,
GA 30134
Appeal Number:
17-14866-FF Case Style:
William James, et al v. Barbara Hunt, et al
District Court Docket No: l:17-cv-01181TWT
Based upon the responses of the parties, it
appears that this court has jurisdiction to
consider this appeal. A final determination
regarding jurisdiction will be made by the panel
to whom this appeal is submitted on the merits.
Appellee's brief is due 30 days from the date of
this letter.
Sincerely,
19a

DAVID J. SMITH,
Clerk of Court
Reply to: Janet K. Mohler, FF/ej Phone #: (404)
335-6178
JUR-3 Ntc of prob juris
APPENDIX C - OTHER ELEVENTH
CIRCUIT COURT ORDERS/LETTERS
Case: 17-14866
Date Filed: 09/21/2018
Page: 1 of 2
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
Nos. 17-14866-FF; 18-13553-F
WILLIAM JAMES, Sui Juris, TERRI V.
TUCKER, Sui Juris, a.k.a. Terri V. DonaldStrickland, a.k.a. TLO-Redness,
Plaintiffs - Counter
Defendants-Appellants,
Versus
BARBARA HUNT, JUDGE THOMAS W.
THRASH, JR.,
Defendants-Appellees,
HARPO, LIONSGATE ENTERTAINMENT,
OPRAH WINFREY NETWORK, (OWN),
OPRAH WINFREY, d.b.a. Oprah Winfrey
Network, TYLER PERRY COMPANY, TYLER
PERRY STUDIOS, (TPS), TYLER PERRY,
a.k.a. Emmett Perry Jr., a.k.a. Emmett J. Perry,
a.k.a. Buddy, a.k.a. John Ivory, a.k.a. Emmett
M. Perry, a.k.a. Emmbre R. Perry, a.k.a.
Emmitt R. Perry, a.k.a. Emmett T. Perry, a.k.a.
20a

Willie M. Perry, a.k.a. Emmett Ty Perry, a.k.a.
Emmett Perry, a.k.a. Tyler E. Perry
Case: 17-14866
Date Filed: 09/21/2018
Page: 2 of 2
d.b.a. Tyler Perry Studios,
Defendants-Counter
Claimants-Appellees.
Appeals from the United States District
Court for the Northern District of Georgia
ORDER:
The Plaintiffs have filed in this Court five
motions and a letter, collectively seeking:
(1) to file an amended or joint and consolidated
notice of appeal, or to consolidate Case No.
1714866 with the related appeal in Case No. 1813553; (2) to stay the appeal in Case No. 17
14866; (3) to supplement the record; (4) to file a
motion for reconsideration; (5) to file an objection;
and (6) to inform this Court of multiple docketing
errors. The Plaintiffs’ motions are DENIED.
Case No. 17-14866 and Case No. 18-13553 shall
proceed separately. To the extent that the
motions assert arguments related to the issue on
appeal in Case No. 18-13553, rather than Case
No. 17-14866, those motions are DENIED
WITHOUT PREJUDICE to the Plaintiffs’
refiling of such motions in the appeal in Case No.
18-13553.
/s/ William H. Pryor Jr.
UNITED STATES CIRCUIT JUDGE

21a

APPENDIX C
Case: 18-13553
Date Filed: 09/21/2018
Page: 1 of 2
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
Nos. 17-14866-FF; 18-13553-F
WILLIAM JAMES, Sui Juris, TERRI V.
TUCKER, Sui Juris, a.k.a. Terri V. DonaldStrickland, a.k.a. TLO-Redness,
Plaintiffs-Counter
Defendants-Appellants,
versus
BARBARA HUNT, JUDGE THOMAS W.
THRASH, JR.,
Defendants-Appellees,
HARPO, LIONSGATE ENTERTAINMENT,
OPRAH WINFREY NETWORK, (OWN),
OPRAH WINFREY, d.b.a. Oprah Winfrey
Network, TYLER PERRY COMPANY, TYLER
PERRY STUDIOS, (TPS), TYLER PERRY,
a.k.a. Emmett Perry Jr., a.k.a. Emmett J. Perry,
a.k.a. Buddy, a.k.a. John Ivory, a.k.a. Emmett
M. Perry, a.k.a. Emmbre R. Perry, a.k.a.
Emmitt R. Perry, a.k.a. Emmett T. Perry, a.k.a.
Willie M. Perry, a.k.a. Emmett Ty Perry, a.k.a.
Emmett Perry, a.k.a. Tyler E. Perry,
Case: 18-13553
Date Filed: 09/21/2018
Page: 2 of 2
d.b.a. Tyler Perry Studios,
Defendants-Counter
Claimants-Appellees.
22a

Appeals from the United States District
Court for the Northern District of Georgia
ORDER:
The Plaintiffs have filed in this Court five
motions and a letter, collectively seeking:
(1) to file an amended or joint and consolidated
notice of appeal, or to consolidate Case No. 17
14866 with the related appeal in Case No. 1813553; (2) to stay the appeal in Case No. 17
14866; (3) to supplement the record; (4) to file a
motion for reconsideration; (5) to file an
objection; and (6) to inform this Court of multiple
docketing errors.
The Plaintiffs’ motions are DENIED. Case
No. 17-14866 and Case No. 18-13553 shall
proceed separately. To the extent that the
motions assert arguments related to the issue on
appeal in Case No. 18-13553, rather than Case
No. 17-14866, those motions are DENIED
WITHOUT PREJUDICE to the Plaintiffs’
refiling of such motions in the appeal in Case No.
18-13553.
/s/William H. Pryor Jr.
UNITED STATES CIRCUIT JUDGE
APPENDIX D
18 U.S. Code § 1962. Prohibited A2ctivities
(a) It shall be unlawful for any person who
has received any income derived, directly or
indirectly, from a pattern of racketeering
activity or through collection of an unlawful
debt in which such person has participated as a
principal within the meaning of section 2, title 18,
23a

United States Code, to use or invest, directly or
indirectly, any part of such income, or
the proceeds of such income, in acquisition of any
interest in, or the establishment or operation of,
any enterprise which is engaged in, or the
activities of which affect, interstate or foreign
commerce.
A purchase of securities on the open
market for purposes of investment, and without
the intention of controlling or participating in the
control of the issuer, or of assisting another to do
so, shall not be unlawful under this subsection if
the securities of the issuer held by the purchaser,
the members of his immediate family, and his or
their accomplices in any pattern or racketeering
activity or the collection of an unlawful debt after
such purchase do not amount in the aggregate to
one percent of the outstanding securities of any
one class, and do not confer, either in law or in
fact, the power to elect one or more directors of
the issuer, (b) It shall be unlawful for
any person through a pattern of racketeering
activity or through collection of an unlawful
debt to acquire or maintain, directly or indirectly,
any interest in or control of any enterprise which
is engaged in, or the activities of which affect,
interstate or foreign commerce.
(c)
It
shall
be
unlawful
for
any person employed by or associated with
any enterprise engaged in, or the activities of
which affect, interstate or foreign commerce, to
conduct or participate, directly or indirectly, in
the conduct of such enterprise’s affairs through a
pattern of racketeering activity or collection
24a

of unlawful debt, (d) It shall be unlawful for
any person to conspire to violate any of the
provisions of subsection (a), (b), or (c) of this
section. (Added Pub. L. 91-452. title IX,
$ 901(a). Oct.
15,
1970,84
Stat.
942:
amended Pub. L. 100-690. title VII. $ 7033. Nov.
18, 1988, 102 Stat. 4398.)
APPENDIX D
18 U.S. Code § 1964.Civil RICO Remedies
(a)
The
district
courts
of the
United States shall have jurisdiction to prevent
and restrain violations of section 1962 of this
chapter by issuing appropriate orders, including,
but not limited to: ordering any person to divest
himself of any interest, direct or indirect, in
any enterprise: imposing reasonable restrictions
on the future activities or investments of
any person, including, but not limited to,
prohibiting any person from engaging in the
same type of endeavor as the enterprise engaged
in, the activities of which affect interstate
or foreign commerce: or ordering dissolution or
reorganization of any enterprise, making due
provision for the rights of innocent persons.
(b)The Attorney
General may
institute
proceedings under this section. Pending final
determination thereof, the court may at any time
enter such restraining orders or prohibitions, or
take such other actions, including the acceptance
of satisfactory performance bonds, as it shall
deem proper.
(c) Any person injured in his business or
property by reason of a violation of section 1962
25a

of this chapter may sue therefor in any
appropriate United States district court and
shall recover threefold the damages he sustains
and the cost of the suit, including a reasonable
attorney’s fee, except that no person may rely
upon any conduct that would have been
actionable as fraud in the purchase or sale of
securities to establish a violation of section 1962.
The exception contained in the preceding
sentence does not apply to an action against
any person that is criminally convicted in
connection with the fraud, in which case the
statute of limitations shall start to run on the
date on which the conviction becomes final.
(d) A final judgment or decree rendered in favor
of the United States in any criminal proceeding
brought by the United States under this chapter
shall estop the defendant from denying the
essential allegations of the criminal offense in
any subsequent civil proceeding brought by the
United States. (Added Pub. L. 91-452. title IX.
$ 901(a). Oct.
15,
1970,84
Stat.
943:
amended Pub.
L.
98-620,
title
IV.
S 402(24~)(A). Nov. 8, 1984, 98 Stat. 3359: Pub. L.
104-67. title I. $ 107. Dec. 22, 1995. 109 Stat.
758.)
APPENDIX D
JUDICIAL REVIEW - SCOPE OF REVIEW
5 U.S.C. § 706(2)(a), 5 U.S. Code § 706. Scope
of review.
To the extent necessary to decision and
when presented, the reviewing court shall decide
all relevant questions of law, interpret
constitutional and statutory provisions, and
26a

determine the meaning or applicability of the
terms of an agency action. The reviewing court
shall— (1) compel agency action unlawfully
withheld or unreasonably delayed; and (2) hold
unlawful and set aside agency action, findings,
and conclusions found to be—(A) arbitrary,
capricious, an abuse of discretion, or otherwise
not in accordance with law; (B) contrary to
constitutional right, power, privilege, or
immunity; (C) in excess of statutory jurisdiction,
authority, or limitations, or short of statutory
right;
(D) without observance of procedure
required by law; (E) unsupported by substantial
evidence in a case subject to sections 556 and 557
of this title or otherwise reviewed on the record of
an agency hearing provided by statute; or (F)
unwarranted by the facts to the extent that the
facts are subject to trial de novo by the reviewing
court. In making the foregoing determinations,
the court shall review the whole record or those
parts of it cited by a party, and due account shall
be taken of the rule of prejudicial error. (Pub. L.
89-554, Sept. 6, 1966, 80 Stat. 393.)
APPENDIX D
PENALTIES FOR DOCUMENT FRAUD
8 U.S.C § 1324(c)
(a)Activities prohibited It is unlawful
for any person or entity knowingly—
(1) to forge, counterfeit, alter, or falsely
make any document for the purpose of satisfying
a requirement of this chapter or to obtain a
benefit under this chapter,
27a

(2) to use, attempt to use, possess, obtain, accept,
or receive or to provide any forged, counterfeit,
altered, or falsely made document in order to
satisfy any requirement of this chapter or to
obtain a benefit under this chapter,
(3) to use or attempt to use or to provide or
attempt to provide any document lawfully issued
to or with respect to a person other than the
possessor (including a deceased individual) for
the purpose of satisfying a requirement of this
chapter or obtaining a benefit under this chapter,
(4) to accept or receive or to provide any
document lawfully issued to or with respect to a
person other than the possessor (including a
deceased individual) for the purpose of complying
with section 1324a(b) of this title or obtaining a
benefit under this chapter,
or (5) to prepare, file, or assist another in
preparing or filing, any application for benefits
under this chapter, or any document required
under this chapter, or any document submitted
in connection with such application or document,
with knowledge or in reckless disregard of the
fact that such application or document was
falsely made or, in whole or in part, does not
relate to the person on whose behalf it was or is
being submitted.
APPENDIX D
Sherman Antitrust Act,
15 U.S.C. §§ 1-7 (2013) (selected provisions)
§ 1. Trusts, etc., in restraint of trade
illegal; penalty Every contract, combination in
the form of trust or otherwise, or conspiracy, in
28a

restraint of trade or commerce among the several
States, or with foreign nations, is declared to be
illegal. Every person who shall make any
contract or engage in any combination or
conspiracy hereby declared to be illegal shall be
deemed guilty of a felony, and, on conviction
thereof, shall be punished by fine not exceeding
$100,000,000 if a corporation, or, if any other
person, $1,000,000, or by imprisonment not
exceeding 10 years, or by both said punishments,
in the discretion of the court.
§ 2. Monopolizing trade a felony; penalty
Every person who shall monopolize, or attempt to
monopolize, or combine or conspire with any
other person or persons, to monopolize any part
of the trade or commerce among the several
States, or with foreign nations, shall be deemed
guilty of a felony, and, on conviction thereof, shall
be punished by fine not exceeding $100,000,000 if
a corporation, or, if any other person, $1,000,000,
or by imprisonment not exceeding 10 years, or by
both said punishments, in the discretion of the
court. § 4. Jurisdiction of courts; duty of United
States attorneys; procedure The several district
courts of the United States are invested with
jurisdiction to prevent and restrain violations of
sections 1 to 7 of this title; and it shall be the duty
of the several United States attorneys, in their
respective districts, under the direction of the
Attorney General, to institute proceedings in
equity to prevent and restrain such violations.
Such proceedings may be by way of petition
setting forth the case and praying that such

29a

violation shall be enjoined or otherwise
prohibited.
When the parties complained of shall
have been duly notified of such petition the court
shall proceed, as soon as may be, to the hearing
and determination of the case; and pending such
petition and before final decree, the court may at
any time make such temporary restraining order
or prohibition as shall be deemed just in the
premises. § 6. Forfeiture of property in transit
Any property owned under any contract or by any
combination, or pursuant to any conspiracy (and
being the subject thereof) mentioned in section 1
of this title, and being in the course of
transportation from one State to another, or to a
foreign country, shall be forfeited to the United
States, and may be seized and condemned by like
proceedings as those provided by law for the
forfeiture, seizure, and condemnation of property
imported into the United States contrary to law.
§ 6a. Conduct involving trade or commerce
with foreign nations Sections 1 to 7 of this title
shall not apply to conduct involving trade or
commerce (other than import trade or import
commerce) with foreign nations unless— (1) such
conduct has a direct, substantial, and reasonably
foreseeable effect— (A) on trade or commerce
which is not trade or commerce with foreign
nations, or on import trade or import commerce
with foreign nations; or (B) on export trade or
export commerce with foreign nations, of a person
engaged in such trade or commerce in the United
States; and (2) such effect gives rise to a claim
under the provisions of sections 1 to 7 of this title,
30a

other than this section. § 7. “Person” or “persons”
defined
The word “person”, or “persons”, wherever
used in sections 1 to 7 of this title shall be deemed
to include corporations and associations existing
under or authorized by the laws of either the
United States, the laws of any of the Territories,
the laws of any State, or the laws of any foreign
country. Clayton Antitrust Act, 15 U.S.C. §§ 1227 (2013) (selected provisions) § 1 [15 U.S.C. §
12]. Definitions; short title (a) “Antitrust laws,” as
used herein, includes the Act entitled “An Act to
protect trade and commerce against unlawful
restraints and monopolies,” approved July
second, eighteen hundred and ninety; sections
seventy-three to seventy-six, inclusive, of an Act
entitled
“An Act to reduce taxation, to provide
revenue for the Government, and for other
purposes,” of August twenty-seventh, eighteen
hundred and ninety-four; an Act entitled “An Act
to amend sections seventy-three and seventy-six
of the Act of August twenty-seventh, eighteen
hundred and ninety-four, entitled ‘An Act to
reduce taxation, to provide revenue for the
Government, and for other purposes,’ ” approved
February twelfth, nineteen hundred and
thirteen; and also this Act. “Commerce,” as used
herein, means trade or commerce among the
several States and with foreign nations, or
between the District of Columbia or any Territory
of the United States and any State, Territory, or'
foreign nation, or between any insular
possessions or other places under the jurisdiction
31a

of the United States, or between any such
possession or place and any State or Territory of
the United States or the District of Columbia or
any foreign nation, or within the District of
Columbia or any Territory or any insular
possession or other place under the jurisdiction of
the United States:
Provided, that nothing in this Act
contained shall apply to the Philippine Islands.
The word “person” or “persons” wherever used in
this Act shall be deemed to include corporations
and associations existing under or authorized by
the laws of either the United States, the laws of
any of the Territories, the laws of any State, or
the laws of any foreign country, (b) This Act may
be cited as the “Clayton Act”. § 2 [15 U.S.C. § 13].
Discrimination in price, services, or facilities
(a) Price; selection of customers It shall be
unlawful for any person engaged in commerce, in
the course of such commerce, either directly or
indirectly, to discriminate in price between
different purchasers of commodities of like grade
and quality, where either or any of the purchases
involved in such discrimination are in commerce,
where such commodities are sold for use,
consumption, or resale within the United States
or any Territory thereof or the District of
Columbia or any insular possession or other place
under the jurisdiction of the United States, and
where the effect of such discrimination may be
substantially to lessen competition or tend to
create a monopoly in any line of commerce, or to
injure, destroy, or prevent competition with any
person who either grants or knowingly receives
32a

the benefit of such discrimination, or with
customers of either of them: Provided, That
nothing herein contained shall prevent
differentials which make only due allowance for
differences in the cost of manufacture, sale, or
delivery resulting from the differing methods or
quantities in which such commodities are to such
purchasers sold or delivered: Provided, however,
That the Federal Trade Commission may,
after due investigation and hearing to all
interested parties, fix and establish quantity
limits, and revise the same as it finds necessary,
as to particular commodities or classes of
commodities, where it finds that available
purchasers in greater quantities are so few as to
render differentials on account thereof unjustly
discriminatory or promotive of monopoly in any
line of commerce; and the foregoing shall then not
be construed to permit differentials based on
differences in quantities greater than those so
fixed and established: And provided further,
That nothing herein contained shall
prevent persons engaged in selling goods, wares,
or merchandise in commerce from selecting their
own customers in bona fide transactions and not
in restraint of trade: And provided further, That
nothing herein contained shall prevent price
changes from time to time where in response to
changing conditions affecting the market for or
the marketability of the goods concerned, such as
but not limited to actual or imminent
deterioration of perishable goods, obsolescence of
seasonal goods, distress sales under court

33a

process, or sales in good faith in discontinuance
of business in the goods concerned.
(b) Burden of rebutting prima-facie case of
discrimination Upon proof being made, at any
hearing on a complaint under this section, that
there has been discrimination in price or services
or facilities furnished, the burden of rebutting the
prima-facie case thus made by showing
justification shall be upon the person charged
with a violation of this section, and unless
justification shall be affirmatively shown, the
Commission is authorized to issue an order
terminating the discrimination:
Provided, however, That nothing herein
contained shall prevent a seller rebutting the
prima-facie case thus made by showing that his
lower price or the furnishing of services or
facilities to any purchaser or purchasers was
made in good faith to meet an equally low price of
a competitor, or the services or facilities
furnished by a competitor, (c) Payment or
acceptance of commission, brokerage, or other
compensation It shall be unlawful for any person
engaged in commerce, in the course of such
commerce, to pay or grant, or to receive or accept,
anything of value as a commission, brokerage, or
other compensation, or any allowance or discount
in lieu thereof, except for services rendered in
connection with the sale or purchase of goods,
wares, or merchandise, either to the other party
to such transaction or to an agent,
representative, or other intermediary therein
where such intermediary is acting in fact for or in
behalf, or is subject to the direct or indirect
34a

control, of any party to such transaction other
than the person by whom such compensation is
so granted or paid.
(d) Payment for services or facilities for
processing or sale It shall be unlawful for any
person engaged in commerce to pay or contact for
the payment of anything of value to or for the
benefit of a customer of such person in the course
of such commerce as compensation or in
consideration for any services or facilities
furnished by or through such customer in
connection with the processing, handling, sale, or
offering for sale of any products or commodities
manufactured, sold, or offered for sale by such
person, unless such payment or consideration is
available on proportionally equal terms to all
other customers competing in the distribution of
such products or commodities.
(e) Furnishing services or facilities for
processing, handling, etc. It shall be unlawful for
any person to discriminate in favor of one
purchaser against another purchaser or
purchasers of a commodity bought for resale,
with or without processing, by contracting to
furnish or furnishing, or by contributing to the
furnishing of, any services or facilities connected
with the processing, handling, sale, or offering for
sale of such commodity so purchased upon terms
not accorded to all purchasers on proportionally
equal terms, (f) Knowingly inducing or receiving
discriminatory price It shall be unlawful for any
person engaged in commerce, in the course of
such commerce, knowingly to induce or receive a

35a

discrimination in price which is prohibited by this
section.
APPENDIX D
CRIMINAL INFRINGEMET
17 U.S.C. § 506(a), 17 U.S. Code § 506
Criminal offenses
(a) CRIMINAL INFRINGEMENT
(1) IN GENERAL.—Any person who
willfully infringes a copyright shall be punished
as provided under section 2319 of title 18, if the
infringement was committed—(A) for purposes of
commercial advantage or private financial gain;
(B) by the reproduction or distribution, including
by electronic means, during any 180-day period,
of 1 or more copies or phonorecords of 1 or more
copyrighted works, which have a total retail
value of more than $1,000; or (C) by the
distribution of a work being prepared for
commercial distribution, by making it available
on a computer network accessible to members of
the public, if such person knew or should have
known that the work was intended for
commercial distribution.
(2) EVIDENCE For purposes of this
subsection, evidence of reproduction or
distribution of a copyrighted work, by itself, shall
not be sufficient to establish willful infringement
of a copyright. (3) DEFINITION.—In this
subsection, the term “work being prepared for
commercial distribution” means—(A)a computer
program, a musical work, a motion picture or
other audiovisual work, or a sound recording, if,
at the time of unauthorized distribution—(i) the
36a

copyright owner has a reasonable expectation of
commercial distribution; and (ii) the copies or
phonorecords of the work have not been
commercially distributed; or (B) a motion picture,
if, at the time of unauthorized distribution, the
motion picture— (i) has been made available for
viewing in a motion picture exhibition facility;
and (ii) has not been made available in copies for
sale to the general public in the United States in
a format intended to permit viewing outside a
motion picture exhibition facility.
(b)FORFEITURE, DESTRUCTION, AND
RESTITUTION.—Forfeiture, destruction, and
restitution relating to this section shall be subject
to section 2323 of title 18, to the extent provided
in that section, in addition to any other similar
remedies provided by law.(c)FRAUDULENT
COPYRIGHT NOTICE.—Any person who, with
fraudulent intent, places on any article a notice
of copyright or words of the same purport that
such person knows to be false, or who, with
fraudulent intent, publicly distributes or imports
for public distribution any article bearing such
notice or words that such person knows to be
false, shall be fined not more than $2,500.
(d)FRAUDULENT
REMOVAL
OF
COPYRIGHT NOTICE.—Any person who, with
fraudulent intent, removes or alters any notice of
copyright appearing on a copy of a copyrighted
work shall be fined not more than
$2,500.(e)FALSE
REPRESENTATION.—Any
person who knowingly makes a false
representation of a material fact in the
application for copyright registration provided for
37a

by section 409, or in any written statement filed
in connection with the application, shall be fined
not more than $2,500. ©RIGHTS OF
ATTRIBUTION AND INTEGRITY. —Nothing
in this section applies to infringement of the
rights conferred by section 106A(a). (Pub. L. 94553, title I, § 101, Oct. 19, 1976, 90 Stat. 2586;
Pub. L. 97-180, § 5, May 24, 1982, 96 Stat. 93;
Pub. L. 101-650, title VI, § 606(b), Dec. 1, 1990,
104 Stat. 5131; Pub. L. 105-147, §2(b), Dec. 16,
1997, 111 Stat. 2678; Pub. L. 109-9, title I,
§ 103(a), Apr. 27, 2005, 119 Stat. 220; Pub. L.
110-403, title II, § 201(a), Oct. 13, 2008,122 Stat.
4260.)
APPENDIX D
Circumvention of Copyright Protection
Systems 17 U.S. Code § 1201.
(a)VIOLATIONS REGARDING
CIRCUMVENTION OF TECHNOLOGICAL
MEASURES.
(1)(A) No person shall circumvent a
technological measure that effectively controls
access to a work protected under this title. The
prohibition contained in the preceding sentence
shall take effect at the end of the 2-year period
beginning on the date of the enactment of this
chapter. (B) The prohibition contained in
subparagraph (A) shall not apply to persons who
are users of a copyrighted work which is in a
particular class of works, if such persons are, or
are likely to be in the succeeding 3-year period,
adversely affected by virtue of such prohibition in
their ability to make non infringing uses of that
38a

particular class of works under this title, as
determined under subparagraph (C).
(C) During the 2-year period described in
subparagraph (A), and during each succeeding 3year period, the Librarian of Congress, upon the
recommendation of the Register of Copyrights,
who shall consult with the Assistant Secretary
for Communications and Information of the
Department of Commerce and report and
comment on his or her views in making such
recommendation, shall make the determination
in a rulemaking proceeding for purposes of
subparagraph (B) of whether persons who are
users of a copyrighted work are, or are likely to
be in the succeeding 3-year period, adversely
affected by the prohibition under subparagraph
(A) in their ability to make non infringing
uses under this title of a particular class of
copyrighted works. In conducting such
rulemaking, the Librarian shall examine— (i) the
availability for use of copyrighted works; (ii) the
availability for use of works for nonprofit
archival, preservation, and educational purposes;
(hi) the impact that the prohibition on the
circumvention of technological measures applied
to copyrighted works has on criticism, comment,
news reporting, teaching, scholarship, or
research; (iv) the effect of circumvention of
technological measures on the market for or
value of copyrighted works; and (v) such other
factors as the Librarian considers appropriate.
(D) The Librarian shall publish any class
of copyrighted works for which the Librarian has
determined, pursuant to the rulemaking
39a

conducted under subparagraph (C), that non
infringing uses by persons who are users of a
copyrighted work are, or are likely to be,
adversely affected, and the prohibition contained
in subparagraph (A) shall not apply to such users
with respect to such class of works for the ensuing
3-year period. (E) Neither the exception under
subparagraph (B) from the applicability of the
prohibition contained in subparagraph (A), nor
any determination made in a rulemaking
conducted under subparagraph (C), may be used
as a defense in any action to enforce any provision
of this title other than this paragraph.
(2) No person shall manufacture, import,
offer to the public, provide, or otherwise traffic in
any technology, product, service, device,
component, or part thereof, that—(A) is primarily
designed or produced for the purpose of
circumventing a technological measure that
effectively controls access to a work protected
under this title; (B) has only limited commercially
significant purpose or use other than to
circumvent a technological measure that
effectively controls access to a work protected
under this title; or (C) is marketed by that person
or another acting in concert with that person with
that person’s knowledge for use in circumventing
a technological measure that effectively controls
access to a work protected under this title. (3)As
used in this subsection—
(A) to “circumvent a technological
measure” means to descramble a scrambled
work, to decrypt an encrypted work, or otherwise
to avoid, bypass, remove, deactivate, or impair a
40a

technological measure, without the authority of
the copyright owner; and (B) a technological
measure “effectively controls access to a work” if
the measure, in the ordinary course of its
operation,
requires
the
application
of
information, or a process or a treatment, with the
authority of the copyright owner, to gain access
to the work
APPENDIX D
INTEGRITY OF COPYRIGHT
MANANGEMENT 17 U.S.C. § 1202,
Management information
(a)FALSE COPYRIGHT MANAGEMENT
INFORMATION. No person shall knowingly and
with the intent to induce, enable, facilitate, or
conceal infringement— (1) provide copyright
management information that is false, or (2)
distribute or import for distribution copyright
management information that is false, (b
REMOVAL OR ALTERATION OF COPYRIGHT
MANAGEMENT INFORMATION
No person shall, without the authority of
the copyright owner or the law— (1) intentionally
remove or alter any copyright management
information, (2) distribute or import for
distribution copyright management information
knowing that the copyright management
information has been removed or altered without
authority of the copyright owner or the law, or
(3) distribute, import for distribution, or publicly
perform works, copies of works, or phonorecords,
knowing
that
copyright
management
information has been removed or altered without
authority of the copyright owner or the law,
41a

knowing, or, with respect to civil remedies under
section 1203, having reasonable grounds to know,
that it will induce, enable, facilitate, or conceal an
infringement of any right under this title.
(c)DEFINITION.—As used in this section,
the term “copyright management information”
means any of the following information conveyed
in connection with copies or phonorecords of a
work or performances or displays of a work,
including in digital form, except that such term
does not include any personally identifying
information about a user of a work or of a copy,
phonorecord, performance, or display of a work:
(1) The title and other information
identifying the work, including the information
set forth on a notice of copyright. (2) The name of,
and other identifying information about, the
author of a work. (3) The name of, and other
identifying information about, the copyright
owner of the work, including the information set
forth in a notice of copyright. (4) With the
exception of public performances of works by
radio and television broadcast stations, the name
of, and other identifying information about, a
performer whose performance is fixed in a work
other than an audiovisual work.
(5) With the exception of public
performances of works by radio and television
broadcast stations, in the case of an audiovisual
work, the name of, and other identifying
information about, a writer, performer, or
director who is credited in the audiovisual work.
(6) Terms and conditions for use of the work. (7)
Identifying numbers or symbols referring to such
42a

information or links to such information. (8) Such
other information as the Register of Copyrights
may prescribe by regulation, except that the
Register of Copyrights may not require the
provision of any information concerning the user
(d)
LAW
of
a
copyrighted
work.
AND
ENFORCEMENT,
INTELLIGENCE,
OTHER GOVERNMENT ACTIVITIES.
This section does not prohibit any lawfully
authorized investigative, protective, information
security, or intelligence activity of an officer,
agent, or employee of the United States, a State,
or a political subdivision of a State, or a person
acting pursuant to a contract with the United
States, a State, or a political subdivision of a
State. For purposes of this subsection, the term
“information security” means activities carried
out in order to identify and address the
vulnerabilities of a government computer,
computer system, or computer network, (e)
LIMITATIONS ON LIABILITY
(1) ANALOG TRANSMISSIONS.
In the case of an analog transmission, a
person who is making transmissions in its
capacity as a broadcast station, or as a cable
system, or someone who provides programming
to such station or system, shall not be liable for a
violation of subsection (b) if— (A) avoiding the
activity that constitutes such violation is not
technically feasible or would create an undue
financial hardship on such person; and (B) such
person did not intend, by engaging in such
activity, to induce, enable, facilitate, or conceal

43a

infringement of a right under this title. (2)
DIGITAL TRANSMISSIONS.
(A)If a digital transmission standard for
the placement of copyright management
information for a category of works is set in a
voluntary, consensus standard-setting process
involving a representative cross-section of
broadcast stations or cable systems and copyright
owners of a category of works that are intended
for public performance by such stations or
systems, a person identified in paragraph (1)
shall not be liable for a violation of subsection (b)
with respect to the particular copyright
management information addressed by such
standard if— (i) the placement of such
information by someone other than such person
is not in accordance with such standard; and (ii)
the activity that constitutes such violation is not
intended to induce, enable, facilitate, or conceal
infringement of a right under this title.
(B)Until a digital transmission standard
has been set pursuant to subparagraph (A) with
respect to the placement of copyright
management information for a category of works,
a person identified in paragraph (1) shall not be
liable for a violation of subsection (b) with respect
to such copyright management information, if the
activity that constitutes such violation is not
intended to induce, enable, facilitate, or conceal
infringement of a right under this title, and if—
(i) the transmission of such information by such
person would result in a perceptible visual or
aural degradation of the digital signal; or (ii)the
transmission of such information by such person
44a

would conflict with— (I) an applicable
government regulation relating to transmission
of information in a digital signal;
(II) an applicable industry-wide standard
relating to the transmission of information in a
digital signal that was adopted by a voluntary
consensus standards body prior to the effective
date of this chapter; or (III) an applicable
industry-wide standard relating to the
transmission of information in a digital signal
that was adopted in a voluntary, consensus
standards-setting process open to participation
by a representative cross-section of broadcast
stations or cable systems and copyright owners of
a category of works that are intended for public
performance by such stations or systems.
(3)DEFINITIONS.—As used in this subsection—
(A) the term “broadcast station” has the meaning
given that term in section 3 of the
Communications Act of 1934 (47 U.S.C. 153); and
(B) the term “cable system” has the meaning
given that term in section 602 of the
Communications Act of 1934 (47 U.S.C. 522).
(Added Pub. L. 105-304, title I, § 103(a), Oct. 28,
1998, 112 Stat. 2872; amended Pub. L. 106-44,
§ 1(e), Aug. 5, 1999, 113 Stat. 222.)
APPENDIX D
Civil remedies 17 U.S. Code § 1203
(a)CIVIL ACTIONS. Any person injured
by a violation of section 1201 or 1202 may bring
a civil action in an appropriate United States
district court for such violation. (b)POWERS OF
THE COURT.—In an action brought under
45a

subsection (a), the court—(1) may grant
temporary and permanent injunctions on such
terms as it deems reasonable to prevent or
restrain a violation, but in no event shall impose
a prior restraint on free speech or the press
protected under the 1st amendment to the
Constitution;
(2) at any time while an action is pending,
may order the impounding, on such terms as it
deems reasonable, of any device or product that
is in the custody or control of the alleged violator
and that the court has reasonable cause to believe
was involved in a violation; (3) may award
damages under subsection (c); (4) in its discretion
may allow the recovery of costs by or against any
party other than the United States or an officer
thereof; (5) in its discretion may award
reasonable attorney’s fees to the prevailing party;
and (6) may, as part of a final judgment or decree
finding a violation, order the remedial
modification or the destruction of any device or
product involved in the violation that is in the
custody or control of the violator or has been
impounded under paragraph (2). (c)AWARD OF
DAMAGES.
(1) IN GENERAL. Except as otherwise
provided in this title, a person committing a
violation of section 1201or 1202 is liable for either
(A) the actual damages and any additional profits
of the violator, as provided in paragraph (2), or
(B) statutory damages, as provided in paragraph
(3).(2) ACTUAL DAMAGES.— The court shall
award to the complaining party the actual
damages suffered by the party as a result of the
46a

violation, and any profits of the violator that are
attributable to the violation and are not taken
into account in computing the actual damages, if
the complaining party elects such damages at
any time before final judgment is entered. (3)
STATUTORY DAMAGES.
(A) At any time before final judgment is
entered, a complaining party may elect to recover
an award of statutory damages for each violation
of section 1201 in the sum of not less than $200
or more than $2,500 per act of circumvention,
device, product, component, offer, or performance
of service, as the court considers just. (B) At any
time before final judgment is entered, a
complaining party may elect to recover an award
of statutory damages for each violation of section
1202 in the sum of not less than $2,500 or more
than $25,000. (4) REPEATED VIOLATIONS.—
In any case in which the injured party sustains
the burden of proving, and the court finds, that a
person has violated section 1201 or 1202 within 3
years after a final judgment was entered against
the person for another such violation, the court
may increase the award of damages up to triple
the amount that would otherwise be awarded, as
the court considers just. United States v. Saget,
991 F.2d 702, 713 (11th Cir.), cert, denied, 510
U.S. 950 (1993); United States v. Neal, 951 F.2d
630, 632 (5th Cir. 1992); United States v.
Rasheed, 663 F.2d 843, 850-52 (9th Cir. 1981),
cert, denied, sub.nom. Phillips v. United States,
454 U.S. 1157 (1982).
A party may be prosecuted under section
1503 for endeavoring to obstruct justice, United
47a

States v. Neal, supra; United States v. Williams,
874 F.2d 968, 976 (5th Cir. 1989); it is no defense
that such obstruction was unsuccessful, United
States v. Edwards, 36 F.3d 639, 645 (7th Cir.
1994); United States v. Neal, supra; or that it was
impossible to accomplish, United States v. Bucey,
876 F.2d 1297, (9th Cir.), cert, denied, 493 U.S.
1004 (1989); United States v. Brimberry, 744
F.2d 580 (7th Cir. 1984), cert, denied, 481 U.S.
1039 (1987).
The term "officer in or of any court of the
United States" includes: United States District
Judges, United States v. Jones, 663 F.2d 567 (5th
Cir. 1981) (by implication); United States v.
Glickman, 604 F.2d 625 (9th Cir. 1979) (by
implication), cert, denied, 444 U.S. 1080 (1980);
United States v. Fasolino, 586 F.2d 939 (2d Cir.
1978) (per curiam) (by implication); United
States v. Margoles, 294 F.2d 371, 373 (7th Cir.),
cert, denied, 368 U.S. 930 (1961); United States
Attorneys, Jones, supra; United States v.
Polakoff, 112 F.2d 888, 890 (2d Cir.), cert, denied,
311 U.S. 653 (1940); United States Bankruptcy
Judges, United States v. Fulbright, 69 F.3d 1468
(9th Cir. 1995) (by implication); Supreme Court
Justices, United States Courts of Appeals
Judges, United States Magistrate Judges, clerks
of Federal courts, law clerks to Federal judges,
Federal court staff attorneys, Federal court
reporters, Federal prosecutors and defense
counsel.
Because 18 U.S.C. § 1503 applies to civil,
as well as criminal judicial proceedings, Roberts
v. United States, 239 F.2d 467, 470 (9th Cir.
48a

1956); Sneed v. United States, 298 F. 911, 912
(5th Cir.), cert, denied, 265 U.S. 590 (1924); see
Nye v. United States, 137 F.2d 73 (4th Cir.) (by
implication), cert, denied, 320 U.S. 755 (1943),
private attorneys are, arguably, also covered by
the statute. A venireman is a "petit juror" within
the meaning of section 1503. United States v.
Jackson, 607 F.2d 1219, 1222 (8th Cir. 1979),
cert, denied, 444 U.S. 1080 (1980); see United
States v. Osborn, 415 F.2d 1021, 1024 (6th Cir.
1969) (en banc), cert, denied, 396 U.S. 1015
(1970). The majority of United States Courts of
Appeals have held.
APPENDIX D
Document - Witness Tampering.
18 U.S.C. § 1503
United States v. Moody, 977 F.2d 1420
(11th Cir. 1992), cert, denied, 507 U.S. 944
(1993); United States v. Kenny, 973 F.2d 339 (4th
Cir. 1992); United States v. Branch, 850 F.2d
1080 (5th Cir. 1988), cert, denied, 488 U.S. 1018
(1989); United States v. Risken, 788 F.2d 1361
(8th Cir.), cert, denied, 479 U.S. 923 (1986);
United States v. Rovetuso, 768 F.2d 809 (7th Cir.
1985), cert, denied, 474 U.S. 1076 (1986); United
States v. Lester, 749 F.2d 1288 (9th Cir. 1984).
But see United States v. Masterpol, 940 F.2d 760
(2d Cir. 1991) (construing the 1988 amendment
to section 1512 as evidence of Congress's intent
that witnesses were removed entirely from
section 1503).

49a

18 U.S. Code § 371.Conspiracy to Commit
Offense or to Defraud United States
If two or more persons conspire either to
commit any offense against the United States, or
to defraud the United States, or any agency
thereof in any manner or for any purpose, and
one or more of such persons do any act to effect
the object of the conspiracy, each shall be fined
under this title or imprisoned not more than five
years, or both. If, however, the offense, the
commission of which is the object of the
conspiracy, is a misdemeanor only, the
punishment for such conspiracy shall not exceed
the maximum punishment provided for such
misdemeanor.
(June 25,1948, ch. 645, 62 Stat. 701; Pub. L. 103—
322, title XXXIII, § 330016(1)(L), Sept. 13, 1994,
108 Stat. 2147.)
APPENDIX D
Conspiracy to commit offense or to
Defraud United States 18 U.S. Code § 371.
If two or more persons conspire either to
commit any offense against the United States, or
to defraud the United States, or any agency
thereof in any manner or for any purpose, and
one or more of such persons do any act to effect
the object of the conspiracy, each shall be fined
under this title or imprisoned not more than five
years, or both. If, however, the offense, the
commission of which is the object of the
conspiracy, is a misdemeanor only, the
punishment for such conspiracy shall not exceed
the maximum punishment provided for such
50a

misdemeanor. (June 25, 1948, ch. 645, 62 Stat.
701;
Pub.
L.
103-322,
title
XXXIII,
§ 330016(1)(L), Sept. 13, 1994, 108 Stat. 2147.)
APPENDIX D
Influencing or Injuring Officer or Juror
Generally 18 U.S. Code § 1503
(a)Whoever corruptly, or by threats or
force, or by any threatening letter or
communication,
endeavors
to
influence,
intimidate, or impede any grand or petit juror, or
officer in or of any court of the United States, or
officer who may be serving at any examination or
other proceeding before any United States
magistrate judge
or other
committing
magistrate, in the discharge of his duty, or
injures any such grand or petit juror in his person
or property on account of any verdict or
indictment assented to by him, or on account of
his being or having been such juror, or injures
any such officer, magistrate judge, or other
committing magistrate in his person or property
on account of the performance of his official
duties, or corruptly or by threats or force, or by
any threatening letter or communication,
influences, obstructs, or impedes, or endeavors to
influence, obstruct, or impede, the due
administration of justice, shall be punished as
provided in subsection
(b). If the offense under this section occurs
in connection with a trial of a criminal case, and
the act in violation of this section involves the
threat of physical force or physical force, the
maximum term of imprisonment which may be
51a

imposed for the offense shall be the higher of that
otherwise provided by law or the maximum term
that could have been imposed for any offense
charged in such case.(b)The punishment for an
offense under this section is—
(1) in the case of a killing, the punishment
provided in sections 1111 and 1112;(2) in the case
of an attempted killing, or a case in which the
offense was committed against a petit juror and
in which a class A or B felony was charged,
imprisonment for not more than 20 years, a fine
under this title, or both; and (3) in any other case,
imprisonment for not more than 10 years, a fine
under this title, or both. (June 25, 1948, ch. 645,
62 Stat. 769; Pub. L. 97-291, § 4(c), Oct. 12,1982,
96 Stat. 1253; Pub. L. 103-322, title VI, § 60016,
title XXXIII, § 330016(1)(K), Sept. 13, 1994, 108
Stat. 1974, 2147; Pub. L. 104-214, § 1(3), Oct. 1,
1996, 110 Stat. 3017.)
APPENDIX D
Obstruction of Criminal Investigations
18 U.S. Code § 1510.
(a) Whoever willfully endeavors by means
of bribery to obstruct, delay, or prevent the
communication of information relating to a
violation of any criminal statute of the United
States by any person to a criminal investigator
shall be fined under this title, or imprisoned not
more than five years, or both, (b)(1) Whoever,
being an officer of a financial institution, with the
intent to obstruct a judicial proceeding, directly
or indirectly notifies any other person about the
existence or contents of a subpoena for records of
52a

that financial institution, or information that has
been furnished in response to that subpoena,
shall be fined under this title or imprisoned not
more than 5 years, or both.
(2) Whoever, being an officer of a financial
institution, directly or indirectly notifies— (A) a
customer of that financial institution whose
records are sought by a subpoena for records; or
(B) any other person named in that subpoena;
about the existence or contents of that subpoena
or information that has been furnished in
response to that subpoena, shall be fined under
this title or imprisoned not more than one year,
or both.
(3) As used in this subsection—
(A) the term “an officer of a financial institution”
means an officer, director, partner, employee,
agent, or attorney of or for a financial institution;
and (B) the term “subpoena for records” means a
Federal grand jury subpoena or a Department of
Justice subpoena (issued under section 3486 of
title 18), for customer records that has been
served relating to a violation of, or a conspiracy to
violate— (i) section 215, 656, 657, 1005, 1006,
1007, 1014, 1344, 1956, 1957, or chapter 53 of
title 31; or (ii) section 1341 or 1343 affecting a
financial institution, (c) As used in this section,
the term “criminal investigator” means any
individual duly authorized by a department,
agency, or armed force of the United States to
conduct or engage in investigations of or
prosecutions for violations of the criminal laws of
the United States.

53a

(d) (1) Whoever— (A) acting as, or being,
an officer, director, agent or employee of a person
engaged in the business of insurance whose
activities affect interstate commerce, or (B)is
engaged in the business of insurance whose
activities affect interstate commerce or is
involved (other than as an insured or beneficiary
under a policy of insurance) in a transaction
relating to the conduct of affairs of such a
business, with intent to obstruct a judicial
proceeding, directly or indirectly notifies any
other person about the existence or contents of a
subpoena for records of that person engaged in
such business or information that has been
furnished to a Federal grand jury in response to
that subpoena, shall be fined as provided by this
title or imprisoned not more than 5 years, or both.
(2) As used in paragraph (1), the term
“subpoena for records” means a Federal grand
jury subpoena for records that has been served
relating to a violation of, or a conspiracy to
violate, section 1033 of this title, (e) Whoever,
having been notified of the applicable disclosure
prohibitions or confidentiality requirements of
section 2709(c)(1) of this title, section 626(d)(1) or
627(c)(1) of the Fair Credit Reporting Act (15
U.S.C. 1681u(d)(l) or 1681v(c)(l)), section
1114(a)(3)(A) or 1114(a)(5)(D)(i) of the Right to
Financial Privacy Act [1](12 U.S.C. 3414(a)(3)(A)
or 3414(a)(5)(D)(i)), or section 802(b)(1) of the
National Security Act of 1947 (50 U.S.C.
436(b)(1)),
[2] knowingly and with the intent to
obstruct an investigation or judicial proceeding
54a

violates such prohibitions or requirements
applicable by law to such person shall be
imprisoned for not more than five years, fined
under this title, or both.
(Added Pub. L. 90-123, § 1(a), Nov. 3,
1967, 81 Stat. 362; amended Pub. L. 97-291,
§ 4(e), Oct. 12, 1982, 96 Stat. 1253; Pub. L. 10173, title IX, § 962(c), Aug. 9, 1989, 103 Stat. 502;
Pub. L. 102-550, title XV, § 1528, Oct. 28, 1992,
106 Stat. 4065; Pub. L. 103-322, title XXXII,
§ 320604(c), title XXXIII, § 330016(1)(K), Sept.
13, 1994, 108 Stat. 2119, 2147; Pub. L. 104-191,
title II, § 248(c), Aug. 21, 1996, 110 Stat. 2020;
Pub. L. 109-177, title I, § 117, Mar. 9, 2006, 120
Stat. 217; Pub. L. 111-148, title X, § 10606(d)(1),
Mar. 23, 2010, 124 Stat. 1008.)
APPENDIX D
Proscribes Endeavors to Obstruct Federal
Criminal Investigations "By Means of
Bribery." 18 U.S.C. 1510
See, e.g., United States v. Schwartz, 924
F.2d 410, 423, n.3, (2d Cir. 1991). Prior to its
amendment by the Victim and Witness
Protection Act of 1982, the provision also
prohibited obstruction of criminal investigations
by "misrepresentation, intimidation, or force or
threats thereof' as well as retaliation against
informants. Obstructions of Federal criminal
investigations by all means enumerated in
former 18 U.S.C. § 1510 other than bribery is now
covered by 18 U.S.C. § 1512(b)(3). Obstructions
by intentional harassment, a new misdemeanor,
is an 18 U.S.C. § 1512(c) offense. Retaliation
55a

against informants is now covered by 18 U.S.C. §
1513. Section 1510 proscribes only endeavors
that are "willfully" undertaken and "require(s)
proof of a specific intent to obstruct justice."
United States v. Carleo, 576 F.2d 846, 849 (10th
Cir.), cert, denied, 439 U.S. 850 (1978); see
United States v. Lippman, 492 F.2d 314, 317 (6th
Cir. 1974), cert, denied, 419 U.S. 1107 (1975).
"[T]he defendant [must] have actual
knowledge that the intended recipient of the
information [is] a federal criminal investigator."
Id. at 317; accord United States v. Grande, 620
F.2d 1026, 1036-37 (4th Cir.), cert, denied, 449
U.S. 830, 919 (1980); United States v. Williams,
470 F.2d 1339, 1342 (8th Cir.), cert, denied, 411
U.S. 936 (1973). It is not required that the
defendant actually know that information has
been or is about to be supplied to a Federal
criminal investigator. All that is required is that
the
defendant reasonably believe
that
information had been, or would be, supplied.
United States v. Leisure, 844 F. 2d 1347,
1364 (8th Cir. 1988); United States v. Kozak, 438
F.2d 1062, 1066 (3d Cir.), cert, denied, 402 U.S.
996 (1971). See United States v. Zemke, 634 F.2d
1159,1176 (9th Cir. 1980), cert, denied, sub. nom.
Carbone v. United States, 450 U.S. 916, 985, and
cert, denied, sub. nom. Williams v. United States,
452 U.S. 905 (1981). Neither is it necessary to
show that a defendant in fact obstructed justice
or prevented a person from communicating to a
criminal investigator. United States v. Murray,
751 F.2d 1528, 1534 (9th Cir.), cert, denied, sub.
nom. Moore v. United States, 474 U.S. 979
56a

(1985). For the statute to be violated there is no
requirement that an investigation be underway.
United States v. Leisure, 844 F.2d at 1364. But
cf. United States v. Van Engel, 15 F.3d 623, 627
(7th Cir. 1993) (it is unclear whether section 1510
is applicable if no investigation is underway). The
requirement is only that there is an obstruction
of a communication to a criminal investigator.
United States v. Lippman, 492 F.2d at
317. The scienter requirement is satisfied by
showing that the defendant had a reasonably
founded belief that information had been or was
about to be given. United States v. Abrams, 543
F. Supp. 1184 (S.D.N.Y. 1982). Section 1510
applies to behavior occurring prior to and after
the commencement of an official proceeding.
United States v. Lester, 749 F.2d 1288, 1298-99
(9th Cir. 1984). The fact that the criminal act
occurred after the institution of judicial
proceedings is immaterial. United States v.
Roberts, 638 F.2d 134, 135 (9th Cir.) (offense
occurred 18 days after conviction), cert, denied,
452 U.S. 909 (1981).
Similarly, it is immaterial that the act was
intended to impede the future communication of
information to Federal criminal investigators.
United States v. Koehler, 544 F.2d 1326, 1329-30
(5th Cir. 1977) (offense occurred subsequent to
indictment). The plain language of section 1510
suggests that it should not be used to prosecute a
person who gives false or misleading information
to a criminal investigator.
Section 1510(b) proscribes officers of
financial institutions from obstructing a judicial
57a

proceeding by notifying another person about the
existence of a subpoena for records of that
financial institution or about information that
has been furnished to a grand jury in response to
that subpoena.
Section 1510(d) proscribes persons engaged in
the business of insurance from obstructing a
judicial proceeding by notifying any person about
the existence of a subpoena for records of that
person engaged in such business or about
information that has been furnished to a Federal
grand jury in response to that subpoena.
APPENDIX D
Tampering with a Witness, Victim, or an
Informant 18 U.S.C § 1512
(a)(1) Whoever kills or attempts to kill
another person, with intent to—(A)prevent the
attendance or testimony of any person in an
official proceeding; (B)prevent the production of a
record, document, or other object, in an official
proceeding; or (C)prevent the communication by
any person to a law enforcement officer or judge
of the United States of information relating to the
commission or possible commission of a Federal
offense or a violation of conditions of probation,
parole, or release pending judicial proceedings;
shall be punished as provided in paragraph (3).
(2) Whoever uses physical force or the
threat of physical force against any person, or
attempts to do so, with intent to— (A)influence,
delay, or prevent the testimony of any person in
an official proceeding; (B)cause or induce any
person to—
58a

©withhold testimony, or withhold a record,
document, or other object, from an official
proceeding; (ii)alter, destroy, mutilate, or conceal
an object with intent to impair the integrity or
availability of the object for use in an official
proceeding; (iii)evade legal process summoning
that person to appear as a witness, or to produce
a record, document, or other object, in an official
proceeding; or (iv)be absent from an official
proceeding to which that person has been
summoned by legal process; or (C)hinder, delay,
or prevent the communication to a law
enforcement officer or judge of the United States
of information relating to the commission or
possible commission of a Federal offense or a
violation of conditions of probation, supervised
release, parole, or release pending judicial
proceedings; shall be punished as provided in
paragraph (3).
(3) The punishment for an offense under
this subsection is— (A)in the case of a killing, the
punishment provided in sections 1111 and 1112;
(B)in the case of—(i)an attempt to murder; or
(ii)the use or attempted use of physical force
against any person; imprisonment for not more
than 30 years; and (C)in the case of the threat of
use of physical force against any person,
imprisonment for not more than 20 years.
(b)Whoever knowingly uses intimidation,
threatens, or corruptly persuades another
person, or attempts to do so, or engages in
misleading conduct toward another person, with
intent to— (1) influence, delay, or prevent the
testimony of any person in an official proceeding;
59a

(2)cause or induce any person to— (A)withhold
testimony, or withhold a record, document, or
other object, from an official proceeding; (B)alter,
destroy, mutilate, or conceal an object with intent
to impair the object’s integrity or availability for
use in an official proceeding; (C)evade legal
process summoning that person to appear as a
witness, or to produce a record, document, or
other object, in an official proceeding; or (D)be
absent from an official proceeding to which such
person has been summoned by legal process; or
(3) hinder, delay, or prevent the
communication to a law enforcement officer or
judge of the United States of information relating
to the commission or possible commission of a
Federal offense or a violation of conditions of
probation [1] supervised release, [1] parole, or
release pending judicial proceedings; shall be
fined under this title or imprisoned not more than
20 years, or both, (c)Whoever corruptly— (1)
alters, destroys, mutilates, or conceals a record,
document, or other object, or attempts to do so,
with the intent to impair the object’s integrity or
availability for use in an official proceeding; or
(2) otherwise obstructs, influences, or
impedes any official proceeding, or attempts to do
so, shall be fined under this title or imprisoned
not more than 20 years, or both. (d)Whoever
intentionally harasses another person and
thereby hinders, delays, prevents, or dissuades
any person from—
(1) attending or testifying in an official
proceeding; (2) reporting to a law enforcement
officer or judge of the United States the
60a

commission or possible commission of a Federal
offense or a violation of conditions of probation 1
supervised release, 1 parole, or release pending
judicial proceedings; (3) arresting or seeking the
arrest of another person in connection with a
Federal offense; or (4) causing a criminal
prosecution, or a parole or probation revocation
proceeding, to be sought or instituted, or
assisting in such prosecution or proceeding; or
attempts to do so, shall be fined under this title
or imprisoned not more than 3 years, or both.
(e)In a prosecution for an offense under
this section, it is an affirmative defense, as to
which the defendant has the burden of proof by a
preponderance of the evidence, that the conduct
consisted solely of lawful conduct and that the
defendant’s sole intention was to encourage,
induce, or cause the other person to testify
truthfully. (f)For the purposes of this section—
(1) an official proceeding need not be pending or
about to be instituted at the time of the offense;
and (2) the testimony, or the record, document, or
other object need not be admissible in evidence or
free of a claim of privilege.
(g)In a prosecution for an offense under
this section, no state of mind need be proved with
respect to the circumstance—
(1) that the official proceeding before a judge,
court, magistrate judge, grand jury, or
government agency is before a judge or court of
the United States, a United States magistrate
judge, a bankruptcy judge, a Federal grand jury,
or a Federal Government agency; or

61a

(2) that the judge is a judge of the United States
or that the law enforcement officer is an officer or
employee of the Federal Government or a person
authorized to act for or on behalf of the Federal
Government or serving the Federal Government
as an adviser or consultant.
(h)There is extraterritorial Federal
jurisdiction over an offense under this section.
(i) A prosecution under this section or section
1503 may be brought in the district in which the
official proceeding (whether or not pending or
about to be instituted) was intended to be affected
or in the district in which the conduct
constituting the alleged offense occurred.
0 If the offense under this section occurs
in connection with a trial of a criminal case, the
maximum term of imprisonment which may be
imposed for the offense shall be the higher of that
otherwise provided by law or the maximum term
that could have been imposed for any offense
charged in such case.
(k)Whoever conspires to commit any
offense under this section shall be subject to the
same penalties as those prescribed for the offense
the commission of which was the object of the
conspiracy. (Added Pub. L. 97—291, §4(a), Oct.
12,1982, 96 Stat. 1249; amended Pub. L. 99-646,
§ 61, Nov. 10, 1986, 100 Stat. 3614; Pub. L. 100690, title VII, § 7029(a), (c), Nov. 18, 1988, 102
Stat. 4397, 4398; Pub. L. 101-650, title III, § 321,
Dec. 1, 1990, 104 Stat. 5117; Pub. L. 103-322,
title VI, § 60018, title XXXIII, § 330016(1)(0), (U),
Sept. 13,1994,108 Stat. 1975, 2148; Pub. L. 104214, § 1(2), Oct. 1, 1996, 110 Stat. 3017; Pub. L.
62a

104-294, title VI, § 604(b)(31), Oct. 11, 1996, 110
Stat. 3508; Pub. L. 107—204, title XI, § 1102, July
30, 2002, 116 Stat. 807; Pub. L. 107-273, div. B,
title III, § 3001(a), (c)(1), Nov. 2, 2002, 116 Stat.
1803, 1804; Pub. L. 110-177, title II, §205, Jan.
7, 2008, 121 Stat. 2537.)
APPENDIX D
Retaliating Against a Witness, Victim, or
an Informant 18 U.S. Code § 1513.
(a)(l)Whoever kills or attempts to kill
another person with intent to retaliate against
any person for—(A)the attendance of a witness or
party at an official proceeding, or any testimony
given or any record, document, or other object
produced by a witness in an official proceeding; or
(B)providing to a law enforcement officer
any information relating to the commission or
possible commission of a Federal offense or a
violation of conditions of probation, supervised
release, parole, or release pending judicial
proceedings,
shall be punished as provided in paragraph (2).
(2) The punishment for an offense under this
subsection is— (A)in the case of a killing, the
punishment provided in sections 1111 and 1112;
and (B) in the case of an attempt, imprisonment
for not more than 30 years. (b)Whoever
knowingly engages in any conduct and thereby
causes bodily injury to another person or
damages the tangible property of another person,
or threatens to do so, with intent to retaliate
against any person for—

63a

(1) the attendance of a witness or party at
an official proceeding, or any testimony given or
any record, document, or other object produced by
a witness in an official proceeding; or (2) any
information relating to the commission or
possible commission of a Federal offense or a
violation of conditions of probation, supervised
release, parole, or release pending judicial
proceedings given by a person to a law
enforcement officer; or attempts to do so, shall be
fined under this title or imprisoned not more than
20 years, or both, (c) If the retaliation occurred
because of attendance at or testimony in a
criminal case, the maximum term of
imprisonment which may be imposed for the
offense under this section shall be the higher of
that otherwise provided by law or the maximum
term that could have been imposed for any
offense charged in such case, (d) There is
extraterritorial Federal jurisdiction over an
offense under this section.
(e) Whoever knowingly, with the intent to
retaliate, takes any action harmful to any person,
including interference with the lawful
employment or livelihood of any person, for
providing to a law enforcement officer any
truthful information relating to the commission
or possible commission of any Federal offense,
shall be fined under this title or imprisoned not
more than 10 years, or both, (f) Whoever
conspires to commit any offense under this
section shall be subject to the same penalties as
those prescribed for the offense the commission of
which was the object of the conspiracy.
64a

(g) A prosecution under this section may
be brought in the district in which the official
proceeding (whether pending, about to be
instituted, or completed) was intended to be
affected, or in which the conduct constituting the
alleged offense occurred. (Added Pub. L. 97—291,
§ 4(a), Oct. 12,1982, 96 Stat. 1250; amended Pub.
L. 103-322, title VI, §60017, title XXXIII,
§ 330016(1)(U), Sept. 13, 1994, 108 Stat. 1975,
2148; Pub. L. 104-214, §1(1), Oct. 1, 1996, 110
Stat. 3017; Pub. L. 107-204, title XI, § 1107(a),
July 30, 2002,116 Stat. 810; Pub. L. 107-273, div.
B, title III, § 3001(b), (c)(2), title IV, § 4002(b)(4),
Nov. 2, 2002, 116 Stat. 1804, 1807; Pub. L. 110177, title II, §§ 204, 206, Jan. 7, 2008, 121 Stat.
2537.)
APPENDIX D
Perjury Generally - 18 U.S. Code § 1621.
Whoever— (1) having taken an oath before
a competent tribunal, officer, or person, in any
case in which a law of the United States
authorizes an oath to be administered, that he
will testify, declare, depose, or certify truly, or
that any written testimony, declaration,
deposition, or certificate by him subscribed, is
true, willfully and contrary to such oath states or
subscribes any material matter which he does not
believe to be true; or (2) in any declaration,
certificate, verification, or statement under
penalty of perjury as permitted under section
1746 of title 28, United States Code, willfully
subscribes as true any material matter which he
does not believe to be true; is guilty of perjury and
65a

shall, except as otherwise expressly provided by
law, be fined under this title or imprisoned not
more than five years, or both. This section is
applicable whether the statement or subscription
is made within or without the United States.
(June 25, 1948, ch. 645, 62 Stat. 773; Pub. L. 88—
619, § 1, Oct. 3, 1964, 78 Stat. 995; Pub. L. 94550, § 2, Oct. 18,1976, 90 Stat. 2534; Pub. L. 103322, title XXXIII, § 330016(1)©, Sept. 13, 1994,
108 Stat. 2147.)
APPENDIX D
False Declaration before grand jury
18 U.S.C. § 1623
(a) Whoever under oath (or in any
declaration, certificate, verification, or statement
under penalty of perjury as permitted under
section 1746 of title 28, United States Code) in
any proceeding before or ancillary to any court or •
grand jury of the United States knowingly makes
any false material declaration or makes or uses
any other information, including any book, paper,
document, record, recording, or other material,
knowing the same to contain any false material
declaration, shall be fined under this title or
imprisoned not more than five years, or both.
(b) This section is applicable whether the
conduct occurred within or without the United
States, (c) An indictment or information for
violation of this section alleging that, in any
proceedings before or ancillary to any court or
grand jury of the United States, the defendant
under oath has knowingly made two or more
declarations, which are inconsistent to the degree
66a

that one of them is necessarily false, need not
specify which declaration is false if— (1) each
declaration was material to the point in question,
and;
(2) each declaration was made within the
period of the statute of limitations for the offense
charged under this section. In any prosecution
under this section, the falsity of a declaration set
forth in the indictment or information shall be
established sufficient for conviction by proof that
the defendant while under oath made
irreconcilably
contradictory
declarations
material to the point in question in any
proceeding before or ancillary to any court or
grand jury. It shall be a defense to an indictment
or information made pursuant to the first
sentence of this subsection that the defendant at
the time he made each declaration believed the
declaration was true.
(d) Where, in the same continuous court or
grand jury proceeding in which a declaration is
made, the person making the declaration admits
such declaration to be false, such admission shall
bar prosecution under this section if, at the time
the admission is made, the declaration has not
substantially affected the proceeding, or it has
not become manifest that such falsity has been or
will be exposed, (e) Proof beyond a reasonable
doubt under this section is sufficient for
conviction. It shall not be necessary that such
proof be made by any particular number of
witnesses or by documentary or other type of
evidence. (Added Pub. L. 91—452, title IV,
§ 401(a), Oct. 15, 1970, 84 Stat. 932; amended
67a

Pub. L. 94-550, § 6, Oct. 18, 1976, 90 Stat. 2535;
Pub. L. 103-322, title XXXIII, § 330016(1)(L),
Sept. 13, 1994, 108 Stat. 2147.)
APPENDIX D
Interference Commerce by Threats or
Violence 18 U.S. Code § 1951.
(a) Whoever in any way or degree
obstructs, delays, or affects commerce or the
movement of any article or commodity in
commerce, by robbery or extortion or attempts or
conspires so to do, or commits or threatens
physical violence to any person or property in
furtherance of a plan or purpose to do anything
in violation of this section shall be fined under
this title or imprisoned not more than twenty
years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful
taking or obtaining of personal property from the
person or in the presence of another, against his
will, by means of actual or threatened force, or
violence, or fear of injury, immediate or future, to
his person or property, or property in his custody
or possession, or the person or property of a
relative or member of his family or of anyone in
his company at the time of the taking or
obtaining. (2) The term “extortion” means the
obtaining of property from another, with his
consent, induced by wrongful use of actual or
threatened force, violence, or fear, or under color
of official right. (3) The term “commerce” means
commerce within the District of Columbia, or any
Territory or Possession of the United States;
68a

all commerce between any point in a State,
Territory, Possession, or the District of Columbia
and any point outside thereof; all commerce
between points within the same State through
any place outside such State; and all other
commerce over which the United States has
jurisdiction, (c) This section shall not be
construed to repeal, modify or affect section 17 of
Title 15, sections 52,101-115,151-166 of Title 29
or sections 151-188 of Title 45. (June 25, 1948,
ch. 645, 62 Stat. 793; Pub. L. 103-322, title
XXXIII, § 330016(1)(L), Sept. 13, 1994, 108 Stat.
2147.)
APPENDIX D
RICO 18 U.S. Code § 1961
(1) “racketeering activity” means (A) any
act or threat involving murder, kidnapping,
gambling, arson, robbery, bribery, extortion,
dealing in obscene matter, or dealing in a
controlled substance or listed chemical (as
defined in section 102 of the Controlled
Substances Act), which is chargeable under State
law and punishable by imprisonment for more
than one year; (B) any act which is indictable
under any of the following provisions of title 18,
United States Code: Section 201 (relating to
bribery), section 224 (relating to sports bribery),
sections 471, 472, and 473 (relating to
counterfeiting), section 659 (relating to theft from
interstate shipment) if the act indictable under
section 659 is felonious, section 664 (relating to
embezzlement from pension and welfare funds),
sections 891-894 (relating to extortionate credit
transactions),
69a

section 1028 (relating to fraud and related
activity in connection with identification
documents), section 1029 (relating to fraud and
related activity in connection with access
devices), section 1084 (relating to the
transmission of gambling information), section
1341 (relating to mail fraud), section 1343
(relating to wire fraud), section 1344 (relating to
financial institution fraud), section 1351 (relating
to fraud in foreign labor contracting), section
1425 (relating to the procurement of citizenship
or nationalization unlawfully), section 1426
(relating to the reproduction of naturalization or
citizenship papers),
section 1427 (relating to the sale of
naturalization or citizenship papers), sections
1461-1465 (relating to obscene matter), section
1503 (relating to obstruction of justice), section
1510 (relating to obstruction of criminal
investigations), section 1511 (relating to the
obstruction of State or local law enforcement),
section 1512 (relating to tampering with a
witness, victim, or an informant), section 1513
(relating to retaliating against a witness, victim,
or an informant), section 1542 (relating to false
statement in application and use of passport),
section 1543 (relating to forgery or false use of
passport), section 1544 (relating to misuse of
passport), section 1546 (relating to fraud and
misuse of visas, permits, and other documents),
sections 1581—1592 (relating to peonage, slavery,
and trafficking in persons).,[1] sections 1831 and
1832 (relating to economic espionage and theft of
trade secrets),
70a

section 1951 (relating to interference with
commerce, robbery, or extortion), section 1952
(relating to racketeering), section 1953 (relating
to interstate transportation of wagering
paraphernalia), section 1954 (relating to
unlawful welfare fund payments), section 1955
(relating to the prohibition of illegal gambling
businesses), section 1956 (relating to the
laundering of monetary instruments), section
1957 (relating to engaging in monetary
transactions in property derived from specified
unlawful activity), section 1958 (relating to use of
interstate commerce facilities in the commission
of murder-for-hire), section 1960 (relating to
illegal money transmitters),
sections 2251, 2251A, 2252, and 2260
(relating to sexual exploitation of children),
sections 2312 and 2313 (relating to interstate
transportation of stolen motor vehicles), sections
2314 and 2315 (relating to interstate
transportation of stolen property), section 2318
(relating to trafficking in counterfeit labels for
phonorecords, computer programs or computer
program documentation or packaging and copies
of motion pictures or other audiovisual works),
section 2319 (relating to criminal infringement of
a copyright), section 2319A (relating to
unauthorized fixation of and trafficking in sound
recordings and music videos of live musical
performances), section 2320 (relating to
trafficking in goods or services bearing
counterfeit marks), section 2321 (relating to
trafficking in certain motor vehicles or motor
vehicle parts),
71a

sections
2341-2346
(relating
to
trafficking in contraband cigarettes), sections
2421—24 (relating to white slave traffic), sections
175-178 (relating to biological weapons), sections
229-229F (relating to chemical weapons), section
831 (relating to nuclear materials), (C) any act
which is indictable under title 29, United States
Code, section 186 (dealing with restrictions on
payments and loans to labor organizations) or
section 501(c) (relating to embezzlement from
union funds), (D) any offense involving fraud
connected with a case under title 11 (except a
case under section 157 of this title), fraud in the
sale of securities, or the felonious manufacture,
importation, receiving, concealment, buying,
selling, or otherwise dealing in a controlled
substance or listed chemical (as defined in section
102 of the Controlled Substances Act),
punishable under any law of the United States,
(E) any act which is indictable under the
Currency and Foreign Transactions Reporting
Act, (F) any act which is indictable under the
Immigration and Nationality Act, section 274
(relating to bringing in and harboring certain
aliens), section 277 (relating to aiding or assisting
certain aliens to enter the United States), or
section 278 (relating to importation of alien for
immoral purpose) if the act indictable under such
section of such Act was committed for the purpose
of financial gain, or (G) any act that is indictable
under any provision listed in section
2332b(g)(5)(B); (2) “State” means any State of the
United States, the District of Columbia, the
Commonwealth of Puerto Rico, any territory or
72a

possession of the United States, any political
subdivision, or any department, agency, or
instrumentality thereof;
(3) “person” includes any individual or
entity capable of holding a legal or beneficial
interest in property; (4) “enterprise” includes any
individual, partnership, corporation, association,
or other legal entity, and any union or group of
individuals associated in fact although not a legal
entity; (5) “pattern of racketeering activity”
requires at least two acts of racketeering activity,
one of which occurred after the effective date of
this chapter and the last of which occurred within
ten years (excluding any period of imprisonment)
after the commission of a prior act of racketeering
activity; (6) “unlawful debt” means a debt (A)
incurred or contracted in gambling activity which
was in violation of the law of the United States, a
State or political subdivision thereof, or which is
unenforceable under State or Federal law in
whole or in part as to principal or interest
because of the laws relating to usury, and
(B) which was incurred in connection with
the business of gambling in violation of the law of
the United States, a State or political subdivision
thereof, or the business of lending money or a
thing of value at a rate usurious under State or
Federal law, where the usurious rate is at least
twice the enforceable rate; (7) “racketeering
investigator” means any attorney or investigator
so designated by the Attorney General and
charged with the duty of enforcing or carrying
into effect this chapter;

73a

(8) “racketeering investigation” means any
inquiry conducted by any racketeering
investigator for the purpose of ascertaining
whether any person has been involved in any
violation of this chapter or of any final order,
judgment, or decree of any court of the United
States, duly entered in any case or proceeding
arising under this chapter; (9) “documentary
material” includes any book, paper, document,
record, recording, or other material; and
(10) “Attorney General” includes the
Attorney General of the United States, the
Deputy Attorney General of the United States,
the Associate Attorney General of the United
States, any Assistant Attorney General of the
United States, or any employee of the
Department of Justice or any employee of any
department or agency of the United States so
designated by the Attorney General to carry out
the powers conferred on the Attorney General by
this chapter. Any department or agency so
designated may use in investigations authorized
by this chapter either the investigative provisions
of this chapter or the investigative power of such
department or agency otherwise conferred by
law.
(Added Pub. L. 91-452, title IX, § 901(a),
Oct. 15, 1970, 84 Stat. 941; amended Pub. L. 95575, § 3(c), Nov. 2, 1978, 92 Stat. 2465; Pub. L.
95—598, title III, § 314(g), Nov. 6, 1978, 92 Stat.
2677; Pub. L. 98-473, title II, §§ 901(g), 1020, Oct.
12, 1984, 98 Stat. 2136, 2143; Pub. L. 98-547,
title II, § 205, Oct. 25, 1984, 98 Stat. 2770; Pub.
L. 99-570, title I, § 1365(b), Oct. 27, 1986, 100
74a

Stat. 3207-35; Pub. L. 99-646, § 50(a), Nov. 10,
1986, 100 Stat. 3605; Pub. L. 100-690, title VII,
§§ 7013, 7020(c), 7032, 7054, 7514, Nov. 18, 1988,
102 Stat. 4395, 4396, 4398, 4402, 4489; Pub. L.
101-73, title IX, § 968, Aug. 9, 1989, 103 Stat.
506; Pub. L. 101—647, title XXXV, § 3560, Nov.
29, 1990, 104 Stat. 4927; Pub. L. 103-322, title
IX, § 90104, title XVI, § 160001(f), title XXXIII,
§ 330021(1), Sept. 13, 1994, 108 Stat. 1987, 2037,
2150; Pub. L. 103-394, title III, § 312(b), Oct. 22,
1994, 108 Stat. 4140; Pub. L. 104-132, title IV,
§ 433, Apr. 24, 1996, 110 Stat. 1274; Pub. L. 104153, §3, July 2, 1996, 110 Stat. 1386; Pub. L.
104-208, div. C, title II, § 202, Sept. 30,1996,110
Stat. 3009—565; Pub. L. 104-294, title VI,
§§ 601(b)(3), (i)(3), 604(b)(6), Oct. 11, 1996, 110
Stat. 3499, 3501, 3506; Pub. L. 107-56, title VIII,
§813, Oct. 26, 2001, 115 Stat. 382; Pub. L. 107273, div. B, title IV, § 4005(f)(1), Nov. 2, 2002, 116
Stat. 1813; Pub. L. 108-193, § 5(b), Dec. 19, 2003,
117 Stat. 2879; Pub. L. 108-458, title VI,
§ 6802(e), Dec. 17, 2004, 118 Stat. 3767; Pub. L.
109-164, title I, § 103(c), Jan. 10, 2006, 119 Stat.
3563; Pub. L. 109-177, title IV, § 403(a), Mar. 9,
2006, 120 Stat. 243; Pub. L. 113-4, title XII,
§ 1211(a), Mar. 7, 2013, 127 Stat. 142; Pub. L.
114-153, § 3(b), May 11, 2016, 130 Stat. 382.)
APPENDIX D
Prohibited Activities 18 U.S. Code § 1962
(a) It shall be unlawful for any person who
has received any income derived, directly or
indirectly, from a pattern of racketeering activity
or through collection of an unlawful debt in which
75a

such person has participated as a principal
within the meaning of section 2, title 18, United
States Code, to use or invest, directly or
indirectly, any part of such income, or the
proceeds of such income, in acquisition of any
interest in, or the establishment or operation of,
any enterprise which is engaged in, or the
activities of which affect, interstate or foreign
commerce.
A purchase of securities on the open
market for purposes of investment, and without
the intention of controlling or participating in the
control of the issuer, or of assisting another to do
so, shall not be unlawful under this subsection if
the securities of the issuer held by the purchaser,
the members of his immediate family, and his or
their accomplices in any pattern or racketeering
activity or the collection of an unlawful debt after
such purchase do not amount in the aggregate to
one percent of the outstanding securities of any
one class, and do not confer, either in law or in
fact, the power to elect one or more directors of
the issuer.
(b) It shall be unlawful for any person
through a pattern of racketeering activity or
through collection of an unlawful debt to acquire
or maintain, directly or indirectly, any interest in
or control of any enterprise which is engaged in,
or the activities of which affect, interstate or
foreign commerce, (c) It shall be unlawful for any
person employed by or associated with any
enterprise engaged in, or the activities of which
affect, interstate or foreign commerce, to conduct
or participate, directly or indirectly, in the
76a

conduct of such enterprise’s affairs through a
pattern of racketeering activity or collection of
unlawful debt, (d) It shall be unlawful for any
person to conspire to violate any of the provisions
of subsection (a), (b), or (c) of this section. (Added
Pub. L. 91-452, title IX, § 901(a), Oct. 15, 1970,
84 Stat. 942; amended Pub. L. 100-690, title VII,
§ 7033, Nov. 18, 1988, 102 Stat. 4398.)
APPENDIX D
Criminal Penalties 18 U.S. Code § 1963
(a) Whoever violates any provision of
section 1962 of this chapter shall be fined under
this title or imprisoned not more than 20 years
(or for life if the violation is based on a
racketeering activity for which the maximum
penalty includes life imprisonment), or both, and
shall forfeit to the United States, irrespective of
any provision of State law—(1) any interest the
person has acquired or maintained in violation of
section 1962;(2) any—(A) interest in;(B) security
of; (C) claim against; or (D) property or
contractual right of any kind affording a source of
influence over; any enterprise which the person
has established, operated, controlled, conducted,
or participated in the conduct of, in violation of
section 1962; and
(3) any property constituting, or derived
from, any proceeds which the person obtained,
directly or indirectly, from racketeering activity
or unlawful debt collection in violation of section
1962. The court, in imposing sentence on such
person shall order, in addition to any other
sentence imposed pursuant to this section, that
77a

the person forfeit to the United States all
property described in this subsection. In lieu of a
fine otherwise authorized by this section, a
defendant who derives profits or other proceeds
from an offense may be fined not more than twice
the gross profits or other proceeds, (b) Property
subject to criminal forfeiture under this section
includes— (1) real property, including things
growing on, affixed to, and found in land; and
(2) tangible and intangible personal
property, including rights, privileges, interests,
claims, and securities, (c) All right, title, and
interest in property described in subsection (a)
vests in the United States upon the commission
of the act giving rise to forfeiture under this
section. Any such property that is subsequently
transferred to a person other than the defendant
may be the subject of a special verdict of
forfeiture and thereafter shall be ordered
forfeited to the United States, unless the
transferee establishes in a hearing pursuant to
subsection (1) that he is a bona fide purchaser for
value of such property who at the time of
purchase was reasonably without cause to
believe that the property was subject to forfeiture
under this section.
(d) (1) Upon application of the United
States, the court may enter a restraining order or
injunction, require the execution of a satisfactory
performance bond, or take any other action to
preserve the availability of property described in
subsection (a) for forfeiture under this section—
(A) upon the filing of an indictment or
information charging a violation of section 1962
78a

of this chapter and alleging that the property
with respect to which the order is sought would,
in the event of conviction, be subject to forfeiture
under this section; or (B) prior to the filing of such
an indictment or information, if, after notice to
persons appearing to have an interest in the
property and opportunity for a hearing, the court
determines that—
(i) there is a substantial probability that
the United States will prevail on the issue of
forfeiture and that failure to enter the order will
result in the property being destroyed, removed
from the jurisdiction of the court, or otherwise
made unavailable for forfeiture; and
(ii) the need to preserve the availability of
the property through the entry of the requested
order outweighs the hardship on any party
against whom the order is to be entered:
Provided, however, that an order entered
pursuant to subparagraph (B) shall be effective
for not more than ninety days, unless extended
by the court for good cause shown or unless an
indictment or information described in
subparagraph (A) has been filed. (2) A temporary
restraining order under this subsection may be
entered upon application of the United States
without notice or opportunity for a hearing when
an information or indictment has not yet been
filed with respect to the property, if the United
States demonstrates that there is probable cause
to believe that the property with respect to which
the order is sought would, in the event of
conviction, be subject to forfeiture under this
section and that provision of notice will
79a

jeopardize the availability of the property for
forfeiture.
Such a temporary order shall expire not
more than fourteen days after the date on which
it is entered, unless extended for good cause
shown or unless the party against whom it is
entered consents to an extension for a longer
period. A hearing requested concerning an order
entered under this paragraph shall be held at the
earliest possible time, and prior to the expiration
of the temporary order. (3) The court may receive
and consider, at a hearing held pursuant to this
subsection, evidence and information that would
be inadmissible under the Federal Rules of
Evidence.
(e) Upon conviction of a person under this
section, the court shall enter a judgment of
forfeiture of the property to the United States and
shall also authorize the Attorney General to seize
all property ordered forfeited upon such terms
and conditions as the court shall deem proper.
Following the entry of an order declaring the
property forfeited, the court may, upon
application of the United States, enter such
appropriate restraining orders or injunctions,
require the execution of satisfactory performance
bonds,
appoint
receivers,
conservators,
appraisers, accountants, or trustees, or take any
other action to protect the interest of the United
States in the property ordered forfeited. Any
income accruing to, or derived from, an
enterprise or an interest in an enterprise which
has been ordered forfeited under this section may
be used to offset ordinary and necessary expenses
80a

to the enterprise which are required by law, or
which are necessary to protect the interests of the
United States or third parties.
(f) Following the seizure of property
ordered forfeited under this section, the Attorney
General shall direct the disposition of the
property by sale or any other commercially
feasible means, making due provision for the
rights of any innocent persons. Any property
right or interest not exercisable by, or
transferable for value to, the United States shall
expire and shall not revert to the defendant, nor
shall the defendant or any person acting in
concert with or on behalf of the defendant be
eligible to purchase forfeited property at any sale
held by the United States.
Upon application of a person, other than
the defendant or a person acting in concert with
or on behalf of the defendant, the court may
restrain or stay the sale or disposition of the
property pending the conclusion of any appeal of
the criminal case giving rise to the forfeiture, if
the applicant demonstrates that proceeding with
the sale or disposition of the property will result
in irreparable injury, harm or loss to him.
Notwithstanding 31 U.S.C. 3302(b), the
proceeds of any sale or other disposition of
property forfeited under this section and any
moneys forfeited shall be used to pay all proper
expenses for the forfeiture and the sale, including
expenses of seizure, maintenance and custody of
the property pending its disposition, advertising
and court costs.

81a

The Attorney General shall deposit in the
Treasury any amounts of such proceeds or
moneys remaining after the payment of such
expenses, (g) With respect to property ordered
forfeited under this section, the Attorney General
is authorized to—(1) grant petitions for
mitigation or remission of forfeiture, restore
forfeited property to victims of a violation of this
chapter, or take any other action to protect the
rights of innocent persons which is in the interest
of justice and which is not inconsistent with the
provisions of this chapter; (2) compromise claims
arising under this section; (3) award
compensation to persons providing information
resulting in a forfeiture under this section;(4)
direct the disposition by the United States of all
property ordered forfeited under this section by
public sale or any other commercially feasible
means, making due provision for the rights of
innocent persons; and (5) take appropriate
measures necessary to safeguard and maintain
property ordered forfeited under this section
pending its disposition, (h) The Attorney General
may promulgate regulations with respect to—
(1) making reasonable efforts to provide
notice to persons who may have an interest in
property ordered forfeited under this section; (2)
granting petitions for remission or mitigation of
forfeiture; (3) the restitution of property to
victims of an offense petitioning for remission or
mitigation of forfeiture under this chapter; (4) the
disposition by the United States of forfeited
property by public sale or other commercially
feasible means;
82a

(5) the maintenance and safekeeping of
any property forfeited under this section pending
its disposition; and (6) the compromise of claims
arising under this chapter. Pending the
promulgation of such regulations, all provisions
of law relating to the disposition of property, or
the proceeds from the sale thereof, or the
remission or mitigation of forfeitures for violation
of the customs laws, and the compromise of
claims and the award of compensation to
informers in respect of such forfeitures shall
apply to forfeitures incurred, or alleged to have
been incurred, under the provisions of this
section, insofar as applicable and not inconsistent
with the provisions hereof. Such duties as are
imposed upon the Customs Service or any person
with respect to the disposition of property under
the customs law shall be performed under this
chapter by the Attorney General.
(i) Except as provided in subsection (1), no
party claiming an interest in property subject to
forfeiture under this section may—(1) intervene
in a trial or appeal of a criminal case involving
the forfeiture of such property under this section;
or (2) commence an action at law or equity
against the United States concerning the validity
of his alleged interest in the property subsequent
to the filing of an indictment or information
alleging that the property is subject to forfeiture
under this section.
(j) The district courts of the United States
shall have jurisdiction to enter orders as provided
in this section without regard to the location of
any property which may be subject to forfeiture
83a

under this section or which has been ordered
forfeited under this section.
(k) In order to facilitate the identification
or location of property declared forfeited and to
facilitate the disposition of petitions for remission
or mitigation of forfeiture, after the entry of an
order declaring property forfeited to the United
States the court may, upon application of the
United States, order that the testimony of any
witness relating to the property forfeited be taken
by deposition and that any designated book,
paper, document, record, recording, or other
material not privileged be produced at the same
time and place, in the same manner as provided
for the taking of depositions under Rule 15 of the
Federal Rules of Criminal Procedure.
(l) (1) Following the entry of an order of
forfeiture under this section, the United States
shall publish notice of the order and of its intent
to dispose of the property in such manner as the
Attorney General may direct. The Government
may also, to the extent practicable, provide direct
written notice to any person known to have
alleged an interest in the property that is the
subject of the order of forfeiture as a substitute
for published notice as to those persons so
notified.
(2) Any person, other than the defendant,
asserting a legal interest in property which has
been ordered forfeited to the United States
pursuant to this section may, within thirty days
of the final publication of notice or his receipt of
notice under paragraph (1), whichever is earlier,
petition the court for a hearing to adjudicate the
84a

validity of his alleged interest in the property.
The hearing shall be held before the court alone,
without a jury.
(3) The petition shall be signed by the
petitioner under penalty of perjury and shall set
forth the nature and extent of the petitioner’s
right, title, or interest in the property, the time
and circumstances of the petitioner’s acquisition
of the right, title, or interest in the property, any
additional facts supporting the petitioner’s claim,
and the relief sought. (4) The hearing on the
petition shall, to the extent practicable and
consistent with the interests of justice, be held
within thirty days of the filing of the petition. The
court may consolidate the hearing on the petition
with a hearing on any other petition filed by a
person other than the defendant under this
subsection.
(5) At the hearing, the petitioner may
testify and present evidence and witnesses on his
own behalf, and cross-examine witnesses who
appear at the hearing. The United States may
present evidence and witnesses in rebuttal and in
defense of its claim to the property and crossexamine witnesses who appear at the hearing. In
addition to testimony and evidence presented at
the hearing, the court shall consider the relevant
portions of the record of the criminal case which
resulted in the order of forfeiture.
(6) If, after the hearing, the court
determines that the petitioner has established by
a preponderance of the evidence that—(A) the
petitioner has a legal right, title, or interest in the
property, and such right, title, or interest renders
85a

the order of forfeiture invalid in whole or in part
because the right, title, or interest was vested in
the petitioner rather than the defendant or was
superior to any right, title, or interest of the
defendant at the time of the commission of the
acts which gave rise to the forfeiture of the
property under this section; or
(B) the petitioner is a bona fide purchaser
for value of the right, title, or interest in the
property and was at the time of purchase
reasonably without cause to believe that the
property was subject to forfeiture under this
section; the court shall amend the order of
forfeiture in accordance with its determination.
(7) Following the court’s disposition of all
petitions filed under this subsection, or if no such
petitions are filed following the expiration of the
period provided in paragraph (2) for the filing of
such petitions, the United States shall have clear
title to property that is the subject of the order of
forfeiture and may warrant good title to any
subsequent purchaser or transferee.(m) If any of
the property described in subsection (a), as a
result of any act or omission of the defendant—
(1) cannot be located upon the exercise of
due diligence; (2) has been transferred or sold to,
or deposited with, a third party; (3) has been
placed beyond the jurisdiction of the court; (4) has
been substantially diminished in value; or (5) has been commingled with other property which
cannot be divided without difficulty; the court
shall order the forfeiture of any other property of
the defendant up to the value of any property
described in paragraphs (1) through (5).
86a

(Added Pub. L. 91—452, title IX, § 901(a),
Oct. 15, 1970, 84 Stat. 943; amended Pub. L. 98473, title II, §§ 302, 2301(a)-(c), Oct. 12, 1984, 98
Stat. 2040, 2192; Pub. L. 99-570, title I, § 1153(a),
Oct. 27,1986,100 Stat. 3207-13; Pub. L. 99-646,
§23, Nov. 10, 1986, 100 Stat. 3597; Pub. L. 100690, title VII, §§ 7034, 7058(d), Nov. 18,1988,102
Stat. 4398, 4403; Pub. L. 101-647, title XXXV,
§3561, Nov. 29, 1990, 104 Stat. 4927; Pub. L.
111-16, § 3(4), May 7, 2009, 123 Stat. 1607.)
APPENDIX D
Civil RICO 18 U.S.C. § 1964 (1970)
(a) The district courts of the United States
shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter by
issuing appropriate orders, including, but not
limited to: ordering any person to divest himself
of any interest, direct or indirect, in any
enterprise; imposing reasonable restrictions on
the future activities or investments of any person,
including, but not limited to, prohibiting any
person from engaging in the same type of
endeavor as the enterprise engaged in, the
activities of which affect interstate or foreign
commerce;
or
ordering
dissolution
or
reorganization of any enterprise, making due
provision for the rights of innocent persons.
(b) The Attorney General may institute
proceedings under this section. Pending final
determination thereof, the court may at any time
enter such restraining orders or prohibitions, or
take such other actions, including the acceptance
of satisfactory performance bonds, as it shall
87a

deem proper, (c) Any person injured in his
business or property by reason of a violation of
section 1962 of this chapter may sue therefor in
any appropriate United States district court and
shall recover threefold the damages he sustains
and the cost of the suit, including a reasonable
attorney’s fee, except that no person may rely
upon any conduct that would have been
actionable as fraud in the purchase or sale of
securities to establish a violation of section 1962.
The exception contained in the preceding
sentence does not apply to an action against any
person that is criminally convicted in connection
with the fraud, in which case the statute of
limitations shall start to run on the date on which
the conviction becomes final, (d) A final judgment
or decree rendered in favor of the United States
in any criminal proceeding brought by the United
States under this chapter shall estop the
defendant from denying the essential allegations
of the criminal offense in any subsequent civil
proceeding brought by the United States.(Added
Pub. L. 91—452, title IX, § 901(a), Oct. 15,
1970, 84 Stat. 943; amended Pub. L. 98-620, title
IV, § 402(24)(A), Nov. 8, 1984, 98 Stat. 3359; Pub.
L. 104-67, title I, § 107, Dec. 22, 1995, 109 Stat.
758.)
APPENDIX D
Criminal Copyright Infringement
18 U.S.C. § 2319
(a) The district courts of the United States
shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter by
issuing appropriate orders, including, but not
88a

limited to: ordering any person to divest himself
of any interest, direct or indirect, in any
enterprise; imposing reasonable restrictions on
the future activities or investments of any person,
including, but not limited to, prohibiting any
person from engaging in the same type of
endeavor as the enterprise engaged in, the
activities of which affect interstate or foreign
commerce;
or
ordering
dissolution
or
reorganization of any enterprise, making due
provision for the rights of innocent persons.
(b) The Attorney General may institute
proceedings under this section. Pending final
determination thereof, the court may at any time
enter such restraining orders or prohibitions, or
take such other actions, including the acceptance
of satisfactory performance bonds, as it shall
deem proper, (c) Any person injured in his
business or property by reason of a violation of
section 1962 of this chapter may sue therefor in
any appropriate United States district court and
shall recover threefold the damages he sustains
and the cost of the suit, including a reasonable
attorney’s fee, except that no person may rely
upon any conduct that would have been
actionable as fraud in the purchase or sale of
securities to establish a violation of section 1962.
The exception contained in the preceding
sentence does not apply to an action against any
person that is criminally convicted in connection
with the fraud, in which case the statute of
limitations shall start to run on the date on which
the conviction becomes final, (d) A final judgment
or decree rendered in favor of the United States
89a

in any criminal proceeding brought by the United
States under this chapter shall estop the
defendant from denying the essential allegations
of the criminal offense in any subsequent civil
proceeding brought by the United States.
(Added Pub. L. 91—452, title IX, § 901(a),
Oct. 15, 1970, 84 Stat. 943; amended Pub. L. 98—
620, title IV, § 402(24)(A), Nov. 8, 1984, 98 Stat.
3359; Pub. L. 104-67, title I, § 107, Dec. 22, 1995,
109 Stat. 758.)
APPENDIX D
Federal question 28 U.S. Code § 1331
The district courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United
States.(June 25, 1948, ch. 646, 62 Stat. 930; Pub.
L. 85-554, § 1, July 25, 1958, 72 Stat. 415; Pub.
L. 94-574, § 2, Oct. 21, 1976, 90 Stat. 2721; Pub.
L. 96-486, § 2(a), Dec. 1, 1980, 94 Stat. 2369.)
23. 28 U.S.C. § 1746, provides in relevant part:
28 U.S. Code § 1746. Unsworn declarations under
penalty of perjury Wherever, under any law of
the United States or under any rule, regulation,
order, or requirement made pursuant to law, any
matter is required or permitted to be supported,
evidenced, established, or proved by the sworn
declaration, verification, certificate, statement,
oath, or affidavit, in writing of the person making
the same (other than a deposition, or an oath of
office, or an oath required to be taken before a
specified official other than a notary public), such
matter may, with like force and effect, be
supported, evidenced, established, or proved by
the unsworn declaration, certificate, verification,
90a

or statement, in writing of such person which is
subscribed by him, as true under penalty of
perjury, and dated, in substantially the following
form:
(1) If executed without the United States:
“I declare (or certify, verify, or state) under
penalty of perjury under the laws of the United
States of America that the foregoing is true and
correct. Executed on (date). (Signature)”. (2) If
executed within the United States, its territories,
possessions, or commonwealths: “I declare (or
certify, verify, or state) under penalty of perjury
that the foregoing is true and correct. Executed
on (date). (Signature)”. (Added Pub. L. 94-550,
§ 1(a), Oct. 18, 1976, 90 Stat. 2534.)
APPENDIX D
Courts of Appeals; Certiorari; Certified
Question 28 U.S. Code § 1254
Cases in the courts of appeals may be
reviewed by the Supreme Court by the following
methods: (1) By writ of certiorari granted upon
the petition of any party to any civil or criminal
case, before or after rendition of judgment or
decree; (2) By certification at any time by
a court of appeals of any question of law in any
civil or criminal case as to which instructions are
desired, and upon such certification the
Supreme Court may give binding instructions or
require the entire record to be sent up for decision
of the entire matter in controversy.
(June 25, 1948, ch. 646, 62 Stat. 928; Pub.
L. 100-352, § 2(a), (b), June 27, 1988, 102 Stat.
662.)
91a

APPENDIX D
Direct Appeals from Decisions of ThreeJudge Courts 28 U.S. Code § 1253
Except as otherwise provided by law, any party
may appeal to the Supreme Court from an order
granting or denying, after notice and hearing, an
interlocutory or permanent injunction in any civil
action, suit or proceeding required by any Act of
Congress to be heard and determined by a district
court of three judges.(June 25,1948, ch. 646, 62
Stat. 928.)
APPENDIX E
AMENDED NOTICE OF APPEAL
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18
Page 1 of 27
Case: 18-13553 Date Filed: 08/23/2018
Page: 1 of 27
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION FILED IN CLERK'S
OFFICE
William James, Sui Juris
Terri V. Tucker aka
(Donald-Strickland), Sui Juris
Plaintiffs / Counter-Defendants,
v.
Barbara Hunt et. al. and Judge
Thomas W. Thrash Jr.
Defendants/ Counter-Plaintiffs,
FILED IN CLERK’S OFFICE
U.S.D.C. - Atlanta
AUG 20 2018
JAMES N. HATTEN, CLERK
92a

BY: RENJEX DEPUTY CLERK
Case# 1:17-CV-1181-TWT
APPELLANTS WILLIAM JAMES, TERRI
TUCKER, JOINT AND CONSOLIDATED
AMENDED NOTICE, AMENDED APPEAL
AND AMENDED NOTICE OF APPEAL AND
NOTICE OF APPEAL NO: 17-14866
REQUESTING PERMISSION FOR ALL
PARTIES TO FILE SUPPLEMENTAL
BRIEFS ON DISTRICT DOCS 145-169
PLAINTIFFS/COUNTER
DEFENDANTS/APPEALLANTS WILLIAM
JAMES AND TERRI TUCKER, JOINT AND
CONSOLIDATED AMENDED NOTICE,
AMENDED APPEAL AND AMENDED
NOTICE OF APPEAL AND OR JOINT AND
CONSOLIDATED NOTICE OF APPEAL
FOR 11TH CIRCUIT CASE APPEAL NO: 1714866 WHICHEVER IS ACCEPTED FROM
THE ENTIRE DISTRICT CASE NO: 17-CV1181-TWT DOCUMENTS I THROUGH 169
ALL ORDERS ON THE CLOSED RECORD
AND TO SUPPLEMENT THE RECORD
AND STAY OF APPEAL 17-14866 UNTIL
DECISION ON PERMISSION OF MOTION
FOR RECONSIDERATION IS DECIDED
AND
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 2 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
2 of 27
RESOLVED ON COUNTER PLAINTIFFS
DEFENDANTS/ APPELLEES BARBARA
HUNT,
HARPO,
LIONS
GATE
93a

ENTERAINMENT, OPRAH WINFREY,
OPRAH WINFREY NETWORK (OWN),
TYLER PERRY AKA EMMETT PERRY, JR
(BUDDY) AND ALL OTHER NAMES AND
ALIASES, TYLER PERRY COW ANY,
TYLER PERRY STUDIOS, LLC AND
JUDGE THOMAS W. THRASH JR
Appellants William James and Terri
Tucker Prose Litigants and "Private Attorney
Generals" file this Joint and Consolidated
Amended Notice, Amended Appeal, Amended
Notice of Appeal and or a Joint Consolidated
Notice of Appeal incorporating all (Doc. 1-169)
whichever is accepted for the Eleventh (11th Cir.)
Court of Appeal No: 17-14866 from the entire
District Case No: 17-CV-1181- TWT with
documents in the district court (Doc. 1 through
69) and to Supplement the Appellate court record
with remaining District Court Records (Doc. 145
through 169, as well as Doc. 1 through 144) to
save judicial time and costs and to avoid a
piecemeal appeal and are currently open in 11th
Cir. Court of Appeals under case no. 17-14866.
Requesting that all Documents of the
district court (Doc. through 169) of the record for
case #17-CV-1181-TWT on all final orders and
Judgments (Doc. 138, 154, 168 and 169) be
incorporated under the one case number for a
total decision on the entire record against all
Appellees / Counter Plaintiffs / Defendants
Barbara Hunt, Harpo, Lionsgate Entertainment,
Oprah
Winfrey, Oprah Winfrey Network (OWN), Tyler
Perry aka Emmett Perry Jr. and all known
94a

Aliases, Tyler Perry Company, Tyler Perry
Studios and Judge Thomas
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 3 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
3 of 27
W. Thrash, Jr. and also to include the
Appellants Counter Defendants Plaintiffs
William James and Terri Tucker's request for
permission that all parties file supplemental
briefs on District case (Doc. 145 through 169) a
decision rendered by Judge Thomas W. Thrash
on counterclaim and summary judgment (Doc.
157) filed after (Doc. 144) or provide oral
argument as "private attorney general" may
appear in any court without an attorney or a bar
license required by practicing attorneys to appear
per 18 U.S.C. 1962 appearing for the appeal
which was filed with third final Judgment and
orders,
the Plaintiffs William James and Terri
Tucker appealing the Granting and award to
Defendants Barbara Hunt et. al. attorney's fees
as well entered by the clerk of the court (Doc. 169)
pursuant to Rule 59 and denial of enforcement of
awarded Judgment (Doc. 162 for orders Doc. 154
on Appellants Doc. 143) also to be considered are
Rules: (1) Rule 10(e)(2)(C) of the Federal Rules of
Appellate Procedure, (2) Rule 201 of the Federal
Rules of Evidence, and (3) the inherent equitable
authority of the federal courts of appeals. (4) the
evidence in the Appellate record included a (Doc.
154) which are Judge Thrash's Orders 154 used
95a

V

to rule for Plaintiffs William James (Doc. 143)
prior to the Appellate Courts assuming the case
on the Appeal and in order for the Appellate
Court to intervene on the additional issues
supplementing the record on the current appeal
is necessary and warranted, it will save judicial
time and cost. Pursuant to Appellate Rules of
Procedure (Rule 3, 4, 24, 27 and 48) and 28 U.S.C.
1927 and
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 4 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
4 of 27
the "Inherent Equitable Authority of the
Appeals Court" will allow the Appellate court the
opportunity to address the entire record in the
district court in its totality for Federal Rule of
Civil Procedure (Rule 60) for Fraud Upon the
Court, Judicial Error and Abuse of Discretion of
the entire record. This case sets precedence for
the U.S. Supreme Court, there are U.S.
Constitutional Violations, Unfair Processes
and Disadvantages to Pro Se Litigants as Laws
were ignored, Bias and Prejudices and
furthermore, RICO Laws are being ignored 18
U.S.C. 1961-1964, the people of the United States
are being railroaded, deceived and overshadowed
by major corporations who disenfranchise owners
of intellectual properties, the merits of the case
are Civil RICO, Sherman Anti-Trust, Clayton Act
and Hobbs Act and other federal laws against all
Appellees Barbara Hunt, HARPO, Oprah
Winfrey, Oprah Winfrey Network (OWN), Tyler
96a

Perry aka Emmett Perry Jr. and All Aliases,
Tyler Perry Company, Tyler Perry Studios, Chief
Judge Thomas W. Thrash, Jr.,
hereinafter
(Defendants/CounterPlaintiffs Appellees) according to Eleventh
Circuit Court of Federal Rule of Appellate
Procedure ("Fed. R. App. P.") 27-4 are
meritoriously being decided by a panel of Judges
in the Appellate Court in which they have elected
Probable Jurisdiction. Issues on Appeal,
Supplemented Documents and Amended
Documents for Appeal and Enumerated Errors of
Law and Fact, Fraud Upon the Court Pursuant
to Rule 60 (b)(3)(4)(6), (d)(3). Extreme Prejudice
and Bias 28 U.S.C. 455 etc.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 5 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
5 of 27
1. On October 26,2017 Appellants William
James and Terri Tucker filed an Appeal on the
Case on the Merits of Civil Rico and other Anti­
trust laws, see Complaint Doc. 1, seeking Justice
as a matter of law (Doc. 144.)
2. On October 30, 2017 Appellants filed
(Doc. 14S) Notice of Appeal Transmission Letter
was filed and served to Appellees and (Doc. 146)
Transmission of a Certified Copy of Notice of
Appeal, Order ad Docket Sheet to US Court of
Appeals to the 11th Circuit Court of Appeals, and
on October 31, 2017 the District Court filed
corrected docket sheet to USCA.

97a

3. On October 31, 2017 (Doc. 147) was filed for
Appeal Fees received $SOS .00 Receipt number
GAN1 00097204 and Notice of Appeal filed by
Terri Tucker and William James.
4. On October 31, 2017 (Doc. 148)
Transcript Order For re: Notice of Appeal. S. On
October
31,
2017
(Doc.
149)
USCA
Acknowledgment of (Doc. 144) Notice of Appeal
for Case 17-14866-FF. 6. On November 03, 2017,
(Doc. ISO), Response in Opposition re (Doc. 141)
Motion for Writ of Mandamus.7. On November
08, 2017 (Doc. 151), Response in Opposition re to
(Doc. 142), Motion for Reconsideration. 8. On
November 14,2017, (Doc. IS2), Reply Brief re
(Doc. 142) Motion for Reconsideration.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 6 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page: 6
of 27
9. On November 16,2017 (Doc. 154), Order
denying (Doc. 141, and 142), and Granting (Doc.
143). 10. On November 21,2017, (Doc. 155),
NOTICE of Change of Address for William James
11. On November 27,2017, (Doc. 156),
OBJECTION AND REBUTTAL TO CHIEF
JUDGE THOMAS W. THRASH'S (Doc. 154)
Order filed by William James, Terri V. Tucker.
12. On February 05, 2018 (Doc. 157)
Defendants/Counter Plaintiffs/ Appellees
First MOTION for Summary Judgment with
Brief in Support by Harpo, Lionsgate
Entertainment, Oprah Winfrey Network, Tyler
Perry, Tyler Perry Company, Tyler Perry
98a

Studios, Oprah Winfrey. 13. On February 06,
2018, (Doc.) (Entered: 02/06/2018). 14. On
February 26, 2018, (Doc. 159),
RESPONSE in Opposition re (Doc.157)
First MOTION for Summary Judgment filed by
William James, Terri V. Tucker. (Entered:
02/26/2018). 15. On February 26,2018, (Doc. 160),
Response to Statement of Material Facts re 157
First MOTION for Summary Judgment filed by
William James, Terri V. Tucker. (Entered:
02/2612018). 16. March 12,2018 (Doc. 161),
REPLY BRIEF re 157 First MOTION for
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 7 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
7 of 27
Summary Judgment filed by Harpo,
Lionsgate Entertainment, Oprah Winfrey
Network, Tyler Perry, Tyler Perry Company,
Tyler Perry Studios, Oprah Winfrey. 17. March
19,2018, (Doc. 162), MOTION for Judgment by
William James, Terri V. Tucker. 18. March 26,
2018 (Doc. 163), ORDER of USC A - 11th Circuit
DENYING Petitioner's Petition for Writ of
Mandamus from the United States District Court
for the Northern District of Georgia because the
Petition is frivolous. USC A Case Number 1810164-C. (kick). 19. April 03, 2018, (Doc. 164),
RESPONSE in Opposition re 162
MOTION for Judgment filed by Harpo, Barbara
Hunt, Lionsgate Entertainment, Oprah Winfrey
Network, Tyler Perry, Tyler Perry Company,
Tyler Perry Studios, Oprah Winfrey. 20. April 17,
99a

2018, (Doc. 165), REPLY BRIEF re (162)
MOTION for Judgment filed by William James,
Terri V. Tucker. 21. April 25, 2018, (Doc. 166),
Certified copy of ORDER of USC A
GRANTING Appellees' Motion Seeking Leave to
File a Supplemental Appendix re: 144 Notice of
Appeal filed by Terri V. Tucker, William James.
22. May 03, 2018, (Doc. 167)
Certified copy of ORDER of USC A
DENYING Appellants' "Request for Full
Disclosure", DENYING Appellants' "Motion for
Sanctions on Appellees", DENYING Appellants'
"Motion to Compel Appellees Barbara Hunt et al.
[to] Respond to the Appellant Motion for Full
Disclosure" re:
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 8 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page: 8
of 27
144 Notice of Appeal filed by Terri V.
Tucker, William James. In light of this Court's
March 29, 2018 letter, stating that it appears
that this Court has jurisdiction to consider the
appeal, and leaving a final determination
regarding jurisdiction to the panel to whom this
appeal is submitted on the merits, Appellees'
"Request that Further Filings be Stayed
Until the Court Decides the Jurisdiction
Questions" is DENIED. Case Appealed to USCA
- 11th Circuit. USCA Case Number 17-14866FF.
(kac) (Entered: 05/03/2018) 23. August 10, 2018,
(Doc. 168), ORDER granting Defendants'
(Doc.157) Motion for Summary Judgment and
100a

denying Plaintiffs (Doc.162) Motion for
Judgment. Signed by Judge Thomas W. Thrash,
Jr. on 8/10/18. (jkl) (Entered: 08/10/2018).
24. August 10, 2018, (Doc. 169), CLERK'S
JUDGMENT in favor of Defendants against
Plaintiffs for costs of action. (jkl)-Please refer to
http://www.call.uscourts.gov to obtain an
appeals jurisdiction
checklist-(Entered:
08/10/2018) 25. August 10, 2018, Civil Case
Terminated. Review for Abuse of Discretion.
26. April 03, 2017 through August 10,
2018, Appellants /Counter Claimants /Appellants
seek leave to combine all (Doc. 1-169) on amended
appeal or notice of appeal whichever is allowed
and Supplementing the Amended Notice of
Appeal to incorporate all (Doc. 144-169) pursuant
to Appellate and 11th Circuit Court of Appeals
Rule 3 and Rule 4 to avoid a piecemeal appeal.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 9 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page: 9
of 27
Plaintiffs/Counter D efendants/Appellees
request the Appeals Court to review for Abuse of
Discretion and “Review under the clearly
erroneous standard is significantly deferential.”
Concrete Pipe and Prods, v. Construction
Laborers Pension Trust, 508 U.S. 602, 623 (1993).
Review for Abuse of Discretion and Clear Error of
Law 28. The Judge’s Orders (Doc. 138, 154 and
168) conflict with one another, in (Doc. 138) the
Orders state Judgement for Defendants whereas
the document is a Rule 12(c) filed by Counter
101a

Plaintiffs, yet Judge states in 11th Cir. Court
case 17-14866, saying it is Judgement for
Counter Plaintiffs/Defendants,
it was also on the wrong merits and not
based on (Doc. 1) which should have been treated
as the First Summary Judgment per
Rule 56
to allow the Plaintiffs/ Counter Defendants the
Opportunity to present the merits and material
facts as well as the Defendants/Counter Plaintiffs
failed to properly answer the Plaintiffs /Counter
Defendants (Doc. 61) Motion for Judgment on the
Pleadings and Motion for Summary Judgment
(Rule 56) failing to respond according to NDGA
Local Rule 56.1, and failing to answer all charges
of the document. (Doc.154), the Judge then
grants the Plaintiffs/Counter Defendants (Doc.
143) final request for Judgment. When
Plaintiffs/Counter Defendants request to enforce
Judgement with (Doc. 162) the Judge Denies it
with final Judgement (Doc. 168 and Clerks
Judgment 169). 29. In the Judges final Judgment
Doc. 168, he resorts once again to extremely
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 10 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
10 of 27
prejudice and bias name calling of the
Plaintiffs/Counter Defendants. 30. Abuse of
Discretion to allow the Defendants/Counter
Plaintiffs the allowance to add (Doc. 157) on the
record 4 months after what he states is the close
of the record on the Jurisdiction Answer that the
Judge provided on February 06, 2018 for 11th
102a

Cir. Case#17-14866, the Judge also admits that
when he ruled on (Doc. 74) on Orders (Doc. 138)
he stated Admittedly there was no Counterclaim
on the record and it could have been brought as a
motion for sanctions, the Judge neither the
Defendants filed a sanction or a Motion for
Counterclaim yet he abuses his discretion by
adding and acting as counsel for the Counter
Plaintiffs/Defendants by adding that as a
charge to the Order (Doc. 138), which proves he
cannot rule fairly within the confines of the law,
and is taking personal attacks on the
Plaintiffs/Counter Defendants, the title and
termination of the case on the record is clearly
Fraud Upon the Court Pursuant to Federal Rules
of Civil Procedure (Rule 60) and abuse of
discretion on a 54(b) whereas extreme prejudice
and bias pursuant to 28 U.S.C. 455 Judge is
Defendant on the current case.
31. The Counter Plaintiffs/Defendants
were in default when they filed (Doc. 74) and
were in Default when they filed (Doc. 157)
Summary Judgment due to (Doc. 85) pursuant to
(Rule 14 and Rule 55) in which they never
attempted to cure, the never objected/opposed to
Plaintiffs/Counter Defendants (Doc. 143). Review
for Extreme Bias and Prejudice 28 U.S.C. 455,
Fraud Upon the Court Rule
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 11 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
11 of 27
60(b)(3)(4)(6) and (d)(3).
103a

32. On June 29, 2017, Judge Thomas W.
Thrash Jr. filed Orders (Doc. 76) granting the
Appellees to set aside the Default motion. A
motion to set aside a default is only good for 6
months to execute a motion for excusable neglect
to the court, yet throughout the record there was
none filed. Further abuse of discretion, Extreme
prejudice and bias against the Appellants
pursuant to 28 U.S.C. 455, Review for Abuse of
Discretion and Reversal upon appeal and Fraud
Upon the Court Rule 60(d)(3).
33. On June 29, the Appellees had the
right to file defensive responses to the Appellants
Motions for Rule 12(f), Summary Judgement,
and answers to Original Complaint (Doc. 1 and
Doc. 85) Amended complaint and have not to date
and six (6) months have lapsed for a responsive
motion and none was filed. Review for Abuse of
Discretion, Extreme Prejudice 28 U.S.C. 455,
Default Rule 55, and reversal on appeal. 34. On
October 19, 2017 when the Orders (Doc. 138)
terminated the case there was not any
counterclaim or motion for sanctions on the
record October 19, 2017 in which affords the
Appellants the allowance to file a defensive,
corrective or responsive motion for a
counterclaim or answer to complaint (doc.l or
Doc. 85). Fraud Upon the Court Rule 60
(d)(3)(4)(6), (d)(3) and Review for Abuse of
Discretion.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 12 of 27

104a

Case: 18-13553 Date Filed: 08/23/2018 Page:
12 of 27
35. On February 06, 2018 the Chief Judge
Thomas W. Thrash responds and admits to the
Appeals Court Jurisdictional Question entering a
Judgment for Counterclaim that was never
asserted in a proper separate Motion of its own
for the Appellees. The Chief Judge a defendant
acted as counsel for the Defendants entering the
counterclaim on the record which circumvents
the system of jurisprudence and law violating the
Appellants constitutional rights of Due Process of
the 5th, 7th 14th Amendments and further abuse
of discretion. Sanctions is warranted according to
the 11th Cir. Rule 27-4(b) it contains assertions
of material facts that are false or unsupported by
the record. Review for Fraud Upon the Court
Pursuant to Rule 60(b)(3)(4)(6), (d)(3).
a. The Judge also stated there was nothing
left in the lower court to rule on and the
proceedings was appealable pursuant to the
ruling of (Doc. 138) (Rule 54(b)) which states
there must be a claim, counterclaim or crossclaim
on the record in order to (Rule on 54 (b)) in the
manner that the Judge did on October 19, 2017.
it was the intention of the court to remove
jurisdiction from the 11th Cir. Court of Appeals
and to tie the case up indefinitely, review for
Abuse of Discretion and Fraud Upon the Court
Pursuant to Rule 60(b)(3)(4)(6), (d)(3). b. On
February 5, 2018, three (3) months after the final
Judgement on October 19, 2017 the Appellees
attempted to insert a Motion for Counterclaim

105a

Summary Judgment long after the case was
closed. The frivolous filing (Doc. 157) which is
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 13 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
13 of 27
sanctionable and violates the discovery
laws for entering new material evidence after the
close of the record and denies the Appellants due
process to conduct discovery on the affidavits
submitted by the Appellees. The violations give
the Appellate court jurisdiction. 11th Cir. Court
Appeals 27-4 (c) it is presented for an improper
purpose, such as to harass or to cause
unnecessary delay or needless increase in the
cost of litigation. Summary judgment is
appropriate if there is no genuine issue of
material fact and the moving party is entitled to
judgment as a matter of law. Whatley v. CNA Ins.
Co., 189 F.3d 1310, 1313 (11th Cir. 1999).
The court must view all evidence and all
factual inferences reasonably drawn from the
evidence in the light most favorable to the
nonmoving party. St. Charles Foods, Inc. v.
America’s Favorite Chicken Co., 198 F.3d 815,
819 (11th Cir. 1999). When the 11th Cir. Court of
Appeals asked a Jurisdictional Question the
District Judge Thrash stated there was nothing
on the record and he admittedly rule on a
counterclaim that did not exist. Review for Abuse
of Discretion.
36. On February 26, 2018 the Appellants
Responded to the motion (Doc. 157) in the district
106a

court to state it was out of time, the case was
closed and in violation of the Judges Orders (Doc.
138) which states the case was appealable and
closed this frivolous filing by the Appellees was to
erroneously prolong litigation in the lower court.
Revie w for Abuse of Discretion. 37. On November
20, 2018 (Doc. 154) the Judge abused his
discretion and violated
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 14 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
14 of 27
the Appellants constitutional rights by
restricting the Appellants and only the
Appellants by stating The Clerk is directed to file
any papers received from the Plaintiffs but
should not docket any papers as motions
requiring action by the Court until so ordered by
the Court. Signed by Judge Thomas W. Thrash,
Jr. on 11/20/17. (jkl) (Entered: 11/21/2017). Yet
this restriction was not extended to all litigants
and thereby prejudiced the Appellants.
Erroneous admission/exclusion of evidence.
Reviewed under abuse of discretion
standard. Piamba Cortes v. American Airlines,
Inc., 177 F.3d 1272,1305-06 (11th Cir. 1999). The
complaining party must establish that the error
resulted in a “substantial prejudicial effect.” Id.
This establishes substantial prejudice to allow
the Appellees to file freely without restriction and
to restrict the Appellants violates the Appellants
1st, 7, 8, 14 Amendment of the U.S. Constitution.
Cruel and unusual punishment to violate the
107a

rights of the Plaintiffs / Counter Defendants by
ignoring the merits of the case which is RICO and
all incorporated laws and charges of (Doc. 1). 37.
Review for Abuse of Discretion.
38. On February 5, 2018 The Appellees
inserted over 25 affidavits for the assertion of the
erroneous counterclaim that violates Federal
Rule of Civil Procedure - Rule 13, Rule 56(f)
motion for continuance to obtain affidavits or
discovery. Review for abuse of discretion.
Carmical v. Bell Helicopter Textron, Inc., 117
F.3d 490,493 (11th Cir. 1997); Burks v. American
Cast Iron Pipe Co., 212 F.3d 1333,
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 15 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
15 of 27
1336 (11th Cir. 2000). The submission of the
Counterclaim (Doc. 157) after the Judgment has
been instituted on the case. This violated the
Appellants right to engage in discovery and the
Appellants Motion (Doc. 92) to compel discovery
filed on July 27, 2017. Reviewed for abuse of
discretion. R.M.R. by P.A.L. v. Muscogee County
Sch. Dist., 165 F.3d 812, 816 (11th Cir. 1998).
39. The failure of the Appellees to respond
to the "Request for Full Disclosure" filed by
Appellants William James and Terri V. Tucker.
[8386183-1] is an admission and lends credence
to the fact that the Judge should have recused
himself in the case#17-CV-1181-TWT. The
Appellees responded to the question for clarity
providing the evasive statement that that the
108a

Attorney Tom J. Ferber does not represent the
Judge on the current action but has not
responded as to all of the questions on the
Appellants FULL DISCLOSURE REQUEST.
This is also sanctionable as the time has
elapsed to respond. The Appellees intentionally
filed multiple motions on the 11th Cir. Court of
Appeals cases 17-1466-FF and 17-12394-EE
without leave or permission of the appellate court
knowing pro se litigants would following court
procedure and all motions would be reviewed as
moot or frivolous. Sanctionable towards
Defendants Counsel who are seasoned attorneys
knowing violate court room procedure.
40. On February 26, 2018 the Plaintiffs / Counter
Defendant / Appellants filed a response to the
Defendants / Counter Plaintiffs / Appellees (Doc.
160) Plaintiffs
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 16 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
16 of 27
Objection and Opposition to Defendants
First Summary Judgment for Counterclaim and
Response to Petitioners ALL Writs Act Claim and
Objection
and
Opposition
to
the
Defendants/Petitioners Statement of Theories of
Recovery and Material Facts as to Which
There is No Genuine Issue. Defendants
claimed Plaintiffs failed to answer which is
untrue, extreme bias and prejudice in this case is
allowing the Defendants to file this Document 4
months after the termination of the case and not
109a

requiring the Defendants to properly answer
Plaintiffs Summary Judgement (Doc. 61) filed
previously on June 06, 2017 in which the
Defendants defaulted. Review for fraud upon the
court, by an officer of the court Rule 55, 60(d)(3)
and 28 U.S.C. 455 the Judge cannot remain
neutral and fair.
41.
The award for Injunction Orders (Doc.
168) against the Appellants/Counter Defendants
/ Plaintiff stating the Plaintiffs must request
permission to file any motion outside of appeal
would render Notice of Appeal moot and violate
their rights on this final order since in order for
the Appellate Court to take a hard look at an
appeal would need first to see that the Appellants
addressed the issues prior to the appeal in a
motion to reconsideration since the 11th Cir
Court of Appeals only has Jurisdiction from 1
through 144 on the District Court Record. The
Piecemeal appeal was meant to indefinitely tie
the case up since (Doc. 145-169) would be a
piecemeal appeal where a decision would be
needed on other documents in the
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 17 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
17 of 27
record and even if Plaintiffs proved case on
appeal the final orders would have conflicted the
case on decision resulting in a stalemate.
Therefore, a joint and consolidated or notice
amending or notice incorporating all documents
110a

from (Doc. 1-169) is needed to cure defective
appeal issue and 42. Appellants / Counter
Defendants / Plaintiffs request stay of Current
Appeal until the District Judge Rule on
Permission to file Motion for Reconsideration to
give the District Judge the Opportunity to
answer the motion with a grant or denial and
filing of Motion for Consideration with an answer
should permission be granted. Relief Sought and
Additional Errors of Law 1.
In light of the Judges admission to ruling
(Doc. 138) on a Counter claim motion never filed
by Defendants/Counter Plaintiffs/ Appellees all
district court orders should be rescinded or
vitiated and a clear showing of abuse of discretion
and clear erroneous ruling established in the
11th Cir.
Court of Appeals Case # 17-14866
Jurisdictional Question and Answers by all
parties giving probable jurisdiction and
erroneous All Writs filed by Defendants/Counter
Plaintiffs/ Appellees relief requested is that the
11th Cir review the entire merit of the case on all
issues to include Defendants multiple defaults of
Answers, Summary Judgment, Amended
Answers in which even the Defendant Judge
Thomas W. Thrash Jr. responded to and tried to
remove liability from the Defendants when they
defaulted and failed and should have been
sanction and to reverse all orders and decisions
in the lower
Case l:17-cv-01181-TWT Document
170 Filed 08/20/18 Page 18 of 27

111a

Case: 18-13553 Date Filed: 08/23/2018 Page:
18 of 27
court clearly warranting damages award.
Reviewed under clearly erroneous standard.
Bunge Corp. v. Freeport Marine Repair, Inc., 240
F.3d 919, 923 (11th Cir. 2001). 2. In light of
Appellees Barbara Hunt et. al and admitted
Judge Thrash the clearly erroneous filing of a non
-existent counterclaim after the Judgment on
October 19, 2017 for (Doc. 140) which was a
Judgment entered into the record, then removed
the same day to erroneously cause confusion of
litigation in the Appellate Court. We request this
to be reviewed for clearly intentional Abuse of
Discretion as a matter of law.
3. The coordinated efforts of the court, the
Judge and the Appellees show the manner in
which they worked in concert to deceive the
system and remove jurisdiction falsely the
appellate court which is in “bad faith” and
“sanctionable.”
4. Rule 60(b) motion filed in the lower
court (Doc. 142), on appeal case #17-14866 and
the Jurisdictional Answers filed by all Appellees
that there was substantial Fraud Upon the
Court, to include an entry of the Lawyer Tom J.
Ferber as representative between January 24,
2018 and February 7, 2018 and a partial
disclosure that warranted a full disclosure is
sanctionable and will be compelled. The
Appellees asking the Appellate Court not to
Charge the Appellees with RICO as it should be
according to the merits asserted by the
Appellants in their original complaint (Doc.l)
112a

and the circumvention of the law and orders of
the Judge (Doc.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 19 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
19 of 27
138), shows the Appellees blatant
disregard for the law and has made a circus of the
court in the assertion of the claim of copyright
infringement never asserted by the Appellants.
The Appellees never fully responded to the
Jurisdictional question. This is sanctionable to
file such motions pursuant to Rule 11, frivolous
motions. The Appellees to Include the Judge filed
a frivolous response to the Jurisdictional
Question answering in part admitting in part,
and not answering the analysis of the Res
Judicata argument and the request to show this
in the response is sanctionable.
The Appellees Counsel stated for the
Jurisdictional Question they have no controlling
law for what they have filed, this renders all
motions filed by appellees as frvilous. Reviewed
for abuse of discretion. American Bankers Ins.
Co. v. Northwestern Nat’l Ins. Co., 198 F.3d 1332,
1338 (11th Cir. 1999); Toole v. Baxter Healthcare
Corp., 235 F.3d 1307, 1316 (11th Cir. 2000).
However, motion under Rule 60(b)(4), on
grounds that judgment is void, reviewed de novo.
Burke v. Smith, 252 F.3d 1260,1263 (11th Cir.
2001). Award/ denial of costs under Rule 54(d).
Reviewed for abuse of discretion. EEOC v. W,
Inc., 213 F.3d 600, 619 (11th Cir. 2000).4.
113a

Appellants / Counter Defendants / Plaintiffs
request stay of Current Appeal until the District
Judge Rule on Permission to file Motion for
Reconsideration to give the District Judge the
Opportunity to answer the motion with a grant
or denial and filing of Motion for Consideration
with an answer should permission be granted.
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 20 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
20 of 27
5. Appellants / Counter Defendants /
Plaintiffs request permission to cure piecemeal
appeal by Joining, Consolidating, Amending
Notice of Appeal and Appeal or consolidating and
joining and Supplementing the appeal 17-14866
with current (Doc. 145-169 to incorporate Doc. 1169).
6. Appellants / Counter Defendants /
Plaintiffs requesting the 11th Cir. Court of
Appeals make one collective meritorious decision
on all documents and supplement the record
(Doc. 145-169 with Doc. 1-169) to avoid a partial
or piecemeal appeal.
CONCLUSION
Plaintiffs/
Counter
Defendants
/
Appellants William James and Terri Tucker
“Prose Litigants” and “Private Attorney
Generals” ask that this Joint and Consolidated
Amended Notice, Amended Appeal and Amended
Notice of Appeal and Notice of Appeal for the
Eleventh (11th Cir.) Court of Appeal No: 17114a

14866 from the entire District Case No: 17-CV1181-TWT with documents in the district court
(Doc.l through 69) and to Supplement the
Appellate court record with remaining District
Court Records Doc. 145 through 169, as Doc. 1
through 144 are currently with the case no. 1714866.
Requesting all Documents of the district
court (Doc. lthrough 169) of the record for case
#17-CV-1181-TWT on all final orders and
Judgments (Doc. 138, 154, 168 and 169) for a
total decision on 11th Cir. Court of Appeals Case
17-14866 and issue a motion to stay until
permission be decided on
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 21 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
21 of 27
motion for reconsideration on the entire
record and requesting permission that all parties
file supplemental briefs or have Oral Argument
on District Court Case 17-CV-1181-TWT (Doc.
145 through 168) a decision rendered by Judge
Thomas W. Thrash on a counterclaim and
summary judgment (Doc. 157) filed after (Doc.
144) appeal was filed with second final Judgment
and orders against Plaintiffs William James
and Terri Tucker appealing the Grant and award
to Defendants Barbara Hunt et. al. attorney’s
fees as well entered by the clerk of the court (Doc.
169) pursuant to Rule 59 and denial of
enforcement of awarded Judgment (Doc. 154 on
Doc. 143) based on (1) Rule 10(e)(2)(C) of the
115a

Federal Rules of Appellate Procedure, (2) Rule
201 of the Federal Rules of Evidence, and
(3) the inherent equitable authority of the
federal courts of appeals. (4) the evidence in the
Appellate record included a (Doc. 154) which are
Judge Thrash’s Orders 154 used to rule for
Plaintiffs William James (Doc. 143) prior to the
Appellate Courts assuming the case on the
Appeal and in order for the Appellate Court to
intervene on the additional issues supplementing
the record on the current appeal is necessary and
warranted, it will save judicial time and cost.
Pursuant to Appellate Rules of Procedure
(Rule 3, 4, 24, 27 and 48) and 28 U.S.C. 1927 and
the “Inherent Equitable Authority of the Appeals
Court” will allow the Appellate court the
opportunity to address the entire record in the
district court in its totality for Federal Rule of
Civil Procedure (Rule 60) for Fraud Upon the
Court, Judicial Error and Abuse of Discretion of
the entire record. This case sets
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 22 of 27
Case: 18-13553 Date Filed: 08/23/2018 Page:
22 of 27
precedence for the U.S. Supreme Court,
there are U.S. Constitutional Violations, Unfair
Processes and Disadvantages to Pro Se Litigants
as Laws were ignored, Bias and Prejudices and
furthermore, RICO Laws are being ignored 18
U.S.C. 1961-1964, against Appellees Barbara
Hunt et. al. be
“GRANTED” whereas the
laws in which sought after are in the interest of
116a

the General Public and sets U.S. Supreme Court
Precedence and the interest in establishing new
and controlling law, equal Judgment to all
citizens, and in the Areas of Civil Rico.
The Plaintiffs / Counter Defendants
/Appellants are requesting that the Appellate
maintain Jurisdiction due to the apparent clearly
erroneous and substantial abuse of discretion of
the Appellant Judge and the Appellees which are
high profile entertainment industry cartel,
operating under the laws in violation to Civil Rico
Pursuant to 28 U.S.C. 1961-1965(b). Upon the
foregoing statement of facts, and citations of
authorities, preserving the rights of all
document’s arguments of the current appeal 1714866-FF, the current record of 17-CV-1181TWT and all this Court should consider
sanctioning evidence, exhibits, amendments,
pleadings, motions, reply’s etc.
Submitted: August 20, 2018.

William
James
PRIVATE ATTORNEY
GENERAL
3058 Fresno Lane
Homewood, Illinois 60430
Email:
BJ255758@yahoo.com
Case l:17-cv-01181-TWT Document 170
Filed 08/20/18 Page 23 of 27

117a

Case: 18-13553 Date Filed: 08/23/2018
Page: 23 of 27
Phone: 773-990-9373
Terri V. Tucker (aka)
DonaldStrickland
PRIVATE
ATTORNEY GENERAL
1136 Joslin Path
Douglasville, GA
30134
Email: terrilowe43@gmail.com
Phone: 678-822-4593
IMPORTANT DOCUMENTS
APPENDIX F
Case l:17-cv-01181-TWT
Document 173
Filed 08/23/18 Page 1 of 1
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
2211 UNITED STATES COURTHOUSE 75
TED TURNER DRIVE, SW ATLANTA,
GEORGIA 30303-3361
404-215-1655
JAMES N. HATTEN
DOCKETING SECTION
DISTRICT COURT EXECUTIVE
AND CLERK OF COURT
August 23, 2018
Clerk of Court U.S. Court of Appeals,
Eleventh Circuit 56 Forsyth Street, N.W.
Atlanta, Georgia 30303
U.S.D.C. No.: l:17-cv-1181-TWT U.S.C.A. No.:
00-00000-00
118a

In re: William James, et al.
v.
Barbara Hunt, et al.
Enclosed are documents regarding an
appeal in this matter. Please acknowledge
receipt on the enclosed copy of this letter.
X
Certified copies of the Notice of Appeal, Docket
Sheet, Clerk’s Judgment and Orders appealed
enclosed.
X
This is not the first notice of appeal. Other
notices were filed on: 7/20/17 (USCA Case
Number 17-13294-EE).
X
There is no transcript.
The court reporter is.
There is sealed material as described below:
Other:
Fee paid on.
Appellant has been leaving to file in forma
pauperis.
This is a bankruptcy appeal. The Bankruptcy
Judge is The Magistrate Judge is.
X
The District Judge is Thomas W. Thrash, Jr.
This is a DEATH PENALTY appeal.
Sincerely,
James N. Hatten
District Court Executive and
Clerk of Court
By: /s/ Kimberly Carter
Deputy Clerk
119a

APPENDIX F
WRIT OF MANDAMUS APPEAL DOCKET
8/18/2019
18-10164 Docket
General Docket
United States Court of Appeals for the
Eleventh Circuit Court of Appeals Docket
#: 18-10164 Docketed: 01/12/2018 Termed:
03/26/2018
In re: William James, et al
Appeal From: Northern District of Georgia Fee
Status: Fee Paid
Case Type Information:
1) Original Proceeding
2) Petition for writ of mandamus
3)Originating Court Information:
District: 113E-1: l:17-cv-01181-TWT
Civil Proceeding: Thomas W. Thrash, Junior,
Chief U.S. District Judge
Prior Cases: 17-13294 Date Filed: 07/21/2017
Date Disposed: 09/27/2017
Disposition: Dismissed
Current Cases:
Lead
Member
Start
End
Related:
17-14866 18-10164
01/12/2018
17-14866 18-13553
08/23/2018
In re:
WILLIAM JAMES
Petitioner
William James
Direct: 773-990-9373
[NTC Pro Se]
120a

Firm: 773-990-9973
14920 S. ASHLAND
HARVEY, IL 60428
TERRI TUCKER
Petitioner
Terri Tucker
[NTC Pro Se]
Firm: 347-705-2043
1136 JOSLIN PATH
DOUGLASVILLE, GA 30134
UNITED STATES OF AMERICA
Mandamus Respondent
Lawrence R. Sommerfeld
[NTC US Attorney]
U.S. Attorney's Office
Firm: 404-581-6000
75 TED TURNER DR SW STE 600
ATLANTA, GA 30303
U.S. Attorney Service Northern District of Georgia
[NTC US Attorney]
U.S. Attorney's Office
Firm: 404-581-6000
75 TED TURNER DR SW STE 600
ATLANTA, GA 30303
https://ecf.call.uscourts.gov/ri/beam/servlet/Tra
nsportRoom 1/4
APPENDIX F
TRANSMITTED DOCKET 174
Note: DOCUMENT 140 APPEARS OVER
TOP OF DOCUMENT 170

121a

Case l:17-cv-01181-TWT
Document 174
Filed 08/23/18 Page 1 of 113
4months, APPEAL, CLOSED
U.S. District Court Northern District of Georgia
(Atlanta)
CIVIL
DOCKET
FOR
CASE
#:
1:17-cv-01181-TWT
James et al v. Hunt et al
Assigned to: Judge Thomas W. Thrash, Jr. Case
11th Circuit.,
in other court: USCA
USC
A
11th
Circuit.,
17-13294-EE
17-14866-FF
Cause: 18:1964 Racketeering (RICO) Act
Date Filed: 04/03/2017
Date Terminated: 08/10/2018
Jury Demand:
Plaintiff Nature of Suit: 470 Racketeer/Corrupt
Organization Jurisdiction: Federal Question
APPENDIX F
Note: DOUBLE STAMPED BELOW
Here would be document 170 stamped over 140
IN THE UNITED STATES DISTRICT
COURT FOR THE
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
WILLIAM JAMES
SUI JURIS, et al.,
Plaintiffs,
v.
CIVIL ACTION FILE
NO. L17-CV-1181-TWT
BARBARA HUNT, et al.,
122a

Defendants.
ORDER
This is a pro se civil RICO action. It is
before the Court on the Defendants’ Motion to
Stay [Doc. 87] and Motion for Protective Order, to
Stay Discovery, and to Modify the Discovery
Period [Doc. 89]. Since the commencement of this
action, the Plaintiffs have filed 69 purported
motions, counter-motions, replies, amendments,
and exhibits, consuming 1,319 pages of record,
each with little or no basis in fact or law or
relevance, or which are otherwise unintelligible.
The Defendants’ Motion to Stay [Doc. 87] and
Motion for Protective Order, to Stay Discovery,
and to Modify the Discovery Period [Doc. 89] are
GRANTED.
The Defendants are not required to
respond or object to discovery served by the
Plaintiffs until further order. Discovery is stayed
until 30 days after entry of orders on the
Defendants’ Motion for Judgment
on the Pleadings and Motion to Dismiss.
SO ORDERED, this 12 day of July, 2017.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge
APPENDIX F
Note: CERTIFIED COPY OF DOCKET
SHEET “COURT ONLY”
8 of 19

8/31/20181:48 PM

123a

•kick
10/19/2017(Court only)
Parties
terminated in their role as defendants: Oprah
Winfrey Network (OWN)), i Tyler Perry, Tyler
Perry Company, Tyler Perry Studios ((TPS)),
Oprah Winfrey, Harpo and i Lionsgate
Entertainment (kl) (Entered: 1011912017)
10/19/2017 (Court only) kick Need/Jgm
Flag set. Judgment needed for Doc 131 Order on
Motion to Dismiss, r 136 Order on Motion to
Dismiss, 138 Order on Motion for Judgment on
the Pleadings, (jkl) (Entered: 10/19/2017)

Note: DOCUMENT USED FOR FRAUD OF
DOCUMENT 170
10/19/2017 140 (Court only) ENTERED IN
ERROR CLERK’S JUDGMENT in favor of
Defendant against Plaintiffs for costs of action.
(kl)-Please refer to http://www.cal Luscourts.gov
to obtain an i appeals jurisdiction checklistadditional attachment added on 1011912017: #1
(typo corrected)
(jkl). Modified on 10/19/2017 (jkl) (entered:
(10/19/2017)
Note: JUDGE DENIES PETITIONERS
RIGHTS TO FILE MOTIONS IN CIVIL
RICO
7of 19

8/31/2018 1:48 PM
11/20/2017 154 ORDER DENYING 141
Motion for Writ of Mandamus; DENYING 142
Motion for Reconsideration; GRANTING 143
Motion for Appeal under 1292(b) to the extent
that the I Plaintiffs may appeal as of right and
124a

otherwise DENYING. The Clerk is directed to file
any papers received from the Plaintiffs but
should not docket any papers as motions
requiring i action by the Court until so ordered by
the Court. Signed by Judge Thomas W. Thrash,
Jr. on 11/20/17. (kl) (Entered 11/21/2017)
Note: DOCUMENT 170
FRAUD UPON COURT
5 of 19
8/31/2018 1:48 PM
08/20/2018 (Court only) •k'k'k Motions
terminated: 170 MOTION to Supplement
MOTION to Stay filed by Terri V. Tucker,
William James, (jdb) (Entered:08/222018)
Note: ORDERS FRAUD 154,
MOTIONS 171,172
5 of 19
8/31/2018 1:48 PM
08/27/2018 (Court only) ***Motions terminated,
see 154 Order: 171 MOTION for Leave to File,
172 - MOTION for Leave to File. (Jkl)
(Entered:0812712018)
APPENDIX F
3/6/2019 CM/ECF-GA Northern District
Court
https://ecf.gand.uscourts.gov/cgibin/DktRpt.pl?351974827453684-L_l_0-l
18/20
08/10/2018 169 CLERK'S JUDGMENT in
favor of Defendants against Plaintiffs for costs of
action.
(jkl)-Please
refer
to
http://www.call.uscourts.gov to obtain an
appeals jurisdiction
checklist-(Entered:
125a

08/10/2018) 08/10/2018 Clerk's Certificate of
Mailing to William James, Terri V. Tucker re 168
Order, 169 Clerk's Judgment, (jkl) (Entered:
08/10/2018)
08/10/2018
Civil
Case
Terminated.
(jkl)
(Entered:
08/10/2018)
08/20/2018 170 Joint and Consolidated Amended
Notice of Appeal from Documents 1-169, and to
Supplement the record and to Stay Appeal No.
17-14866 by William James, Terri V. Tucker,
(kac) Modified on 8/22/2018 (jdb). (Entered:
08/20/2018)
08/20/2018 171
Plaintiffs
Request
Permission to File an Objection and Opposition to
168 Order and 169 Clerk's Judgment by William
James, Terri V. Tucker, (jkl) Modified on
8/27/2018
(jkl)(Entered:
08/21/2018)
08/20/2018 172
Plaintiffs
Request
Permission to File Motion to Reconsideration of
168 Order and 169 Clerk's Judgment by William
James, Terri V. Tucker, (jkl) Modified on
(jkl).
08/21/2018)
8/27/2018
(Entered:
08/23/2018
173
USCA
Appeal
Transmission Letter to 11th Circuit re: 170 Joint
and Consolidated Amended Notice of Appeal
from Documents 1-169 filed by Terri V. Tucker,
William James, (kac) Modified on 8/23/2018
(kac). (Entered: 08/23/2018)
08/23/2018 174 Transmission of Certified
Copy of Joint and Consolidated Amended Notice
of Appeal, Clerk's Judgment, Orders and Docket
Sheet to US Court of Appeals re: 170 Joint and
Consolidated Amended Notice of Appeal, (kac)
Modified on 8/23/2018 (kac).
(Entered:
08/23/2018)
126a

08/23/2018 175 CORRECTED USCA
Appeal Transmission Letter to 11th Circuit re:
170 Joint and Amended Consolidated Notice of
Appeal filed by Terri V. Tucker, William James,
(kac) Modified on 8/23/2018 (kac). (Entered:
08/23/2018)
08/23/2018176 Forwarded CORRECTED
Appeal Transmission Letter and docket sheets to
USCA re: 170 Joint Amended Consolidated
Notice of Appeal filed by Terri V. Tucker, William
James. Case Appealed to USCA - 11th Circuit.
USCA Case Number 00-00000-00. (kac) Modified
on 8/23/2018 (kac). (Entered: 8/23/2018)
08/23/2018 Notification of Docket Correction re:
174 Transmission of Joint and Consolidated
Amended Notice of Appeal and Docket Sheet to
USCA, 175 CORRECTED USCA Appeal
Transmission, 170 Joint and Consolidated
Amended Notice of Appeal, 176 Documents
forwarded to USCA, 173 USCA Appeal
Transmission, (kac) (Entered: 08/23/2018)
08/23/2018 Forwarded docket sheets to
USCA re: 170 Joint and Consolidated Amended
Notice of Appeal filed by Terri V. Tucker, William
James, 174 Transmission of Joint and Amended
Consolidated Notice of Appeal and Docket Sheet
to USCA, 175 CORRECTED USCA Appeal
Transmission, 176 Documents forwarded to
USCA, 173 USCA Appeal Transmission. Case
Appealed to USCA - 11th Circuit. USCA Case
Number 00-00000-00. (kac) (Entered: 08/23/2018)
08/23/2018 177 RESPONSE in Opposition
to Plaintiffs' requests 171 & 172 filed by Harpo,
Barbara Hunt, Lionsgate Entertainment, Oprah
127a

Winfrey Network, Tyler Perry, Tyler Perry
Company, Tyler Perry Studios, Oprah Winfrey.
(Gordon, Richard) Modified on 8/27/2018 (jkl).
(Entered: 08/23/2018)
08/27/2018
Notification
of Docket
Correction regarding 171 Plaintiffs' Request
Permission to File an Objection and Opposition to
168 Order and 169 Clerk's Judgment, 172
Plaintiffs' Request Permission to File Motion to
Reconsideration of 168 Order and 169 Clerk's
Judgment and 177 Response in Opposition to
Entries 171/172 - modified to correct docket text,
(jkl) (Entered: 08/27/2018)
08/27/2018 178 USCA Acknowledgment of
170 Joint and Consolidated Notice of Appeal filed
by Terri V. Tucker, William James. Case
Appealed to USCA - 11th Circuit. USCA Case
Number 18-13553-F. (kac) (Entered: 08/27/2018)
08/31/2018 179 Plaintiffs Request Permission to
File Fee Waiver for the Requested Consolidated
APPEAL NO. 17-14866
APPENDIX F
Case l:17-cv-01181-TWT Document 154
Filed 11/20/17 Page 1 of 3
IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF GEORGIA ATLANTA DIVISION
WILLIAM JAMES SUI JURIS, et al„
Plaintiffs,
v.

128a

CIVIL ACTION FILE NO.
1:17-CV-1181-TWT
BARBARA HUNT, et al„
Defendants.
ORDER
This is a pro se civil RICO action. It is
before the Court on the Plaintiffs Motion for
Reconsideration [Doc. 142], Rule 59(e) of the
Federal Rules of Civil Procedure authorizes
district courts upon motion to alter or amend a
judgment. See Fed. R. Civ. Proc. 59(e). “The
decision to alter or amend judgment is committed
to the sound discretion of the district judge and
will not be overturned on appeal absent an abuse
of discretion.”
American Home Assurance Co. v. Glenn
Estess & Assocs., 763 F.2d 1237, 1238-39 (11th
Cir. 1985) (citing Commodity Futures Trading
Comm'n v. American Commodity Group Corp.,
753 F.2d 862, 866 (11th Cir. 1984)). The Federal
Rules of Civil Procedure do not specifically
for
reconsideration.
authorize
motions
Nevertheless, such motions are common in
practice.
Case l:17-cv-01181-TWT
Document 154
Filed 11/20/17 Page 2 of 3
Local Rule 7.2 provides that motions for
reconsideration are not to be filed “as a matter of
routine practice,” but only when “absolutely
necessary.” L.R. 7.2E. A party may move for
reconsideration only when one of the following
has occurred: “an intervening change in
129a

controlling law, the availability of new evidence,
[or] the need to correct clear error or prevent
manifest injustice.”
Godby v. Electrolux Corp., No. 1:93-CV0353-ODE, 1994 WL 470220, at *1 (N.D. Ga. May
25, 1994). Further, party “may not employ a
motion for reconsideration as a vehicle to present
new arguments or evidence that should have
been raised earlier, introduce novel legal
theories, or repackage familiar arguments to test
whether the Court will change its mind.”
Brogdon v. National Healthcare Corp., 103 F.
Supp. 2d 1322, 1338 (N.D. Ga. 2000);
see also Godby, 1994 WL 470220, at *1 (“A
motion for reconsideration should not be used to
reiterate arguments that have previously been
made ... ‘[It is an improper use of] the motion to
reconsider to ask the Court to rethink what the
Court [has] already thought through-rightly or
wrongly.’”) (quoting Above the Belt, Inc. v. Mel
Bohannan Roofing, Inc., 99 F.R.D. 99, 101 (E.D.
Va.1983)) (alterations in original); In re
Hollowell, 242 B.R. 541, 542-43 (Bankr. N.D. Ga.
1999) (“Motions for reconsideration should not be
used to relitigate issues already decided or as a
substitute for appeal... Such motions also should
not be used to raise arguments which were or
could have been raised before judgment was
issued.”). The Motion for
Case l:17-cv-01181-TWT
Document 154
Filed 11/20/17 Page 3 of 3
Reconsideration [Doc. 142] makes many false and
outrageous claims and is DENIED.
130a

The Petition for Writ of Mandamus [Doc.
141] is DENIED. This Court has no jurisdiction
to issue a mandamus to the Court of Appeals. The
Joint Application to Appeal [Doc. 143] is
GRANTED to the extent that the Plaintiffs may
appeal as of right and otherwise is DENIED. The
Plaintiffs having filed a Notice of Appeal, this
Court no longer has jurisdiction. The Clerk is
directed to file any papers received from the
Plaintiffs but should not docket any papers as
motions requiring action by the Court until so
ordered by the Court.
SO ORDERED,
this 20 day of November, 2017.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge
APPENDIX F
Case l:17-cv-01181-TWT Document 124
Filed 10/19/17 Page 1 of 1
IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF GEORGIA ATLANTA DIVISION
WILLIAM JAMES SUI JURIS, et al„
Plaintiffs,
v.
CIVIL ACTION FILE NO.
1:17-CV-1181-TWT

131a

BARBARA HUNT, et al.,
Defendants.
ORDER
This is a pro se civil RICO action. It is
before the Court on the Plaintiffs’ Motion to
Compel Defendants to Answer Discovery [Doc.
92] which is DENIED.
The Court has stayed discovery until a
ruling on the Defendants’ Motion for Judgment
on the Pleadings.
SO ORDERED,
this 18 day of October, 2017.
/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge
APPENDIX F
Case l:17-cv-01181-TWT Document 15
Filed 04/17/17 Page 1 of 3
IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF GEORGIA ATLANTA DIVISION
WILLIAM JAMES and
TERRI V. TUCKER,
Plaintiffs,
v.
CIVIL ACTION NO.
1:17-CV-1181-RWS
BARBARA HUNT, et al.,
Defendants.
ORDER
132a

This matter is before the Court on
Plaintiffs' Motion for Temporary Restraining
Order [Doc. No. 3] and Emergency Motion for
Permanent Injunction [Doc. No. 11].
To obtain a preliminary injunction, the
moving party must demonstrate: (1) a
substantial likelihood of success on the merits; (2)
a substantial threat of irreparable injury if the
injunction is not granted; (3) the threatened
injury to the movant outweighs the damage to
the opposing party; and (4) granting the
injunction would not be adverse to the public
interest. Four Seasons Hotels & Resorts v.
Consorcio Barr, 320 F.3d 1205, 1210 (11th Cir.
2003). "The preliminary injunction is an
extraordinary and drastic remedy not to be
granted
Case l:17-cv-01181-TWT
Document 15
Filed 04/17/17 Page 2 of 3
unless the movant 'clearly carries the burden of
persuasion' as to the four prerequisites." United
States v. Jefferson Cnty., 720 F.2d 1511, 1518
(11th Cir. 1983) (quoting Canal Auth. v.
Callaway, 489 F.2d 567, 573 (5th Cir. 1974)).
The Court finds that Plaintiffs have not
met their burden of showing an irreparable
injury. Plaintiffs' claims are civil RICO claims
with predicate acts related to copyright
infringement and counterfeit goods. The
damages which would be awarded if these claims
are successful would be monetary damages.
Plaintiffs have not shown the Court an injury
that could not be addressed with a monetary
133a

damages award or with a permanent injunction
at the end of this litigation. As such, their Motion
for Temporary Restraining Order [Doc. No. 3]
and Emergency Motion for Permanent Injunction
[Doc. No. 11] are DENIED.
Finally, the Court notes that Plaintiffs
have filed Returns of Service for some of the
defendants [Doc. Nos. 8, 9, and 13]. Plaintiffs
have not properly served Defendants Oprah
Winfrey Network or Lionsgate Entertainment,
even though the Returns of Service have been
returned as executed for those Defendants.
Plaintiffs should review Federal Rule of Civil
Procedure 4, which governs the allowed methods
for service in federal court. Plaintiffs are
reminded that they must properly serve
Defendants within ninety days pursuant to Rule
Case l:17-cv-01181-TWT
Document 15
Filed 04/17/17 Page 3 of 3
4(m). The Court is aware of Plaintiffs' prose
status, but even prose litigants are required to
obey the Federal Rules of Civil Procedure, the
Local Rules for the Northern District of Georgia,
and the Standing Order for Civil Litigation in
front of this Court.
SO ORDERED, this 17th Day of April,
RICHARD W. STORY
RICHARD W. STORY
United States Judge.

134a

APPENDIX F
Case l:17-cv-01181-RWS Document 1
Filed 04/03/17 Page 1 of 53
UNITED STATES GOVERNMENT COURT
NORTHERN DISTRICT OF GEORGIA
1 William James, Sui Juris
9100 South Drexel Ave
Chicago Illinois 60619 :
2 Terri V. Tucker AKA
(Donald-Strickland), Sui Juris
1136 Joslin Path
Douglasville, GA 30134
Plaintiffs,
CASE NO:
1:17-CV-01181-TWT
vs
VERIFIED AMENDED
1 Barbara Hunt
2 Harpo
3 Lionsgate Entertainment
4 Oprah Winfrey Network
(OWN)
5 Oprah Winfrey
6 Tyler Perry Company
7 Tyler Perry Studios (TPS)
8 Tyler Perry aka Emmett
Perry Jr. aka Emmett J.
Perry aka Emmett M. Perry
Aka Emmbre R. Perry aka
Emmitt R. Perry aka Emmett
T. Perry aka Willie M. Perry
aka Emmett Ty Perry aka
Emmett Perry aka Tyler E
135a

Perry aka Emmbre R Perry
Aka Emmitt Perry, Jr. aka
Buddy aka John Ivory
9 Judge Thomas W. Thrash, Jr.
COMPLAINT FOR
DECLATORY AND INJUNCTIVE RELIEF
AND DAMAGES FROM
RACKETEERING, CONSPIRACY TO
ENGAGE IN A PATTERN OF
RACKETEERING ACTIVITY
AND RELATED CLAIMS;
JURY DEMANDED
CIVIL RICO
18 U.S.C. 1951 through 1980
DIVERSITY
28 U.S. Code § 1369
SHERMAN ANTI-TRUST
CLAYTON ANTI-TRUST
U.S. CONSTITUTION
Defendants.
CIVIL LAWSUIT: RACKETEERING
INFLUENCED AND ORGANIZATIONS
ACT (RICO), SHERMAN ACT, CLAYTON
ACT
Case l:17-cv-01181-RWS Document 1
Filed 04/03/17 Page 5 of 53
A. INTRODUCTION
1. This is a complex civil action for
Racketeering Influenced and Organizations Act
(RICO) remedies authorized by the federal
statutes at 18 U.S.C. 1961 1(a) and 1(b) et seq.;
for declaratory and injunctive relief; for actual,
exemplary (punitive) damages; and for all other
136a

relief which this honorable District Court deems
just and proper under all circumstances which
have occasioned this Initial COMPLAINT. See,
18 U.S.C. §§ 1964(a) and (c) (“Civil RICO”). The
primary cause of this action is that the
Defendants conspired in a widespread criminal
enterprise operating as a cartel under legal
businesses engaging in patterns of racketeering
activities and organized crime across State and
international lines; conspiring to engage in
racketeering activity involving numerous RICO
predicate acts during the past ten (10) calendar
years or more.
2. The predicate acts cluster around
criminal copyright plagiarism, trafficking
counterfeit goods, tampering with and retaliation
against qualified attorneys, obstructing justice.
See, 18 U.S.C. §§, 1341, 1344, 1510, 1511, 1512,
1513 and 1581-1588, 2315, 2319, 2320 1503,
Counterfeits, Plagiarism and Forgery. See 18
U.S.C. §§1951-1980 as it pertains to RICO,
respectively.
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 6 of 53
[RICO] bring to bear the pressure of
Private Attorneys General." The objective in both
the Clayton Act and RICO is the carrot of treble
damages. See, Agency Holding Corp. v. MalleyDuff & Associates, Supreme Court Reporter
2759. See also 483 U.S. 143 at page 151 (1987).
"private attorneys general," (See Exhibit B, pp.2)
dedicated to eliminating racketeering activity. 1..
Id, at 187 (citing Malley-Duff, 483 U.S at 151)
137a

(civil RICO) The provision for treble damages.
See, Rotella v. Wood et al., 528 U.S. 549 (2000).
Dasher v. Housing Authority of City of Atlanta,
Ga., D.C.Ga., 64 F.R.D. 720, 722. See also, Equal
Access to Justice Act.
B. JURISDICTION AND VENUE
3. The Federal District Court has
Jurisdiction Pursuant to the Civil RICO remedies
at 18 U.S.C 1964 and the holdings of the U.S.
Supreme Court in the case of, Sedima, S.P.R.L. v.
Imrex Co., Inc., 473 U.S. 479 (1985) and the U.S.
Court of Appeals for the Ninth Circuit in Lou v.
Belzberg, 834 F.2d 730, hn. 4 (9th Cir. 1987),
Plaintiffs invoke and charge Defendant's with
this law for counterfeits over years of conspiracy
and racketeering.
4. Jurisdiction is based upon federal
question, to wit, the Copyright Act of 1976 and
1909 as amended. Title 17 506(a); 1201; 1202;
and 1203, United States Code; Title 18 U.S. Code
§ 2319, the Defendants conspired in Criminal
Plagiarism to commit copyright counterfeits of
Plaintiff
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 7 of 53
Intellectual Properties "Lover's Kill" hereinafter
"LK" and "Bad Apples Can Be Good Fruit"
hereinafter "BAGF" as; Model Penal Code §§
220.1.3 (1962). (See, Exhibit C, pp. 3)
6. The Sherman Antitrust Act, 15 U.S.C. §§ 1-7 is
a landmark federal statute in the history of the
United States antitrust law or ("competition
138a

law") passed by Congress in 1890. United States
v. Paramount Pictures, Inc., 334 US 131 (1948)
(See, Exhibit D, pp.5) (The Defendants executed
a violation of the Hollywood Antitrust Case of
1948. The Defendants conspired to monopolize
the television and film industry; by owning the
Studios and television network, counterfeiting
the writings of enslaved copyright owners
throughout the country, starring in counterfeited
works as their own and entering into exclusive
deals with one another. Monopoly
Section 2 of the Act forbade monopoly. Clayton
Antitrust Act Clayton Act, 15 U.S.C. §§ 12-27,29
U.S.C. §§ 52-53. 7. The U.S. Constitution -1ST
Amendment, Title 42, Part VII, Ch. 83 and
Sub-Chapter A, using name or likeness (1)
Invasion of Privacy of name and likeness (2)
Violation of the Right of Publicity; Plaintiffs
works were based on life experiences. Article 1,
Section 8, (8) Defendant's intentionally violated
the Plaintiffs exclusive copyrights by committing
plagiarism to their respective writings and
discoveries, Defendants acted in
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 8 of 53
concert of a conspiracy which violated the
creative control of how the Plaintiffs works were
articulated without an agreement.
8. Federal Conspiracy Law, two elements: (1) an
exclusive agreement was signed between Tyler
Perry aka Emmett Perry, Jr. (and all other
known and unknown aliases); Oprah Winfrey in
2013; all Defendants inclusive (2) between two
139a

Executive Owners and Chief Principal decision
makers. Laundering drug money into a legal
business enterprise, remove trade
secrets, repeatedly from 1999 through 2017.
Settlement agreements and court admissions
serve as admissible evidence against all. The
Hobbs Act Civil Conspiracy 18 U.S.C. 371, The
Defendants conspired to counterfeit, extort,
plagiarize, threaten, cause defamation of
character, retaliate, bully, forge, financially
distress using Plaintiffs intellectual property
gains. United States v. Franks, 511 F.2d 25,31
(6th Cir. 1975) 9. (WIPO), Copyright Treaty
(WCT) (1996). The WIPO Copyright Treaty
(WCT) is a special agreement under the Berne
Convention the Distributer and known
conspirator Lionsgate which committed RICO
Act, mail fraud when moving digital counterfeit
copies of the Forgery and plagiarized intellectual
properties which were protected pursuant to the
Title 17 U.S. Code 506(a) 18 U.S. Code 2319 and
all other Criminal Copyright. 10. Venue 28 U.S.
Code § 1391, Defendants are based in Atlanta,
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 10 of 53
Cause of Action
19. (1) that the defendants, Tyler Perry, Tyler
Perry Studios, Oprah Winfrey, Oprah Winfrey
Networks (OWN) received money from a pattern
of racketeering activity such as; violations of
properties protected under the
copyright act, drug money, bribery, threats
financial and physical, counterfeit and forgeries
140a

of intellectual property (2) invested that money in
an enterprise of Tyler Perry Studios and Oprah
Winfrey Network, (3) the enterprise affected
interstate commerce, and (4) an injury resulting
from the investment of racketeering income
distinct from an injury caused by the predicate
acts themselves. Johnson v. GEICO Cas. Co., 516
F. Supp. 2d 351 (D. Del. 2007)
THE FACTS
20. PLAINTIFF, William James a citizen of the
United States, authored a screenplay entitled
"Lover's Kill" (hereinafter referred to as "LK").
21. PLAINTIFF, Terri Tucker aka (DonaldStrickland) a citizen of the United States,
authored a book entitled "Bad Apples Can Be
Good Fruit." (BAGF) book, (hereinafter referred
to as "BAGF").
22 Plaintiffs discovered their original works
plagiarized, counterfeited on a
Case l:17-cv-01181-RWS Document 1
Filed 04/03/17 Page 11 of 53
large scale of racketeering in approximately
Early-March 2017. 23. During the investigation
and research by Plaintiffs acting as "Private
Attorney Generals, it was newly discovered that
this was a large-scale conspiracy on multiple
Plaintiffs.
24. PLAINTIFF'S Plaintiff Terri Tucker
contacted Plaintiff William James in February
and compared the acts of plagiarism committed
on each other's works and discovered the pattern
of-law proceedings and violations of law, cover 141a

ups, briberies it was learned and investigated by
the Plaintiffs that there was a pattern to the
Intellectual Property plagiarisms; counterfeits
and forgeries of their copyrighted works. 25. It
was discovered by the Plaintiffs that a man
named Melvin Childs who wrote in a book that
Tyler Perry's first play tours was funded by drug
dealers to fund the play that went on tour. This
illegal operation laundered the drug money using
the play and tour to put up a legal-production
studio in which served as a front for
counterfeiting,
forging
and
plagiarizing
copyrighted works of hard-working authors
which resulted in the slavery of the copyright
owners. 26. Tyler Perry publicly states he was
beat by a man who was not his father, whereas
as he changed his legal name at the age of 16
from Emmett Perry, Jr. to Tyler Perry Jr. We
discovered he is still using several aliases of his
birth name. 27. Oprah Winfrey discussed openly
that she was abused sexually and
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 12 of 53
physically and this is another basis in which
formed the relationship of the conspiracy
between Tyler Perry and Oprah Winfrey to
engage in racketeering of intellectual copyrighted
properties to grow their legal business brand
using slavery and counterfeit, manufacturing of
forged goods using the studios as the
manufacturing laboratories and Lionsgate as the
distributers. Tyler Perry and Oprah Winfrey
(OWN) conspired an exclusive agreement OWN,
142a

a private company working with a Public
company Tyler Perry Studios worked together in
an effort and succeeded to monopolize the
television and film industry while plagiarizing
peoples copyrighted protected intellectual
property. Violating the
Sherman Anti-Trust Act, U.S. Copyright Act,
engaging in RICO Activities, see below: (See,
Exhibit E, p.l)
a. Case #2:99-cv-04592-MK Melvin Childs v
Primus et al and Cartel member Tyler Perry,
filed September 13, 1999, Jurisdiction was
diversity; however, Plaintiff failed to state a
claim and case was dismissed without prejudice,
Plaintiff provided a certificate in support
of an Ex Parte Restraining Order. This shows
Threats and retaliation by Tyler Perry.
b. Case# 2:02-cv-OOI75-JLG-MRA filed on
February 26, 2002, Giant Eagle Inc. v Genesis
Insurance Co, et. El, Tyler Perry was a
Defendant. Diversity Case, in favor of Plaintiff on
October 16,2003.
Initial COMPAINT for CMI RICO Remedies
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 13 of 53
c. Case# 1:06-cv-00640-GET filed in Atlanta, GA
filed on March 20, 2006 by Rolleston et al v Tyler
Perry inflicted fear on a Diversity Torts-to Land
case. A Temporary Restraining Order was
requested on May 01, 2006 threats escalated and
on May 09, 2006 an EMERGENCY Motion for
Permanent Injunction, Emergency Motion for
Temporary Restraining Order by Rolleston and
143a

on May 12, 2006 a Motion for Recusal, Motion for
Temporary Restraining Order Motion for
Permanent Injunction and Emergency Motion for
Permanent Injunction Emergency Motion for
Temporary Restraining Order Submitted to
District Judge G. Ernest Tidwell. Defendant TP.
c. Case#2:07-cv-00200-LED-JDL was filed on
May, 21 2007 Donna West v. Perry, West stated
Tyler Perry watched her play "Fantasy of a Black
Woman" because he created a counterfeit and
forged copy of the play under the title "Diary of a
Mad Black Woman" which became a plagiarized
film. There was a trial. (Texas) however
the Plaintiff could not place Defendant in Texas
and we have newly discovered evidence,
Defendant Emmett "Buddy" Perry, Jr. was in
Texas at the time Plaintiff West was performing
her play. d. January 2008 - Plaintiff Terri Tucker
sent both Tyler Perry and
Initial COMPLAINT for CMI RICO Remedies
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 14 of 53
Oprah Winfrey her book to use for a Movie. The
company Tyler Perry Studios stated he requested
an additional copy September 2008.
William James stated June-2011 he provided his
screenplay to Oprah Winfrey's Senior Accountant
Barbara Hunt who wanted the other 2
copyrighted intellectual works. Lisa Daniels
stated she provided Oprah Winfrey with her
screenplay which became a television show for
Tyler Perry. This conspiracy shows a pattern of
trafficking intellectual property over the past 10
144a

years amongst Defendants in concert. Lionsgate
is the trafficker, international pirated and illegal
intellectual goods distributor nationally and
worldwide.
e. Case # 2:09-cv-08712-JFW-VBK filed on
November 25, 2009 "Madea Goes to Jail sued by
the estate of Bertha V. James v The Tyler Perry
Company; Tyler Perry crime syndicate cartel
member and Lionsgate Entertainment Corp
trafficker distributor of counterfeit and
manufacturer of forged goods.; Lions Gate Films,
Inc. copyright plagiarism (California). Ended
settlement agreement. (Admission to Guilt)
f. Case#2:10-cv-00784-GW-RZ Filed on February
03, 2010 Johnny Tyrone Stringfield v Tyler Perry
et el copyright plaigerism of a Television show
• "Meet the Browns. (California) Counterfeited and
Initial COMPLAINT for Civil RICO Remedies
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 15 of 53
plagiarized a song for Tyler Perry Studios. On
October 16, 2010 Settlement was reached.
(Admission to Guilt) g. Case# 2:ll-cv-10099-UADUTY filed on December 06,2011 Shamont Lyle
Sapp v. Jamie Foxx and Tyler Perry; lYler Perry
Studios front for eliciting plagiarized intellectual
property protected by copyrights registrations
and Fox Broadcasting Network from an inmate.
Case was Voluntarily Dismissed copyright
plagiarism on May 10,2012. (Settlement
Admission to guilt or threatened to drop case)
h. Case# Whitehead v White & Case #5: 12-cv00399-RTHMLH filed on February 10, 2012,
145a

L.L.P, et el $75,000,000.00. The Defendants were
a multitude of people to include, Tyler Perry, the
distributor of counterfeit goods Lionsgate and the
Head Ring Leader Oprah Winfrey who
orchestrates the illegal activity. 440 Civil Rights
SCCA 14-31224 and SCCA, 15-30348.
i. Case # 3: 12-cv-00559-HES-MCR filed on May
09,2012 Maressa M. Holt, Plaintiff, v. Tyler Perry
a/k/a John Ivory (Alias),.(United States District
Court, M.D. Florida, Jacksonville Division). June
14,2012. (copyright plagiarism) (Florida). The
writer states her short stories and plays were
plagiarized by Tyler Perry operating under a
false name John Ivory.
Initial COMPLAINT for CMI RICO Remedies
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 16 of 53
i. Case#2:12-cv-06629-HB filed on November 27,
2012- Terri Donald v Tyler Perry Studios and
Lionsgate in (PA,) crime syndicates this case was
out of compliance and defaulted pursuant to FR
12 & 55 answer was due by December 28,2012
before the transfer from PA to New York on
March 8, 2013. Attorney Simon Rosen served
Tyler Perry and Lionsgate the same day the case
was filed on November 27,2012. The record is
devoid of written request for extensions; request
for transfer pursuant to 28 USC 1404(a) and any
appearance by known attorney Tom J. Ferber.
Oprah Winfrey initially received this book for
the book club in 2008, Defendants signed an
exclusive deal when case was dismissed 2013.
Extortion and intimidation retaliation and
146a

threats were made to Plaintiffs’ attorney Simon
Rosen. Enforcing Plaintiff in to slavery for
working on the multi-million-dollar plagiarized
works. This RICO act violation also violates the
Sherman Anti-trust Act since the companies
refuse to allow writers to represent their own
works and place the counterfeited works under
registrations obtained from the copyright’s offices
in their names. Violating the competition
Sherman Anti-Trust Act not allowing others to
represent themselves and their own works, the
conspiracy to defraud the government and
laundering illegal funds gained to front legal
businesses. (Audio Records Avail.)
Initial COMPLAINT for CMI RICO Remedies
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 25 of 53
COUNT THREE: INJUNCTIVE RELIEF
(AGAINST.THE
DEFENDANTS)
6. Paragraphs 1 through 32 inclusive, are
incorporated by reference as
though fully set forth herein and made part
hereof.
7. PLAINTIFF'S Invoke Sherman Anti-Trust
Act, the Hobbs Act, the U.S. Constitution, The
Copyrights Act, The Constitution of Georgia, The
Case l:17-cv-01181-RWS Document 1 Filed
04/03/17 Page 26 of 53
Federal Conspiracy Law and Defendants
improper unlawful and repeated actions has
caused, and, continues to cause irreparable
147a

damage to PLAINTIFFS Character, Film Career,
Image, Name, Reputation, Ability to earn future
revenues in this industry, emotional and mental
distresses, physical distress, relationship
distress, undue hardships in work and at home,
time and attention from family and friends to
divert to investigating and litigating for
intellectual
property
counterfeited
and
plagiarized.
APPENDIX F
Case l:17-cv-01181-TWT
Document 177
Filed 08/23/18 Page 1 of 11
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
X

WILLIAM JAMES, ETANO.,)) Plaintiffs,)
)
v. ) Case No. 1:17-CV-01181-TWT
)
)
BARBARA HUNT, ETAL., )
) Defendants.
X

)

DEFENDANTS’
OPPOSITION
TO
PLAINTIFFS’ MOTION TO AMEND NOTICE
OF APPEAL AND FILE SUPPLEMENTAL
BRIEFS (DKT. NO. 170), PLAINTIFFS’
MOTION FOR PERMISSION TO FILE
OBJECTION AND OPPOSITION TO COURT
ORDERS (DKT. NO. 171), AND PLAINTIFFS’
MOTION FOR PERMISSION TO FILE
MOTION FOR RECONSIDERATION (DKT.
NO. 172)
Richard A. Gordon
RICHARD A. GORDON, P.C.
148a

1495 Powers Ferry Road - Suite 101 Marietta, GA
30067
phone: (770) 952-2900
fax: (770) 988-9650
rglaw@bellsouth.net
- and Tom J. Ferber
Admitted pro hac vice
PRYOR CASHMAN LLP
7 Times Square
New York, New York 10036-6569
phone: (212) 421-4100
fax: (212) 798-6388 tferber@pryorcashman.com
Case
Case l:17-cv-01181-TWT Document 177
Filed 08/23/18 Page 2 of 11
PRELIMINARY STATEMENT
Defendants 1 file this opposition to the three
latest filings by plaintiffs Terri V. Tucker
(“Tucker”) and William James (“James,” and
collectively, “Plaintiffs”), all filed on August 20,
2018 (hereafter referred to as “Motion #170,”
“Motion #171,” and “Motion #172,” and
collectively as the “Motions”).2 As set forth
below, the Motions are largely incomprehensible,
in violation of the Court’s recently-issued
injunction, likely outside the Court’s jurisdiction,
and should be stricken and/or denied.
ARGUMENT
Background — The Court Issues an All Writs Act
Injunction In an order filed August 10, 2018 (Dkt.
149a

No. 168; hereafter “Order #168”), the Court
granted Defendants’ motion for summary
judgment on their counterclaim for an All Writs
Act injunction.
APPENDIX F
Case: 18-13553 Date Filed: 01/17/2019
Page: 5 of 11
APPELLEANTS WILLIAM JAMES AND
TERRI TUCKER JOINT PERMISSION TO
FILE
SUPPLEMENTAL
EXHIBITS
TO
FURTHER
SUPPORT THE RECORD IN A MATTER OF
EXCEPTIONAL IMPORTANCE THAT MAY
HAVE DEFERENCE OF THE OUTCOME I OF
THE CASE WITH AFFIDAVITS AND
DECLARATION TO PROVIDE INFORMATION
AS IT RELATES TO THE DISTRICT COURT
JUDGE AND THE APPELLEES ON A
CONFLICT OF INTEREST TO FURTHER
SUPPORT THE CLAIM THAT THE JUDGE
SHOULD
HAVE
RECUSED
HIMSELF
PUSUANT TO 28 U.S. 133, 4551 William James
and Terri Tucker Generals" JOINTLY
DECLARES AS FOLLOWS:
The two are Appellants/ Plaintiffs/Counter
Defendants and are "Pro Se Litigants" and
Private Attorney Seeking Leave of the Eleventh
Circuit Court (11th. Cir.) to provide information
in support of the District Judge and the Appellees
involved in a conflict of interest that further
supports why the Judge violated the Jurisdiction
and abused his discretion:

150a

1) Annexed hereto as -Internet Record
Showing Judge Thomas W. Thrash Jr. of Cobb
County's daughter Maggie Thrash having Tyler
Perry Direct and Produce, Exhibit 1.
2) Annexed hereto as - Annie Thrash of
Cobb County being cast into Tyler Perry
television show for TLC Network "Too Close to
Home" in 2016-2017, Exhibit 2.
3) Annexed hereto as - Appellee Judge
Thrash and Family Maggie Thrasl in a
photo in an Article, Exhibit 3
a. An Affidavit
Case: 18-13553 Date Filed: 01/17/2019 Page: 6
of 11
Date: January 17,2019
I
William James
PRIVATE ATTORNEY GENERAL
3058 Fresno Lane
Homewood, Illinois 60430
Email: BJ255758@yahoo.com
Phone: 773-990-9373
Terri Tucker (aka)
6
Donald-Strickland I
PRIVATE ATTORNEY GENERAL
1136 Joslin Path
Douglasville, GA 30134
Email: terrilowe43@gmail.com I
Phone: 678-822-4593
a. An Affidavit

151a

Case: 18-13553 Date Filed: 01/17/2019 Page: 1
of 10
Annexed hereto as -Internet Record
Showing Judge Thomas W. Thrash Jr. of
Cobb
County's daughter Maggie Thrash having
Tyler Perry Direct and Produce
Exhibit 1
Case: 18-13553 Date Filed: 01/17/2019 Page:
2 of 10
1/16/2019
Google
Maggie Thrash and Tyler Perry - Google Search
Maggie Thrash and Tyler Perry
All - News - Images - Videos - Shopping - More
Settings - Tools
About 181,000 results (0.55 seconds)
Maggie Thrash I Revolvy
https: llwww.revolvy.com/ page/ Maggie-Thrash
Maggie Thrash IS an American young adult
fiction writer and memoirist, best soap opera
created, executive produced, written, and
directed by Tyler Perry
You've visited this page 4 times. Last visit •
1/14/1 9
People also ask
Is the haves and the havenots Cancelled?
What city is the haves and have nots filmed in?
Who are the new cast members of the haves and
have nots?
Who plays Katherine on the haves and have
nOts?
Feedback
EXHIBIT I, P. 1 OF 2
152a

https:llwww.google.com/search?rlz=lClCHZL_e
nU S752US752&ei=I_XKeKN8m 7 tgXU2bTwC w
&q=Maggie+Thrash+and+Tyler+Perry&oq=Ma
ggie+
Case: 18-13553 Date Filed: 01/17/2019 Page:
4 of 10
Annexed hereto as - Annie Thrash of Cobb
County being cast into Tyler
Perry television show for TLC Network
"Too Close to Home" in 2016-2017
Exhibit 2
Case: 18-13553 Date Filed: 01/17/2019 Page:
5 of 10
1/16/2019
Annie Thrash and Tyler Perry
All Images News Shopping Videos More
Settings Tools
About 3,170,000 results (0.44 seconds)
Too Close to Home (TV series) - Wikipedia
https:l/en wikipedia.org/wiki /Too-Close to Home
TV series)
Too Close to Home IS an American television
drama series, created, executive produced,
written and directed by Tyler Perry that debuted
on TLC on August 22,2016 Danielle Savre as
Annie Belle Anna Hayes A woman who works In
the Annie Thrash as Rebel Anna S 15-year-old
daughter that she left
behind to
No. of seasons 2 Original network TLC
No. of episodes 16 (list of episodes) Original
release August 22 2016 - February
153a

Case: 18-13553 Date Filed: 01/17/2019 Page: 5
of 10
Images for Annie Thrash and Tyler Perry
-7 More Images for Annie Thrash and Tyler Perry
Report images
Tyler Perry's Too Close To Home Returns
January 4, 2017 I TLCme ...
www.tlc.com/t I cme/tyl er -perrys-too-cl ose-tohorne-ret urn s-to-tl c-on-j a nu ary-4-201 71
Nov 17, 2016 - Tyler Perry's Too Close to Home
returns to TLC on Jan 4, 2017 Mobley), Curran
Walters (Mack), Annie Thrash (Rebel), Justlll
Gabriel (RICk),
About The Show - Too Close to Home I TLC
https:Pwww.tlc.com/tv-shows/too-close-tohome/about
Tyler Perry's Too Close To Home' was TLC's first
ever scripted senes. Meanwhile, Rebel (Annie
Thrash) IS getting Into dangerously hot watel
when an all -too Annie Thrash - IMDb
https:l/www.imdb.com/name/nm8191557/..
Annie Thrash IS an actress, known for Too Close
to Home (2016), Mine 9 (2019) and Too Close to
Home Season Two Renewal for Tyler Perry TLC
Drama Tyler Perry's Too Close to Home': oh no
they didn’t
https:l/ohnotheydidnt.livejournal.comI10294953
5.html. Daniel le Savre, Brock 0 Hurn, Kel ly
Sullivan, Brad Benedict, Brooke Anne Smith,
Alpha Tnvette, Tllslla Rae Stahl, Robert Cra
ighead, Annie Thrash, Curran
Too Close to Home' Tyler Perry TLC Drama
Series Gets Premiere https: Pdeadline.com/too154a

close-to-home-tyler-perry-tlc-drama-seriespremiere-date- Jul 21, 2016 - Tyler Perry To Host
Aretha Franklin Tribute Special for CBS
Tnvette, Tarsha Rae Stahl Robert Craighead,
Annie Thrash, and Curran Walters
Tyler Perry's Too Close to Home' Season 2 Gets
Midseason Premiere _
https:Fdeadline.com/tyler-perry-too-close-tohome-season-2-debubut-january-4-tl c-1. Nov 16,
2016 - Tyler Perry To Host Aretha Franklin
Tribute Special for CBS Curran Walters (Mack),
Annie Thrash (Rebel), Justin Gabrrel (Rick),
Nick Ballard Los Angeles, CA, USA. 16th Aug,
2016. Annie Thrash at arrivals for _
https:Fwww.alallly.com/stock-photo-losangeles-ca-usa-16th-aug-2016-annie-thrash-a.
EXHIBIT 2, P. 1 OF 2
APPENDIX F
Case l:17-cv-01181-RWS
Document 31
Filed 05/11/17 Page 1 of 4
IN THE UNITED STATES DISTRICT
COURT NORTHERN DISTRICT OF
GEORGIA
WILLIAM JAMES,) and TERRI V. TUCKER
AKA) (Donald Strickland),)) Plaintiffs)) 1:17CV-1181-RWS vs. ) ) BARBARA HUNT, )
HARPO, ) LIONSGATE ENTERTAINMENT, )
OPRAH WINFREY NETWORK (OWN), )
OPRAH WINFREY, and ) TYLER PERRY
COMPANY,) TYLER PERRY STUDIOS (TPS))
and TYLER PERRY, ) ) Defendants. )
DEFENDANTS,
THE
TYLER
PERRY
155a

COMPANY, INC., TYLER PERRY STUDIOS,
LLC AND TYLER PERRY’S MOTION FOR
REASSIGNMENT OF CASE BASED ON
PLAINTIFFS FAILURE TO DISCLOSE PRIOR
RELATED CASES
Defendants, The Tyler Perry
Company, Inc., Tyler Perry Studios, LLC, and
Tyler Perry hereby make and file their Motion for
Reassignment of Case Based on Plaintiffs’
Failure to Disclose Prior Related Cases, as
follows: 1. Plaintiff, Terri V. Tucker, formerly
known as Terry V. Strickland, formerly known as
Terri V. Donald has brought the within action for
recovery of civil RICO damages, alleging
predicate acts of copyright infringement and
counterfeit goods. (See Doc. 1 and Doc. 15.)
Case l:17-cv-01181-RWS
Document 31
Filed 05/11/17 Page 2 of 4
2. Plaintiff, Terri V. Tucker has brought at least
two prior civil actions based on allegations of the
same facts as claimed in the within civil action:
Terri V. Donald v. The Tyler Perry Company,
Inc., Case No. 2:12-6629 (E. Dist. PA, Nov. 2012),
transferred as: Terri V. Donald v. The Tyler
Perry Company, Inc., Case No. 13CV-1655, (S.
Dist. NY, Mar. 2013); and most recently, Terri V.
Strickland v. Tyler Perry, Case No. l:15CV-3400
(N. Dist. GA, Sep’t. 2015, J/Thomas W. Thrash),
dismissal affirmed, Case No. 16-11601, USCA 11TH Circuit, April, 2017.) 3. In the filing of the
within civil action, Plaintiffs failed to disclose in
their Civil Cover Sheet, Section VIII, the related
case of Strickland v. Tyler Perry, Case No.
156a

l:15CV-3400 of this Court, Judge Thomas W.
Thrash presiding, dismissal affirmed Case No.
16-11601, USCA 11th Circuit. 4. A true copy of
the Civil Cover Sheet as filed by Plaintiffs is
attached hereto as “Exhibit-A”. 5.
The within civil action is deemed related to the
prior case, No. l:15CV-3400 of this Court because
the pending case involves: (a) the same issue of
fact or arises out of the same event or transaction
included in an earlier numbered suit; (b) the
validity or infringement of the same patent,
copyright, or trademark included in an earlier
numbered suit; and (c) repetitive cases filed by
pro se litigants.
Appendix F
Case l:17-cv-01181-TWT Document 74-1
Filed 06/27/17 Page 8 of 33
Defendants
respectfully
submit
this
memorandum of law in support of their motion
for judgment on the pleading pursuant to Federal
Rule of Civil Procedure 12(c).
Preliminary Statement
Without regard for judicial resources or the
previous judgements of this and other federal
courts, plaintiffs are attempting to re-litigate
previously dismissed copyright infringement,
inexplicably alleging that their failed copyright
claims support a Civil RICO claim. Plaintiffs now
implausibly and frivolously assert defendants
operated a criminal “cartel” engaged in acts of
copyright infringement, which this cart and two
other courts summarily found not to exist. Not
157a

only are plaintiffs ‘allegations absurd and legally
insufficient, but they are also barred by the
doctrines of res judicata and collateral estoppel just as this court and the eleventh circuit held in
connection with Plaintiff Tucker’s previous
attempt to relitigate her failed copyright claim.
Plaintiffs’ purported Civil RICO claim is also
Plaintiff Tucker alleges the
time barred.
defendants infringes her copyrighted book Bad
Apples can be good fruit” (BAGF’) through the
Tyler Perry Movie “Good Deeds”, while plaintiff
James alleges that Defendants infringed his
copyrighted screenplay “Lovers Kill”, through the
Tyler Perry movie, “Temptation, Confessions of a
Marriage Counselor” (“Temptations”). Plaintiffs
acknowledge that their copyright infringement
cases have been litigated previously (twice, in
regard to Tucker’s claim) and dismissed with
prejudice. (Compl. 27(i), 27(j), (32(a), (32(b).) Yet
Plaintiffs nevertheless bring these claims again,
in total disregard of the prior judgments against
them.
Plaintiffs filed their complaint in the instant
action pro se on April 3, 2017, just four days after
he United States Court of Appeals for the
Eleventh Circuit denied Tucker’s Petition for
rehearing in her second attempt to litigate her
copyright infringement claim.
Case l:17-cv-01181-TWT
Document 89
Filed 07/10/17 Page 2 of 11
Pursuant to Federal Rule of Civil Procedure
26(c)(1) and Northern District of Georgia Local
Rule
26.2(B),
Defendants
Lions
Gate
158a

Entertainment, Harpo, Inc., Oprah Winfrey
Network, Oprah Winfrey, the Tyler Perry
Company, Tyler Perry Studios, and Tyler Perry
(collectively, “Defendants”) hereby move the
Court for relief in the form of a Protective Order,
to stay discovery, and to modify the discovery
period. PRELIMINARY STATEMENT Through
the filing of the instant action, Plaintiffs have
blatantly disregarded the previous judgments of
this Court and other federal courts. Plaintiffs’
copyright infringement claims (now repackaged
as a purported civil RICO claim) have previously
been litigated and dismissed with prejudice
(twice, for plaintiff Tucker’s claim). Plaintiffs
have now sought to initiate discovery by filing a
purported “Joint Preliminary Report and
Discovery Plan’T and two “Notice [s] of Discovery
Initiated by Plaintiffs.” (See Doc. Nos. 63, 65, 66.)
On June 27, 2017, Defendants filed a dispositive
motion under Federal Rule of Civil Procedure
12(c) (see Doc. No. 74) because Plaintiffs’ instant
claims are barred by res judicata and/or collateral
estoppel (as this Court so recently held).2
1 This “Joint Plan” was filed solely by Plaintiffs,
not Defendants. 2 Strickland v. Perry, No. 1:15CV-3400-TWT (N.D. Ga. Mar. 24 2016) (Thrash,
J.), affd, Strickland v. Perry, No. 16-11601 (11th
Cir. Jan. 19, 2017).
Case l:17-cv-01181-TWT
Document 89
Filed 07/10/17 Page 5 of 11
disclosure or discovery; (C) prescribing a
discovery method other than the one selected by
the party seeking discovery; (D) forbidding
159a

inquiry into certain matters, or limiting the scope
of disclosure or discovery to certain matters.”
Fed. R. Civ. P. 26(c)(1). Similarly, Northern
District of Georgia Local Rule 26.2(B) provides
that “[t]he court may, in its discretion, shorten or
lengthen the time for discovery.” LR 26.2(B),
NDGA. As set forth in the Certification Pursuant
to Federal Rule 26(c)(1), counsel for Defendants
has conferred with the pro se Plaintiffs to resolve
the issues presented by this Motion, but the
parties were unable to agree on such a resolution.
Because Defendants’ Rule 12(c) motion seeks
dismissal as a matter of law, Plaintiffs have no
need for discovery. Additionally, Plaintiffs would
not be prejudiced if the Court stayed discovery,
but if discovery were to move forward,
Defendants would be prejudiced by being forced
to spend more money on a frivolous and meritless
case which was effectively brought in violation of
this Court’s last order of dismissal. Strickland,
No. l:15-CV-3400-TWT (N.D. Ga. Mar. 24 2016)
(Thrash, J.), affd, Strickland v. Perry, No. 1611601 (11th Cir. Jan. 19, 2017). Wherefore, upon
the foregoing facts and authorities, Defendants
move the Court for entry of an Order that:
Case l:17-cv-01181-TWT
Document 89
Filed 07/10/17 Page 6 of 11
1. Protects Defendants from any duty to respond
or object to Plaintiffs’ “Joint” Preliminary Report
and Discovery Plan [Doc. No. 63] and Notices of
Discovery Initiated by Plaintiffs [Doc. Nos. 65-66]
until 30 days after entry of an Order upon
Defendants’ motion for judgment on the
160a

pleadings, in the event that the within civil action
is not thereby disposed of; 2. Stays further
discovery until 30 days after entry of an Order on
Defendants’ motion for judgment on the
pleadings, in the event that the within civil action
is not thereby disposed of; and 3. Modifies the
four-month discovery track provided by Local
Rule, to provide that discovery shall proceed for
four months next following entry of an Order on
Defendants’ motion for judgment on the
pleadings, in the event that the within civil action
is not thereby disposed of. Respectfully submitted
this 10th day of July 2017.
RICHARD A. GORDON, P.C.
By: /s/Richard A. Gordon
Richard A. Gordon Ga. Bar No. 302475
1495 Powers Ferry Road - Suite 101
Marietta, GA 30067
phone: (770) 952-2900
fax: (770) 988-9650
rglaw@bellsouth.net

161a

